<html>
<title> - EFFECTS OF CLIMATE CHANGE AND OCEAN ACIDIFICATION ON LIVING MARINE ORGANISMS</title>
<body><pre>[Senate Hearing 110-1210]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1210
 
  EFFECTS OF CLIMATE CHANGE AND OCEAN ACIDIFICATION ON LIVING MARINE 

                               ORGANISMS
=======================================================================



                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
79-908                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         TRENT LOTT, Mississippi
JOHN F. KERRY, Massachusetts         GORDON H. SMITH, Oregon
BARBARA BOXER, California            JOHN E. SUNUNU, New Hampshire
BILL NELSON, Florida                 JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware
AMY KLOBUCHAR, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2007.....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Klobuchar...................................     5
Prepared statement of Hon. Olympia J. Snowe, U.S. Senator from 
  Maine..........................................................     3
Statement of Senator Stevens.....................................     4

                               Witnesses

Conover, Ph.D., David O., Dean and Director, Marine Sciences 
  Research Center, Stony Brook University........................    19
    Prepared statement...........................................    20
Doney, Ph.D., Scott C., Senior Scientist, Department of Marine 
  Chemistry and Geochemistry, Woods Hole Oceanographic 
  Institution....................................................     6
    Prepared statement...........................................     7
Feely, Ph.D., Richard A., Supervisory Chemical Oceanographer, 
  Pacific Marine Environmental Laboratory, NOAA, U.S. Department 
  of Commerce....................................................    13
    Prepared statement...........................................    15
Hansen, Dr. Lara J., Chief Scientist, Climate Change Program, 
  World Wildlife Fund............................................    24
    Prepared statement...........................................    25
Kruse, Ph.D., Gordon H., President's Professor of Fisheries and 
  Oceanography, School of Fisheries and Ocean Sciences, 
  University of Alaska Fairbanks.................................    33
    Prepared statement...........................................    35
Watkins, James D., Admiral (Ret.), U.S. Navy; Chairman, U.S. 
  Commission on Ocean Policy; Co-Chair, Joint Ocean Commission 
  Initiative.....................................................    43
    Prepared statement...........................................    45

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    65
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey, prepared 
  statement......................................................    65
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Scott C. Doney, Ph.D.........................................    66
    Richard A. Feely, Ph.D.......................................    82
    Dr. Lara J. Hansen...........................................    93
    James D. Watkins.............................................   100
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Scott C. Doney, Ph.D.........................................    66
    Richard A. Feely, Ph.D.......................................    77
    Dr. Lara J. Hansen...........................................    92
    James D. Watkins.............................................    94
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Scott C. Doney, Ph.D.........................................    69
    Richard A. Feely, Ph.D.......................................    84


                  EFFECTS OF CLIMATE CHANGE AND OCEAN

                ACIDIFICATION ON LIVING MARINE ORGANISMS

                              ----------                              


                         THURSDAY, MAY 10, 2007

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:22 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. The Senate Committee on 
Commerce, Science, and Transportation and the Oceans, 
Atmosphere, Fisheries, and Coast Guard Subcommittee hearing 
will come to order. I thank the witnesses for their indulgence. 
The Senate had a vote and some of my colleagues I am sure will 
be joining us shortly. But I thought that we should go ahead 
and get started. I thank you very much for being here.
    I know that we have a distinguished set of witnesses: Dr. 
Scott ``DONN-ey,'' is that right?
    Dr. Doney. ``DOE-ney.''
    Senator Cantwell. ``DOE-ney.'' Thank you very much.
    Dr. Richard Feely; is that correct? I should know that, 
given your presence in the Pacific Northwest. Dr. David 
Conover, Dr. Lara Hansen, Dr. Gordon Kruse, and Admiral James 
Watkins. Thank you for returning to the Committee and for your 
steadfast involvement in this issue.
    I know that some of you have PowerPoint presentations and 
we will try to accommodate you this morning on that and give 
you a few extra minutes and, as I said, as my colleagues arrive 
we will also give them time to make opening statements.
    I would like to again welcome each of you to this important 
Committee to talk about the impact of climate change and ocean 
acidification on our living marine resources. Today you 
represent some of the top experts in the field of ocean and 
climate change and I would like to thank each of you for your 
testimony and for your leadership in this area.
    Since the start of the Industrial Revolution 200 years ago, 
humans have released over 1.5 trillion tons of carbon dioxide 
into the atmosphere and only now are we beginning to understand 
the implications of this. When scientists first started raising 
questions about our carbon dioxide emissions in the 1950s, very 
little was known about the possible consequences. Some 
predicted that carbon dioxide would accumulate in the 
atmosphere. Others predicted it would be absorbed by the 
world's oceans. Today we know that both of those were correct.
    Human-caused emissions have increased the global 
atmospheric carbon dioxide concentration by 35 percent. In 
addition, over half a trillion tons of carbon dioxide have been 
absorbed by our oceans. We are already seeing the impacts of 
this on our oceans and our coastal ecosystems. If we continue 
with business as usual, the ecological, social, and economic 
consequences are likely to be severe.
    After extensive scientific research, climate scientists now 
know that global warming is happening and it is happening 
because of human use of fossil fuel. We are seeing more results 
of global warming every day. Year after year, our polar ice 
caps are receding, glaciers are shrinking rapidly, even 
disappearing, and, to give one example from my home state, the 
Intergovernmental Panel on Climate Change recently reported 
that the mountain snow pack that feeds the Columbia River 
system is shrinking away, producing less and less water for the 
rivers every year.
    While these easy-to-see impacts of global warming are 
highly disturbing, we are here today to examine the impacts 
that are not quite as visible, but yet just as severe: those 
that occur beneath the surface of our oceans. The impact of 
climate change on coastal communities from sea level rise and 
increased storm intensity have been the focus of much 
attention. But climate change also poses risks to our Nation's 
multibillion dollar fishing industry. In fact, global warming 
could threaten the very integrity of our oceans' ecosystem, 
possibly wiping out more vulnerable ecosystems like coral 
reefs.
    These are frightening possibilities, but very real ones. 
While it may not be easy to see the impacts of global warming 
in the ocean, it is vital that we examine it. If we wait until 
these problems are too painful or too obvious to ignore, it 
will be far too late. While carbon dioxide is accumulating in 
our atmosphere, it also is being absorbed by oceans, and 
approximately one-third of carbon dioxide emissions end up in 
the oceans.
    For decades we assumed that the oceans would absorb these 
greenhouse gases to the benefit of our atmosphere, with no side 
effects for our seas. Emerging science now shows we were wrong. 
Thanks in no small part to the work of our panelists; we now 
know that the absorption of carbon dioxide actually changes the 
very chemistry of our oceans. Sea water becomes more acidic and 
begins to withhold the basic chemical building blocks needed by 
many marine organisms. Coral reefs, the rain forests of the 
sea, cannot build their skeletons, and in colder waters, 
scientists predict, more acidic oceans can dissolve the shells 
of tiny organisms that make up the base of the ocean's food 
chain.
    When it comes to ocean acidification, we risk not just 
damaging the oceans' ecosystem; we are threatening its very 
foundation. The social and economic costs to the world's 
fisheries and fishery-dependent communities are incalculable. 
Managers at the State and local and regional levels must be 
able to anticipate and develop strategies to address these 
threats.
    The danger of global climate change and ocean acidification 
can be illustrated with one example from my home state of 
Washington. Washington is home to a very important salmon 
population. Salmon are a $330 million industry in the Pacific 
Northwest and certainly a cultural icon. As I mentioned 
earlier, the global warming will continue to reduce the 
snowpack that feeds our rivers will continue to have impacts. 
As these waters become less, the waters will become warmer. 
Salmon rely on a predictable, steady flow for their survival.
    Every coastal State can point to examples like these, and 
these examples are far too important to ignore. Both global 
warming and ocean acidification have the same cause and the 
same solution--we must reduce our emissions of carbon dioxide. 
If we fail to address the potential impact of global climate 
change and ocean acidification, we can be jeopardizing all we 
have fought so hard for on ocean conservation and the gains 
that have already been made. These are difficult words to hear, 
I think, but reflect a difficult reality.
    Again, I want to thank all of you for joining us and for 
your hard work on this very important issue. We look forward to 
your testimony.
    I know I have been joined by Senator Stevens, the Ranking 
Member of the full Committee, and I invite him to make any 
opening comment, and to note that Senator Snowe is unable to 
join us today because of a conflict, but is reviewing the 
testimony and will be very involved in any further steps and 
will look forward to seeing the testimony of the witnesses. But 
I thank Senator Stevens for his participation and his presence 
here this morning.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Madam Chair, for calling this critical hearing to 
discuss how climate change may affect the future of our oceans and 
their living marine resources. I am pleased that this committee is so 
actively investigating the burgeoning issue of ocean acidification--a 
topic that in just a few short years has developed from a relatively 
unknown theory into what is potentially one of the most disconcerting 
aspects of ocean-related climate science.
    Lost in much of the discussion of climate change has been its 
potential impacts on the oceans' corals, fish, and other species. 
Recent research--much of it conducted by members of our esteemed panel 
of witnesses--has indicated that as a direct result of the precipitous 
increase in carbon dioxide in our atmosphere, our oceans are warming 
and becoming more acidic. If we continue to allow emissions of carbon 
dioxide to increase, we could see drastic, worldwide impacts in our 
oceans, from species migration and coral bleaching to widespread 
extinctions.
    The oceans drive much of our Nation's economy, as well as that of 
my home state of Maine. Throughout our state's history, stewardship of 
our marine resources has pervaded our maritime activities. Nowhere is 
this more evident than in our lobster fishery, which for generations 
has engaged in self-imposed, sustainable fishing practices. The result 
of that stewardship is a robust industry that landed over $270 million 
worth of lobster in 2006. Today, that fishery faces potential danger. 
Not from the activities of our lobstermen, but from the potential 
effects of global climate change.
    In 1999, the lobstermen of Long Island Sound began pulling up pots 
full of dead lobster. According to a study by Connecticut's Sea Grant 
program, that fall, commercial landings from western Long Island Sound 
plummeted an astounding 99 percent from the previous year. Nearly 
three-quarters of the Sound's lobstermen lost all of their income. The 
study concluded that, ``the physiology of the lobsters was severely 
stressed by sustained, hostile environmental conditions, driven by 
above average water temperatures.'' In other words, warming ocean 
temperatures created conditions that killed these lobsters and 
decimated the fishery.
    The lobster industry's collapse in Long Island Sound may be a 
harbinger for other fisheries. Evidence is mounting that anthropogenic 
emissions of greenhouse gasses--carbon dioxide in particular--are 
disrupting the forces that drive our climate and in turn, our oceans. 
Approximately a third to a half of global manmade carbon dioxide 
emissions have already been absorbed into the world's oceans. This 
amount will double by 2050, and all indications are that this will 
increase the acidity of the oceans' surface and could initiate the 
largest change in pH to occur in as many as 200 million years. Clearly, 
the consequences of such a shift could be catastrophic. Which is why my 
colleague Senator Kerry and I introduced S. 485, the Global Warming 
Reduction Act of 2007. This legislation is the only introduced climate 
bill that specifically calls for research to address the vulnerability 
of marine organisms throughout the food chain to increased carbon 
dioxide emissions. It also requires an assessment of probability that 
such a change will cost us more than 40 percent of our coral reefs--
delicate ecosystems that are especially vulnerable to both ocean 
acidification and warming.
    And coral reefs are just as integral to the economy and heritage of 
tropical states such as Florida and Hawaii as fisheries are to Maine. 
In order to protect these resources, we must understand what is 
happening to them. The final report of the U.S. Commission on Ocean 
Policy, chaired by Admiral Watkins who is testifying before us today, 
calls for development and implementation of a sustained Integrated 
Ocean Observing System to provide the data necessary to understand the 
complex oceanic and atmospheric systems--including pH, temperature, 
salinity and the speed and direction of currents--that comprise our 
oceans. I know the scientists here today also support that initiative, 
and I support it as well.
    In each of the past two Congresses, I have introduced a bill to 
authorize an Integrated Ocean Observing System and develop a national 
framework to oversee and our numerous, successful, independent regional 
observing systems. Twice this bill has passed the Senate unanimously, 
but failed to pass the House. I have introduced a new version of this 
bill--the Coastal and Ocean Observation Systems Act of 2007, S. 950--in 
the 110th Congress, with sixteen bi-partisan co-sponsors, and I am 
working closely with members from both chambers to ensure that this 
bill becomes law as soon as possible.
    Mounting evidence linking carbon emissions to potentially 
devastating changes in the hydrology of our oceans compels us to act 
now to protect the future of the irreplaceable resources found beneath 
the waves. I will continue to do everything in my power to provide our 
scientists with the requisite tools to carry our their research and 
ensure that we prevent further damage to these vital ecosystems. I 
thank Doctors Feely, Conover, Doney, Kruse, and Hansen and Admiral 
Watkins for taking the time to engage in what I believe will be a 
fruitful and fascinating discussion, and I look forward to hearing all 
of your testimony.
    Thank you, Madam Chair.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much.
    To maintain our sustainable fisheries, it is important that 
we try to understand how changes to the oceans' environment 
affect our fish stocks. Much of the focus on Capitol Hill and 
in the media is centered on how climate change will affect life 
on land through higher temperatures, storms, and sea levels. 
What many do not realize is that the oceans may change as well 
and, as the chairwoman has said, if the predictions are 
accurate these changes could have economic and serious 
consequences.
    Warm ocean temperatures are causing widespread coral 
bleaching in the Caribbean. In Alaska some species are moving 
north. There is concern about how these changes will affect the 
fisheries off our shores--half the coastline of the United 
States is in Alaska.
    We know very little about these changes. We do not know how 
much this change is due to natural variations and how much is 
manmade. In Alaska our fisheries have been impacted in the past 
due to natural variations in ocean temperature caused by the 
Pacific Decadal Oscillation shifts in ocean currents. Some 
fisheries in Alaska have flourished due to warmer temperatures. 
Others have seen temporary declines.
    I am pleased to see these panelists here today, Madam 
Chairman. What we have been witnessing could have serious 
consequences for marine life and fisheries worldwide, and I 
know these panelists can help the Committee identify some of 
the current gaps in our knowledge. We need to make sure the 
Federal agencies have the resources in the right places to 
study ocean acidification and climate change.
    I thank the panelists. I do particularly thank Dr. Gordon 
Kruse, who has traveled all the way from Juneau to participate 
in today's hearing. Dr. Kruse has studied fisheries in Alaska 
for decades, most recently serving as Chair of the Scientific 
and Statistical Committee of the North Pacific Fishery 
Management Council. Their Committee plays a vital role in what 
the Pew Commission has stated is the best managed fishery in 
the world, thanks to the science that Dr. Kruse and others have 
given us.
    Let me welcome Admiral Watkins. It is always a pleasure to 
have him back because we have followed his thoughts on ocean 
policies for some time. I look forward to the testimony.
    Thank you very much.
    Senator Cantwell. Thank you, Senator Stevens.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Madam Chair. Thank you for 
all of you coming. I am the Senator from Minnesota. I am the 
only member of the Committee without an ocean. But I am pleased 
to be here, of course, because of the Great Lakes and how 
important that is to our way of life in Minnesota, with Lake 
Superior, as well as our economy in Minnesota. I will tell you 
that the lake levels in the Great Lakes continue to drop and we 
are seeing an impact on the economy.
    We are also seeing an impact of climate change on our 
10,000 lakes that we are so proud of in Minnesota. That is what 
our license plate says and it is something we are proud of. But 
we have fishermen who cannot put their icehouses out for a 
month. We have all kinds of issues that are coming up with our 
wetlands.
    So I look forward to hearing from this panel and thank you 
for coming today.
    Senator Cantwell. With that, we will go ahead and get 
started with our witnesses. Mr. Doney, you are first. As I 
said, I think we are asking people if they could keep their 
comments to 5 minutes, knowing that some of you who have slide 
presentations might take a little longer just to get through 
that. But thank you very much for being here.

     STATEMENT OF SCOTT C. DONEY, Ph.D., SENIOR SCIENTIST,

  DEPARTMENT OF MARINE CHEMISTRY AND GEOCHEMISTRY, WOODS HOLE 
                   OCEANOGRAPHIC INSTITUTION

    Dr. Doney. Thank you. Good morning, Madam Chair, Ranking 
Member Stevens, and other members of the Subcommittee. My name 
is Scott Doney and I am a Senior Scientist at the Woods Hole 
Oceanographic Institution, and I want to thank you--for the 
opportunity to talk to you about ocean acidification and 
climate change.
    There is a broad U.S. scientific consensus that human 
activities are increasing atmospheric carbon dioxide, altering 
our planet's climate and acidifying the ocean. Climate change 
and acidification will increasingly impact fisheries, coral 
reefs, coastal environments, and the important economic and 
ecosystem functions delivered by the ocean. We have an 
opportunity to limit the negative impacts of ocean 
acidification and climate change, but only if we take 
deliberate and immediate action.
    Atmospheric carbon dioxide has increased by 35 percent over 
the last 2 centuries, mostly due to fossil fuel combustion. 
Carbon dioxide is a greenhouse gas that traps heat near the 
Earth's surface. Climate processes amplify the impact of 
elevated carbon dioxide and other greenhouse gases and lead to 
warming of the land and the ocean, melting of glaciers, retreat 
of sea ice, and rising sea level.
    Global warming should really be called ocean warming, as 
more than 80 percent of the increased heat actually ends up in 
the ocean. Measurements show that ocean warming is extending 
from the surface down to a depth of at least 10,000 feet and 
over the last several decades there has been a retreat of 
Arctic sea ice by 15 to 20 percent over the summer and some 
models predict that we will have ice-free conditions in the 
Arctic by the year 2040.
    But warming is not the only impact of carbon dioxide. 
Elevated carbon dioxide also alters ocean chemistry. The ocean 
absorbs about one-third of fossil fuel carbon emissions and 
once in the ocean carbon dioxide combines with water to form an 
acid, leading to more acidic conditions. The physical chemistry 
of this process is well known and well understood.
    Climate change and ocean acidification are confirmed by 
real world observations and are supported by both models and 
theory. Unless greenhouse gas emissions are curbed, these 
trends will only accelerate over the next several decades. 
Atmospheric carbon dioxide is already higher than at any time 
in the last half million years and may double again in 
concentration by the end of this century.
    Warming and acidification affect ocean plants and animals 
both directly and via changes in the ecosystems which they 
depend upon for food and habitat. Some broad trends can be 
identified. These include reduced biological productivity in 
low and mid latitudes, polar shifts in warm-water species, and 
declines in corals and other shell-forming plants and animals.
    From historical data we know that commercially important 
species such as salmon are sensitive to climate-driven changes 
in the base of the ocean food chain. Of particular concern is 
if there are climatic tipping points in the future that may 
induce rapid and dramatic alterations in ocean ecosystems. My 
fellow panelists will discuss in more detail some of the 
changes we are already seeing and what we might expect to see 
in the future.
    For fisheries, climate and acidification impacts will 
likely exacerbate other problems, including overfishing, 
pollution, excess nutrients, and habitat destruction. Marine 
life has survived large variations in the past, but the current 
rates of climate change and ocean acidification are much faster 
than experienced in most of geological history. The reality of 
climate change and ocean acidification is now clear. Less clear 
is the total extent of the repercussions that we face.
    First and foremost, we need to control and reduce the 
emissions of carbon dioxide and other greenhouse gases that are 
the root of the problem.
    Second, we need enhanced investment in an effort to monitor 
ocean changes, understand biological responses, and convey this 
information to stakeholders.
    Third and finally, we need a comprehensive ocean management 
strategy that explicitly addresses the need to adapt to climate 
change and acidification that are now unavoidable.
    Thank you for giving me this opportunity to address the 
Subcommittee and I look forward to your questions.
    [The prepared statement of Dr. Doney follows:]

    Prepared Statement of Scott C. Doney, Ph.D., Senior Scientist, 
      Department of Marine Chemistry and Geochemistry, Woods Hole 
                             Oceanographic 
                            Institution \1\
---------------------------------------------------------------------------
    \1\ The views expressed here do not necessarily represent those of 
the Woods Hole Oceanographic Institution.
---------------------------------------------------------------------------
Introduction
    Good morning Madame Chair, Ranking Member Snowe and members of the 
Subcommittee. Thank you for giving me the opportunity to speak with you 
today on global climate change, ocean acidification and the resulting 
impacts on fisheries and living marine resources. My name is Scott 
Doney, and I am a Senior Scientist at the Woods Hole Oceanographic 
Institution in Woods Hole, Massachusetts. My research focuses on 
interactions among climate, the ocean and global carbon cycles, and 
marine ecosystems. I have published more than 90 peer-reviewed 
scientific journal articles and book chapters on these and related 
subjects. I serve on the U.S. Carbon Cycle Science Program Scientific 
Steering Group and the U.S. Community Climate System Model Scientific 
Steering Committee, and I am Chair of the U.S. Ocean Carbon and Climate 
Change Scientific Steering Group and the U.S. Ocean Carbon and 
Biogeochemistry Scientific Steering Committee.
    For today's hearing, you have asked me to discuss the mechanisms by 
which greenhouse gases impact the ocean, coastal environment, and 
living marine resources, gaps in our current scientific understanding, 
and implications for resource management including adaptation and 
mitigation strategies. My comments are based on a broad scientific 
consensus as represented in the current scientific literature and in 
community assessments such as the 2007 Intergovernmental Panel on 
Climate Change (IPCC) reports (IPCC, 2007a; 2007b; 2007c).
    Over the past two centuries, human activities have resulted in 
dramatic increases in atmospheric carbon dioxide and other greenhouse 
gases. There is broad scientific consensus that these excess greenhouse 
gases are altering our planet's climate and acidifying the ocean. These 
findings are confirmed by real-world observations and supported by 
theory and numerical models. Climate change and acidification trends 
will accelerate over the next several decades unless there is 
deliberate action to curb greenhouse emissions. Rising atmospheric 
carbon dioxide and climate change produce upper-ocean warming, sea-ice 
retreat, sea-level rise, ocean acidification, altered freshwater 
distributions, and maybe even stronger storms.
    Growing evidence suggests that these human-driven climate change 
and acidification will strongly impact ocean ecosystems as well. 
Further pressure will be put on living marine resources, such as 
fisheries and coral reefs that we depend upon for food, tourism and 
other economic and aesthetic benefits. We have an opportunity now to 
limit the negative impact of climate change and acidification in the 
future. This will require a comprehensive ocean management strategy 
that incorporates scientific understanding of climate change and 
acidification from the start. This strategy will also require a balance 
between adaptation to climate change and acidification that are 
unavoidable, and mitigation to reduce the rise in greenhouse gases and 
resulting impacts.
Greenhouse Gases and Climate Change
    At the most basic level, the balance between incoming sunlight and 
outgoing infrared radiation (i.e., heat) determines Earth's climate. 
The greenhouse gas carbon dioxide (CO<INF>2</INF>) plays a key role by 
absorbing infrared radiation and thus trapping heat near the Earth's 
surface much like a blanket. Other trace greenhouse gases such as 
methane (CH<INF>4</INF>), nitrous oxide (N<INF>2</INF>O), and 
chlorofluorocarbons (CFCs) are also important to warming, equivalent to 
about half of that from carbon dioxide, because molecule for molecule 
they absorb more infrared radiation than carbon dioxide. Other factors 
involved in human-driven climate change include aerosols and land 
vegetation.
    Over the last two centuries, atmospheric carbon dioxide has 
increased by more than 30 percent, from 280 to 380 ppm (part per 
million) by 2007. The main source is fossil-fuel combustion with 
contributions from cement production, agriculture and deforestation. 
Many economic and climate models predict atmospheric carbon dioxide 
values as high as 700 to 1,000 ppm, about triple preindustrial levels, 
by the end of the twenty-first century. The Earth has not experienced 
carbon dioxide levels that high for the past several million years. 
Other trace greenhouse gas levels are growing as well due to land-use, 
agriculture and industrial practices. These greenhouse gases persist in 
the atmosphere for years to decades, meaning that they will remain and 
accumulate in the atmosphere, impacting the global climate for a long 
time to come. In contrast, aerosols in the lower atmosphere are removed 
on time-scales of a few days to weeks, and their climatic impacts, 
mostly cooling, are concentrated near their sources.
    Greenhouse gases dominate over other human-driven climate 
perturbations, and the increased heating translates into changes in 
climate properties such as surface temperature, rainfall, sea-level and 
storm frequency and strength. The climate change resulting from an 
increase in greenhouse gases can be amplified by other climate 
processes. For example, ocean warming leads to a large retreat in 
Arctic sea-ice, which further strengthens warming because the dark 
water surface can then absorb more sunlight than the highly reflective 
ice. The largest unknowns at present arise from cloud dynamics. 
Numerical model climate projections for this century show global mean 
surface temperature increasing, with a range of +1.1 to 6.4+ C (+2.0 to 
11.5+ F) above late 20th century levels. This large temperature range 
is somewhat misleading as a significant fraction of the variation 
depends on human behavior, specifically how much carbon dioxide and 
other gases we emit to the atmosphere in the future. The lowest 
temperature projections occur only when emissions are reduced sharply 
over the next few decades.
    The largest projected temperature changes are concentrated over the 
continents and at higher latitudes during the winter season, but some 
level of warming will occur globally, over the ocean, and year-round. 
Sea-level is estimated to rise due to thermal warming and melting 
glaciers and ice sheets by an additional +0.18 to 0.59m (+0.6 to 1.9 
feet) by 2,100. Many simulations suggest a general strengthening of the 
water cycle, with increased precipitation in the tropics and high 
latitudes, drier conditions in the subtropics, and an increased 
frequency of extreme droughts and floods. Other common features of a 
warmer climate are more El Nino-like conditions in the Equatorial 
Pacific, a melt back of polar sea-ice and glaciers, and a slowdown in 
the formation of ocean deep water at high latitudes.
The Changing Ocean Environment
    Global warming should be called ocean warming, as more than 80 
percent of the added heat resides in the ocean. Clear alterations to 
the ocean have already been detected from observations. The magnitude 
and patterns of these changes are consistent with an attribution to 
human activities and not explained by natural variability alone. Global 
average land and ocean surface temperatures increased at a rate of 
about 0.2+ C/decade over the last few decades (Hansen et al., 2006), 
and ocean temperatures down to 3,000 m (10,000 feet) depth are also on 
the rise. Averages rates of sea-level rise over the last several 
decades were 1.8<plus-minus>0.5 mm/y, with an even larger rate 
(3.1<plus-minus>0.7 mm/y) over the most recent decade. Higher 
precipitation rates are observed at mid to high latitude and lower 
rates in the tropics and subtropics. Corresponding changes have been 
measured in surface water salinities. One of the most striking trends 
is the decline in Arctic sea-ice extent, particularly over the summer. 
September Arctic ice-cover from 2002-2006 was 18 percent lower than 
pre-1980 ice-cover (http://www.arctic.noaa.gov/detect/ice-
seaice.shtml), and some models predict near ice-free conditions by 
2040. Recent studies of the Greenland ice sheet highlight an alarming 
increase in surface melting over the summer, and percolation of that 
melt water to the base of the ice sheet where the melt-water could 
lubricate ice flow and potentially greatly accelerate ice loss and sea-
level rise. These new findings have not been full incorporated into 
projected sea-level rise estimates, which thus may be underestimated.
    Over half of human carbon dioxide emissions to the atmosphere are 
absorbed by the ocean and land biospheres (Sarmiento and Gruber, 2002), 
and the excess carbon absorbed by the ocean results in increased ocean 
acidity. The physical and chemical mechanisms by which this occurs are 
well understood. Once carbon dioxide enters the ocean, it combines with 
water to form carbonic acid and a series of acid-base products, 
resulting in a lowering of pH values. The amount and distribution of 
human-generated carbon in the oceans are well determined from an 
international ocean survey conducted in the late 1980s and early 1990s 
(Sabine et al., 2004). The rate of ocean carbon uptake is controlled by 
ocean circulation. Most of the excess carbon is found in the upper few 
hundred meters of the ocean (upper 1,200 feet) and in high-latitude 
regions, where cold dense waters sink into the deep ocean. Surface 
water pH values have already dropped by about 0.1 pH units from 
preindustrial levels and are expected to drop by an additional 0.14-
0.35 units by the end of the 21st century (Orr et al., 2005).
Climate Change and Ocean Acidification Impacts on Marine Ecosystems
    Climate change and ocean acidification will exacerbate other human 
influences on fisheries and marine ecosystems such as over-fishing, 
habitat destruction, pollution, excess nutrients, and invasive species. 
Thermal effects arise both directly, via effects of elevated 
temperature and lower pH on individual organisms, and indirectly via 
changes to the ecosystems on which they depend for food and habitat. 
Acidification harms shell-forming plants and animals including surface 
and deep-water corals, many plankton, pteropods (marine snails), 
mollusks (clams, oysters), and lobsters (Orr et al., 2005). Many of 
these organisms provide critical habitat and/or food sources for other 
organisms. Emerging evidence suggests that larval and juvenile fish may 
also be susceptible to pH changes. Marine life has survived large 
climate and acidification variations in the past, but the projected 
rates of climate change and ocean acidification over the next century 
are much faster than experienced by the planet in the past except for 
rare, catastrophic events in the geological record.
    One concern is that climate change will alter the rates and 
patterns of ocean productivity. Small, photosynthetic phytoplankton 
grow in the well-illuminated upper ocean, forming the base of the 
marine food web, supporting the fish stocks we harvest, and underlying 
the biogeochemical cycling of carbon and many other key elements in the 
sea. Phytoplankton growth depends upon temperature and the availability 
of light and nutrients, including nitrogen, phosphorus, silicon and 
iron. Most of the nutrient supply to the surface ocean comes from the 
mixing and upwelling of cold, nutrient rich water from below. An 
exception is iron, which has an important additional source from 
mineral dust swept off the desert regions of the continents and 
transported off-shore from coastal ocean sediments. The geographic 
distribution of phytoplankton and biological productivity is determined 
largely by ocean circulation and upwelling, with the highest levels 
found along the Equator, in temperate and polar latitudes and along the 
western boundaries of continents.
    Key climate-plankton linkages arise through changes in nutrient 
supply and ocean mixed layer depths, which affect the light 
availability to surface phytoplankton. In the tropics and mid-
latitudes, there is limited vertical mixing because the water column is 
stabilized by thermal stratification; i.e., light, warm waters overlie 
dense, cold waters. In these areas, surface nutrients are typically 
low, which directly limits phytoplankton growth. Climate warming will 
likely further inhibit mixing, reducing the upward nutrient supply and 
thus lowering biological productivity. The nutrient-driven productivity 
declines even with warmer temperatures, which promote faster growth. At 
higher latitudes, phytoplankton often have access to abundant nutrients 
but are limited by a lack of sunlight. In these areas, warming and 
reduced mixed layer depths can increase productivity.
    A synthesis of climate-change simulations shows broad patterns with 
declining low-latitude productivity, somewhat elevated high-latitude 
productivity, and pole-ward migration of marine ecosystem boundaries as 
the oceans warm; simulated global productivity increased by up to 8.0 
percent (Sarmiento et al., 2004). While not definitive proof of future 
trends, similar relationships of ocean stratification and productivity 
have been observed in year to year variability of satellite ocean color 
data, a proxy for surface phytoplankton (Beherenfeld et al., 2006); 
satellite data for 1997-2005 from GeoEYE and NASA's Sea-Viewing Wide 
Field-of-View Sensor (SeaWiFS) show that phytoplankton declined in the 
tropics and subtropics during warm phases of the El Nino-Southern 
Oscillation (ENSO) marked by higher sea surface temperatures and ocean 
stratification. Ecosystem dynamics are complex and non-linear, however, 
and new and unexpected phenomena may arise as the planet enters a new 
warmer and unexplored climate state. Ocean nitrogen fixation, for 
example, is concentrated in warm, nutrient poor surface waters, and it 
may increase under future more stratified conditions, enhancing overall 
productivity.
    Changes in total biological productivity are only part of the 
story, as most human fisheries exploit particular marine species, not 
overall productivity. The distributions and population sizes of 
individual species are more sensitive to warming and altered ocean 
circulation than total productivity. Temperature effects arise through 
altered organism physiology and ecological changes in food supplies and 
predators. Warming and shifts in seasonal temperature patterns will 
disrupt predator-prey interactions; this is especially important for 
survival of juvenile fish, which often hatch at a particular time of 
year and depend up on immediate, abundant source of prey. Temperature 
changes will also alter the spread of diseases and parasites in both 
natural ecosystems and marine aquaculture. Warming impacts will 
interact and perhaps exacerbate other problems including over-fishing 
and habitat destruction.
    Food-web interactions are often complicated, and we should expect 
that some species will suffer under climate change while others will 
benefit. Broadly speaking though, warm-water species are expected to 
shift poleward, which already appears to be occurring in some fisheries 
(Brander, 2006). Biological transitions, however, may be abrupt rather 
than smooth. Large-scale regime shifts have been observed in response 
to past natural variability. Regime shifts involve wholesale 
reorganizations of biological food-webs and can have large consequences 
from plankton to fish, marine mammals and sea-birds. Thus, rather 
subtle climate changes or ocean acidification may have the potential to 
disrupt commercially important species for either fisheries or tourism. 
Decadal time-scale regime shifts have been documented in the North 
Pacific, and in the Southern Ocean observations show a large-scale 
replacement of krill, a food source for mammals and penguin, by 
gelatinous zooplankton called salps.
    A number of other factors also need to be considered. Species that 
spend part of their life-cycle in coastal waters will be impacted by 
degradation of near-shore nursery environments, such as mangrove 
forests, marshes and estuaries, because of sea-level rise, pollution 
and habitat destruction. Rainfall and river flow perturbations will 
alter coastal freshwater currents, affecting the transport of eggs and 
larvae. Some of the largest fisheries around the world, for example off 
Peru and west coast of Africa, occur because of wind-driven coastal 
upwelling, which may be sensitive to climate change. Warming will 
reduce gas solubility and thus increases the likelihood of low oxygen 
or anoxia events already seen in some estuaries and coastal regions, 
such as off the Mississippi River in the Gulf of Mexico.
Knowledge Gaps and Ocean Research Priorities
    Accurate projections of climate change and ocean acidification 
impacts on living marine resources hinge on several key questions: (1) 
how will greenhouse gas and aerosol emissions and atmospheric 
composition evolve in the future? (2) how sensitive are regional-scale 
ocean physics and chemistry to these changes in atmospheric 
composition? and (3) how will individual species and whole-ocean 
ecosystems respond? Fossil fuels are deeply intertwined in the modern 
global economy, and carbon dioxide emissions depend upon changing 
social and economic factors that are not well known: global population, 
per capita energy use, technological development, national and 
international policy decisions, and deliberate climate mitigation 
efforts. Future projections of atmospheric carbon dioxide levels are 
also relatively sensitive to assumptions about the behavior of land and 
ocean carbon sinks, which are expected to change due to saturation 
effects and responses to the modified physical climate (Fung et al., 
2005). Climate change on local and regional scales is more relevant for 
people and ecosystems than global trends. While progress is being made, 
improved and better-validated regional ocean climate forecasts remain a 
major need for future research.
    Even when predictions about the physical environment are well 
known, significant knowledge gaps exist about ocean ecology, hindering 
the creation of the skillful forecasts needed to guide ocean management 
decisions. While not precluding taking action now to address climate 
change and ocean acidification, better scientific understanding will 
help refine ocean management in the long-term. Several elements need to 
be pursued in parallel: improved on-going monitoring of ocean climate 
and biological trends; laboratory and field process studies to quantify 
biological climate sensitivities; historical and paleoclimate studies 
of past climate events; and incorporation of the resulting scientific 
insights into an improved hierarchy of numerical ocean models from 
species to ecosystems.
    Rapid advances in in situ sensors and autonomous platforms, such as 
moorings, floats and gliders, are revolutionizing ocean measurements, 
and ocean observing networks are being constructed for coastal and open 
ocean regions (e.g., Gulf of Maine Ocean Observing System http://
www.gomoos.org/; Pacific Coast Ocean Observing System http://
www.pacoos.org/; National Science Foundation Ocean Observing Initiative 
http://www.ooi.org). The number of historical, multi-decadal ocean time 
series is limited, but their scientific utility is almost unrivalled. 
Federal commitment is needed for continued, long-term investment in 
ocean monitoring and enhanced coordination across observing networks.
    In a similar vein, satellite measurements provide an unprecedented 
view of the temporal variations in ocean climate and ecology. The ocean 
is vast, and the limited number of research ships move at about the 
speed of a bicycle, too slow to map the ocean routinely on ocean basin 
to global scales. By contrast, a satellite can observe the entire 
globe, at least the cloud free areas, in a few days. The detection of 
gradual climate-change trends is challenging, and the on-going 
availability of high-quality, climate data records is not assured 
during the transition of many satellite ocean measurements from NASA 
research to the NOAA/DOD operational NPOESS program. For example, the 
present NASA satellite ocean color sensors, needed to determine ocean 
plankton, are nearing the end of their service life, and the 
replacement sensors on NPOESS may not be adequate for the climate 
community. Further, refocusing of NASA priorities away from Earth 
science may dramatically limit or fully preclude new ocean satellite 
missions needed to characterize ocean climate and biological dynamics.
    We need to know if there are climatic tipping points or thresholds 
beyond which climate change may induce rapid and dramatic regime shifts 
in ocean ecosystems. Many current scientific studies examine climate 
sensitivities of species in isolation; the next step involves examining 
responses of species populations, communities of multiple interacting 
species, and entire ecosystems to realistic size perturbations. 
Experiments on plankton and benthic communities can be conducted under 
relatively controlled conditions in mesocosms (large enclosed volumes 
such as aquarium or floating bags deployed at sea) or by deliberate 
open-water perturbations studies. Both approaches will benefit from 
further directed technological developments. Larger mobile species 
require different approaches such as using past climate events as 
analogues for human-driven climate change. Biology models are pivotal 
to ocean management. They are being improved progressively by 
incorporating new information from laboratory and field experiments and 
by comparing model forecasts with real-world data. It is often as 
important to identify where the models do poorly as where they do well 
because research can then be focused on resolving these model errors.
Climate Adaptation, Mitigation, and Ocean Management
    Given the potential for significant negative impacts of climate 
change and ocean acidification on living marine resources, we need to 
develop comprehensive local, national and international ocean 
management strategies that fully incorporate climate change and 
acidification trends and uncertainties. The strategies should follow a 
precautionary approach that accounts for the fact that ocean biological 
thresholds are unknown. The strategies should include improved 
scientific information for decision-support, adaptation to reduce 
negative climate change and acidification impacts, and mitigation to 
decrease the magnitude of future climate change and acidification.
     Currently the United States and other countries invest significant 
resources in monitoring the ocean and improving scientific 
understanding on many of the physical, chemical and biological 
processes relevant to climate change and acidification. However, this 
wealth of data and information is typically not in a form that is 
easily accessible by ocean resource managers and other stakeholders, 
ranging from private citizens and small-businesses to large 
corporations, NGO's and national governments. For example, even state-
of-the-art climate projections typically resolve climate patterns at 
relatively coarse spatial resolutions and include either relatively 
simple ocean biology or no ocean biology at all. In contrast, 
decisionmakers need information tailored to specific local fisheries 
and ecosystems. The national climate modeling centers should be 
encouraged to create on a routine basis targeted ocean biological-
physical forecasts on seasonal to decadal time-scales, building on 
nested regional models, probabilistic and ensemble modeling of 
uncertainties, and downscaling methods developed for related 
applications (e.g., agriculture, water-resources). The utility of such 
forecasts and their uncertainties will be maximized if stakeholders are 
involved in their design from the onset and if the model results are 
translated into more accessible electronic forms that are widely 
distributed to the public.
    A second challenge is to create more adaptive ocean management 
strategies that emphasize complete and transparent discussion on the 
risks and uncertainties from climate change and ocean acidification. 
Some amount of climate change and acidification is unavoidable because 
of past greenhouse emissions, and even under relatively optimistic 
scenarios for the future, substantial further ocean impacts should be 
expected at least through mid-century and beyond. Decisions will need 
to be made in the face of uncertainty, relying on for example the 
precautionary principle to limit future risk. Climate change trends are 
growing in magnitude, but will still be gradual compared with natural 
interannual variability; management policies must include both types of 
variations and uncertainties. Empirical approaches developed from 
historical data cannot be used in isolation because climate change will 
shift the baseline for ocean biological systems. Serious efforts should 
be directed at reducing other human factors such as overfishing and 
habitat destruction to allow more time for ecosystems and social 
systems to adapt. Mechanisms such as marine reserves, that protect 
specified geographical locations, need to account for the fact that 
ecosystem boundaries will shift under climate change. Procedures also 
need to be in place to monitor over time the effectiveness of ocean 
conservation and management policies, and that information and improved 
future climate forecasts should be used to modify and adapt management 
approaches.
    The third challenge is to pursue climate mitigation approaches that 
limit the emissions of carbon dioxide and other greenhouse gases to the 
atmosphere or that remove fossil-fuel carbon dioxide that is already in 
the atmosphere. Stabilizing future atmospheric carbon dioxide at 
moderate levels to minimize climate change impacts will require a mix 
of approaches, and no single mechanism will solve the entire problem. 
Emissions of carbon dioxide can be reduced through energy conservation 
and transition to alternative, non-fossil fuel based energy sources 
(wind, solar, nuclear, biofuels). Attention also needs to be placed in 
the near-term on limiting other greenhouse gases such as 
chlorofluorocarbons, which may provide additional time to tackle the 
more challenging issues associated with carbon. Progress is being made 
on approaches that would remove carbon dioxide at power plants so that 
it can be sequestered in subsurface geological reservoirs (e.g., old 
oil and gas fields, salt domes).
    Mitigation approaches have also been proposed using ocean biology, 
but these methods should only be pursued if critical questions are 
resolved on their effectiveness and environmental consequences. 
Biological mitigation strategies are based on the fact that plants and 
some marine microbes naturally convert carbon dioxide into organic 
matter during photosynthesis. Enhancing biological carbon removal can 
reduce atmospheric carbon dioxide if the additional organic matter is 
stored away from the atmosphere for multiple decades to a century or 
longer. The deep-ocean is one such reservoir because it exchanges only 
slowly with the surface and atmosphere. Thus one potential mitigation 
method would be to fertilize the surface ocean phytoplankton so that 
they produce and export more organic carbon into the deep ocean. In 
many areas of the ocean, phytoplankton growth is limited by the trace 
element iron, which is very low in surface waters away from continents 
and dust sources. About a dozen scientific experiments have been 
conducted successfully showing that adding iron to the surface ocean 
causes a phytoplankton bloom and temporary drawdown in surface water 
carbon dioxide. But there remain outstanding scientific questions about 
whether iron resulted in any enhanced long-term carbon storage in the 
ocean.
    As with any other mitigation approach on land or in the sea, the 
scientific and policy communities need to work closely to assure that 
the following questions are answered for large-scale commercial ocean 
fertilization. Is the method effective in removing carbon from the 
atmosphere, can the removal be validated, and how long will it remain 
sequestered? Could the method result in unintended consequences such as 
enhanced emissions of other, more powerful greenhouse gases (in the 
case of iron fertilization potentially nitrous oxide and perhaps 
methane)? What are the broad ecological consequences, and could carbon 
mitigation efforts conflict with maintaining living marine resources 
and fisheries? Systematic approaches to verify effectiveness and 
environmental impacts need to be put in place to assure a level playing 
field for commercial mitigation and carbon credit trading systems.
Conclusions
    Over the past two centuries, human activities have resulted in the 
buildup in the atmosphere of excess carbon dioxide, other greenhouse 
gases and aerosols. There is now significant evidence that these 
changes in atmospheric composition are altering the planet's climate. 
Human-driven climate change is expected to accelerate over the next 
several decades, leading to extensive global warming, sea-ice retreat, 
sea-level rise, ocean acidification, and alterations in the freshwater 
cycle. As the reality of climate change is becoming clearer, the 
emphasis shifts toward understanding the impact of these climate 
perturbations on society and on natural and managed ecosystems.
    Marine fisheries and ocean ecosystems are susceptible to global 
warming and ocean acidification. While ocean biological responses will 
vary from region to region, some broad trends can be identified 
including poleward shifts in warm-water species and reduced formation 
of calcium carbonate by corals and other shell-forming plants and 
animals. For fisheries, climate change impacts will interact and 
perhaps exacerbate other problems including over-fishing and habitat 
destruction. Management strategies are needed balancing adaptation to 
an evolving climate and mitigation to reduce the magnitude of future 
climate change and atmospheric carbon dioxide growth. Decision support 
tools should be developed for marine resource managers that incorporate 
the emerging scientific understanding on climate change, focusing on 
impacts over the next several decades. Systematic testing is required 
on the effectiveness and environmental consequences of climate 
mitigation approaches, such as deliberate iron fertilization, designed 
to sequester additional carbon in the ocean.
    Thank you for giving me this opportunity to address this 
Subcommittee, and I look forward to answering your questions.
Selected References
    Brander, K. (2006) Assessment of Possible Impacts of Climate Change 
on Fisheries. Externe Expertise fur das WBGU-Sondergutachten ``Die 
Zukunft der Meere--zu warm, zu hoch, zu sauer,'' Berlin WBGU, 27 pp.
    Fung, I., S.C. Doney, K. Lindsay, and J. John, 2005: Evolution of 
carbon sinks in a changing climate, Proc. Nat. Acad. Sci. (USA), 102, 
11201-11206, doi: 10.1073/pnas.0504949102.
    Hansen, J., M. Sato, R. Ruedy, K. Lo, D.W. Lea, and M. Medina-
Elizade, 2006: Global temperature change, Proc. Nat. Acad. Sci. USA, 
103, 14288-14293, 10.1073/pnas.0606291103.
    IPCC, (2007a) The Physical Science Basis, Summary for Policymakers, 
Contributions of Working Group I to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change, 18 pp., (http://www.ipcc.ch/
).
    IPCC, (2007b) Impacts, Adaptation and Vulnerability, Summary for 
Policymakers, Contributions of Working Group II to the Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change, 
22pp., (http://www.ipcc.ch/).
    IPCC, (2007c) Mitigation of Climate Change, Summary for 
Policymakers, Contributions of Working Group III to the Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change, 36 
pp., (http://www.ipcc.ch/).
    Orr, J.C., V.J. Fabry, O. Aumont et al., (2005) Anthropogenic ocean 
acidification over the twenty-first century and its impact on marine 
calcifying organisms, Nature, 437, 681-686, doi: 10.1038/nature04095.
    Sabine, C.L., R.A. Feely, N. Gruber et al., (2004) The oceanic sink 
for anthropogenic CO<INF>2</INF>, Science, 305, 367-371.
    Sarmiento, J.L. and N. Gruber (2002) Sinks for anthropogenic 
carbon, Physics Today, August, 30-36.
    Sarmiento, J.L., et al., (2004) Response of ocean ecosystems to 
climate warming, Global Biogeochem. Cycles, 18, GB3003, doi: 10.1029/
2003GB002134.

    Senator Cantwell. Thank you very much.
    Dr. Feely, thank you very much for being here. We are very 
proud, obviously, of the Pacific Marine Environmental 
Laboratory in the Northwest and we appreciate you being here as 
NOAA's representative today.

       STATEMENT OF RICHARD A. FEELY, Ph.D., SUPERVISORY

             CHEMICAL OCEANOGRAPHER, PACIFIC MARINE

                ENVIRONMENTAL LABORATORY, NOAA,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Feely. Thank you very much. Good morning, Madam Chair 
Cantwell, Ranking Member Stevens, and members of the 
Subcommittee. My name is Richard Feely and I am a Supervisory 
Oceanographer at NOAA's Pacific Marine Environmental Laboratory 
in Seattle. Part of NOAA's mission is to understand and predict 
changes in Earth's environment. My area of expertise and the 
focus of my research is that of the study of the ocean's carbon 
cycle and its effect on marine life. Thank you for inviting me 
today to provide my insights on ocean acidification and its 
effects on living marine resources.
    Over the past 200 years the release of carbon dioxide from 
our collective industrial and agricultural activities has 
resulted in atmospheric CO<INF>2</INF> concentration increases 
of about 100 parts per million. During this period the oceans 
have absorbed 525 billion tons of carbon dioxide from the 
atmosphere. This is about one-third of human-generated carbon 
dioxide emissions. The oceans' daily uptake of 22 million tons 
of carbon dioxide is now starting to have a significant impact 
on the chemistry and biology of the oceans.
    Hydrographic surveys and modeling studies reveal the 
chemical changes that have taken place. We see change in the 
lowering of the pH. This pH is a measure of the acidity and the 
acidity of our oceans has changed by 30 percent since the 
beginning of the Industrial Revolution. Our projections through 
the end of the century suggest that the acidity may change by 
as much as 150 percent if we follow CO<INF>2</INF> emissions 
scenarios based on the IPCC IS92a projections.
    This process of acidification of the oceans is causing a 
lowering of the carbonate ion concentration levels as well. The 
carbonate ion plays an important role in shell formation for a 
number of marine organisms, such as corals, marine plankton, 
and shellfish. Many marine organisms which use carbonate ions 
to produce calcium carbonate shells experience detrimental 
effects due to these increasing CO<INF>2</INF> levels.
    For example, ocean acidification is shown to significantly 
affect coral reefs. It reduces the ability of rebuilding corals 
to produce their skeletons, affecting growth of individual 
corals and making the reefs more vulnerable to erosion. Some 
estimates indicate that by the end of this century coral reefs 
may erode faster than they can be rebuilt. This could 
compromise the long-term viability of these ecosystems and 
perhaps affect the thousands of species that depend on this 
particular habitat.
    In long-term experiments, corals grown under the most 
acidic conditions for periods more than 1 year have not shown 
the ability to adapt their calcification rates to these higher 
CO<INF>2</INF> levels. In fact, a recent study has shown that 
projected CO<INF>2</INF> increase in the oceans is sufficient 
to dissolve the calcium carbonate skeletons of some coral reef 
species.
    Ongoing research has shown that the increase in acidity may 
have deleterious impacts on commercially important fish and 
shellfish larvae. Both king crab and silver seabream larvae 
exhibit a very high mortality rate in CO<INF>2</INF>-rich 
waters. The calcification rates of the edible mussel and 
Pacific oyster of the Pacific Northwest region decline linearly 
with increasing CO<INF>2</INF> levels. Squid are especially 
sensitive to ocean acidification because it directly affects 
their blood oxygen transport and respiration. Scientists have 
been seeing a reduced ability of marine algae, free-floating 
plants and animals to produce their protective calcium 
carbonate shells.
    One of these free-swimming mollusks is called a pteropod. 
Pteropods are eaten by organisms ranging from krill to whales 
and are a major food source for North Pacific juvenile salmon 
and serve as food for mackerel, pollock, herring, and cod. 
Ocean acidification is one of the most significant and far-
reaching consequences of the buildup of human-generated carbon 
dioxide in the atmosphere and the oceans. Results from 
laboratory, field, and modeling studies, as well as evidence 
from the geological record, clearly indicate that many 
ecosystems are highly susceptible to changes in ocean 
CO<INF>2</INF> and the corresponding decrease in pH and 
increase in acidity. Because of the very clear potential for 
ocean-wide effects of ocean acidification at all levels of the 
marine ecosystem from the tiniest phytoplankton to the 
zooplankton to fish and shellfish, we can expect to see 
significant effects that are immensely important for mankind.
    Ocean acidification is an emerging scientific issue and 
much research is needed before all the species and ecosystem 
responses are well understood. However, to the limit that the 
scientific community understands this issue right now, the 
potential for environmental, economic, and societal risk is 
quite high. Ocean acidification demands serious and immediate 
attention.
    For these reasons, the national and technological 
scientific communities have recommended a coordinated research 
program with four major themes: carbon system monitoring, 
calcification and physiological response studies under both 
laboratory and field conditions, environmental and ecosystem 
modeling studies, and socioeconomic risk assessments. This 
research will provide resource managers with the basic 
information they need to develop strategies for protection of 
species, habitats, and ecosystems.
    I am deeply grateful for the opportunity to discuss this 
issue with you and look forward to answering your questions.
    [The prepared statement of Dr. Feely follows:]

  Prepared statement of Richard A. Feely, Ph.D., Supervisory Chemical 
     Oceanographer, Pacific Marine Environmental Laboratory, NOAA, 
                      U.S. Department of Commerce
Introduction
    Good morning, Chairman Cantwell and members of the Subcommittee. 
Thank you for giving me the opportunity to speak with you today on the 
short- and long-term impacts of ocean acidification on marine 
resources. My name is Richard Feely, I am a Supervisory Chemical 
Oceanographer at the Pacific Marine Environmental Laboratory of the 
National Oceanic and Atmospheric Administration (NOAA) in Seattle, WA. 
My personal area of research is the study of the oceanic carbon cycle 
and its impact on marine organisms. I have worked for NOAA for more 
than 32 years and have published more than 160 peer-reviewed scientific 
journal articles, book chapters and technical reports. I serve on the 
U.S. Carbon Cycle Science Program Scientific Steering Group and I am 
the co-chair of the U.S. Repeat Hydrography Program Scientific 
Oversight Committee. For today, you have asked me to provide my 
insights on ocean acidification and its effect on living marine 
ecosystems. Most of my comments below are derived from the Royal 
Society Report, ``Ocean Acidification Due to Increasing Atmospheric 
Carbon Dioxide'' (Raven et al., 2005) and the recent U.S. report, 
derived from a workshop held jointly by the National Science Foundation 
(NSF), NOAA, and the U.S. Geological Survey, entitled ``Impacts of 
Ocean Acidification on Coral Reefs and Other Marine Calcifiers `' 
(Kleypas et al., 2006).
Ocean Acidification
    Over the past 200 years the release of carbon dioxide 
(CO<INF>2</INF>) from our collective industrial and agricultural 
activities has resulted in atmospheric CO<INF>2</INF> concentrations 
that have increased by about 100 parts per million (ppm). The 
atmospheric concentration of CO<INF>2</INF> is now higher than 
experienced on Earth for at least the last 800,000 years, and is 
expected to continue to rise, leading to significant temperature 
increases in the atmosphere and oceans by the end of this century. The 
oceans have absorbed approximately 525 billion tons of carbon dioxide 
from the atmosphere, or about one-third of the anthropogenic carbon 
emissions released during this period (Sabine and Feely, 2007). This 
natural process of absorption has benefited humankind by significantly 
reducing the greenhouse gas levels in the atmosphere and minimizing 
some of the impacts of global warming. However, the ocean's daily 
uptake of 22 million tons of carbon dioxide is starting to have a 
significant impact on the chemistry and biology of the oceans. For more 
than 25 years, NOAA and NSF have co-sponsored repeat hydrographic and 
chemical surveys of the world oceans, documenting the ocean's response 
to increasing amounts of carbon dioxide being emitted to the atmosphere 
by human activities. These surveys have confirmed that the oceans are 
absorbing increasing amounts of carbon dioxide. Both the hydrographic 
surveys and modeling studies reveal that the chemical changes in 
seawater resulting from the absorption of carbon dioxide are lowering 
seawater pH (Feely et al., 2004; Orr et al., 2005; Caldeira and 
Wickett, 2005; Feely et al., in press). It is now well established that 
the pH of our ocean surface waters has already fallen by about 0.1 
units from an average of about 8.21 to 8.10 since the beginning of the 
Industrial Revolution (on the logarithmic pH scale, 7.0 is neutral 
(e.g., water), with points higher on the scale being ``basic'' and 
points lower being ``acidic.''). Estimates of future atmospheric and 
oceanic carbon dioxide concentrations, based on the Intergovernmental 
Panel on Climate Change (IPCC) CO<INF>2</INF> emission scenarios and 
general circulation models, indicate that by the middle of this century 
atmospheric carbon dioxide levels could reach more than 500 parts per 
million (ppm), and near the end of the century they could be over 800 
ppm. This would result in a surface water pH decrease of approximately 
0.4 pH units as the ocean becomes more acidic, and the carbonate ion 
concentration would decrease almost 50 percent by the end of the 
century (Orr et al., 2005). To put this in historical perspective, this 
surface ocean pH decrease would result in a pH that is lower than it 
has been for more than 20 million years (Feely et al., 2004). When 
CO<INF>2</INF> reacts with seawater, fundamental chemical changes occur 
that cause a reduction in seawater pH. The interaction between 
CO<INF>2</INF> and seawater also reduces the availability of carbonate 
ions, which play an important role in shell formation for a number of 
marine organisms such as corals, marine plankton, and shellfish. This 
phenomenon, which is commonly called ``ocean acidification,'' could 
affect some of the most fundamental biological and geochemical 
processes of the sea in coming decades. This rapidly emerging issue has 
created serious concerns across the scientific and fisheries resource 
management communities.
Effects of Ocean Acidification on Coral Reefs
    Many marine organisms that produce calcium carbonate shells studied 
thus far have shown detrimental effects due to increasing carbon 
dioxide levels in seawater and the resulting decline in pH. For 
example, increasing ocean acidification has been shown to significantly 
reduce the ability of reef-building corals to produce their skeletons, 
affecting growth of individual corals and making the reef more 
vulnerable to erosion (Kleypas et al., 2006). Some estimates indicate 
that, by the end of this century, coral reefs may erode faster than 
they can be rebuilt. This could compromise the long-term viability of 
these ecosystems and perhaps impact the thousands of species that 
depend on the reef habitat. Decreased calcification may also compromise 
the fitness or success of these organisms and could shift the 
competitive advantage toward organisms that are not dependent on 
calcium carbonate. Carbonate structures are likely to be weaker and 
more susceptible to dissolution and erosion. In long-term experiments 
corals that have been grown under lower pH conditions for periods 
longer than 1 year have not shown any ability to adapt their 
calcification rates to the low pH levels. In fact, a recent study 
showed that the projected increase in CO<INF>2</INF> is sufficient to 
dissolve the calcium carbonate skeletons of some coral species (Fine 
and Tchernov, 2007).
Effects of Ocean Acidification on Fish and Shellfish
    Ongoing research is showing that decreasing pH may also have 
deleterious effects on commercially important fish and shellfish 
larvae. Both king crab and silver seabream larvae exhibit very high 
mortality rates in CO<INF>2</INF>-enriched waters (Litzow et al., 
submitted; Ishimatsu et al., 2004). Some of the experiments indicated 
that other physiological stresses were also apparent. Exposure of fish 
to lower pH levels can cause decreased respiration rates, changes in 
blood chemistry, and changes in enzymatic activity. The calcification 
rates of the edible mussel (Mytilus edulis) and Pacific oyster 
(Crassostrea gigas) decline linearly with increasing CO<INF>2</INF> 
levels (Gazeau et al., in press). Squid are especially sensitive to 
ocean acidification because it directly impacts their blood oxygen 
transport and respiration (Portner et al., 2005). Sea urchins raised in 
lower-pH waters show evidence for inhibited growth due to their 
inability to maintain internal acid-base balance (Kurihara and 
Shirayama., 2004). Scientists have also seen a reduced ability of 
marine algae and free-floating plants and animals to produce protective 
carbonate shells (Feely et al., 2004; Orr et al., 2005). These 
organisms are important food sources for other marine species. One type 
of free-swimming mollusk called a pteropod is eaten by organisms 
ranging in size from tiny krill to whales. In particular, pteropods are 
a major food source for North Pacific juvenile salmon, and also serve 
as food for mackerel, pollock, herring, and cod. Other marine 
calcifiers, such as coccolithophores (microscopic algae), foraminifera 
(microscopic protozoans), coralline algae (benthic algae), echinoderms 
(sea urchins and starfish), and mollusks (snails, clams, and squid) 
also exhibit a general decline in their ability to produce their shells 
with decreasing pH (Kleypas et al., 2006).
Effects on Marine Ecosystems
    Since ocean acidification research is still in its infancy, it is 
impossible to predict exactly how the individual species responses will 
cascade throughout the marine food chain and impact the overall 
structure of marine ecosystems. It is clear, however, from the existing 
data and from the geologic record that some coral and shellfish species 
will be reduced in a high-CO<INF>2</INF> ocean. The rapid disappearance 
of many calcifying species in past extinction events has been 
attributed, in large part, to ocean acidification events (Zachos et 
al., 2005). Over the next century, if CO<INF>2</INF> emissions are 
allowed to increase as predicted by the IPCC CO<INF>2</INF> emissions 
scenarios, mankind may be responsible for increasing oceanic 
CO<INF>2</INF> and making the oceans more corrosive to calcifying 
organisms than anytime since the last major extinction, over 65 million 
years ago. Thus, the decisions we make about our use of fossil-fuels 
for energy over the next several decades will probably have a profound 
influence on makeup of future marine ecosystems for centuries to 
millennia.
Economic Impacts
    The impact of ocean acidification on fisheries and coral reef 
ecosystems could reverberate through the U.S. and global economy. The 
U.S. is the third largest seafood consumer in the world with total 
consumer spending for fish and shellfish around $60 billion per year. 
Coastal and marine commercial fishing generates upwards of $30 billion 
per year and employs nearly 70,000 people (NOAA Fisheries Office of 
Science and Technology; http://www.st.nmfs.gov/st1/fus/fus05/
index.html). Nearly half of the U.S. fishery is derived from the 
coastal waters surrounding Alaska. Increased ocean acidification may 
directly or indirectly influence the fish stocks because of large-scale 
changes in the local ecosystem dynamics. It may also cause the 
dissolution of the newly discovered deepwater corals in the Alaskan 
Aleutian Island region. Many commercially important fish species in 
this region depend on this particular habitat for their survival.
    Healthy coral reefs are the foundation of many viable fisheries, as 
well as the source of jobs and businesses related to tourism and 
recreation. In the Florida Keys, coral reefs attract more than $1.2 
billion in tourism annually. In Hawaii, reef-related tourism and 
fishing generate $360 million per year, and their overall worth has 
been estimated at close to $10 billion. In addition, coral reefs 
provide vital protection to coastal areas that are vulnerable to storm 
surges and tsunamis.
Conclusions
    Ocean acidification may be one of the most significant and far-
reaching consequences of the buildup of anthropogenic carbon dioxide in 
the atmosphere. Results from laboratory, field and modeling studies, as 
well as evidence from the geological record, clearly indicate that 
marine ecosystems are highly susceptible to the increases in oceanic 
CO<INF>2</INF> and the corresponding decreases in pH. Corals and other 
calcifying organisms will be increasingly affected by a decreased 
capability to produce their shells and skeletons. Other species of fish 
and shellfish will also be negatively impacted in their physiological 
responses due to a decrease in pH levels of their cellular fluids. 
Because of the very clear potential for ocean-wide impacts of ocean 
acidification at all levels of the marine ecosystem, from the tiniest 
phytoplankton to zooplankton to fish and shellfish, we can expect to 
see significant impacts that are of immense importance to mankind. 
Ocean acidification is an emerging scientific issue and much research 
is needed before all of the ecosystems responses are well understood. 
However, to the limit that the scientific community understands this 
issue right now, the potential for environmental, economic and societal 
risk is also quite high, hence demanding serious and immediate 
attention. For these reasons, the national and international scientific 
communities have recommended a coordinated scientific research program 
with four major themes; (1) carbon system monitoring; (2) calcification 
and physiological response studies under laboratory and field 
conditions; (3) environmental and ecosystem modeling studies; and (4) 
socioeconomic risk assessments. This research will provide resource 
managers with the basic information they need to develop strategies for 
protection of critical species, habitats and ecosystems, similar to 
what has already been developed for coral reef managers with the 
publication of the Reef Manager's Guide by the U.S. Coral Reef Task 
Force to help local and regional reef managers reduce the impacts of 
coral bleaching to coral reef ecosystems.
    Thank you for giving me this opportunity to address this 
Subcommittee. I look forward to answering your questions.
Selected References
    Caldeira, K., and M.E. Wickett, Ocean model predictions of 
chemistry changes from carbon dioxide emissions to the atmosphere and 
ocean. Journal of Geophysical Research (Oceans) 110, C09S04, doi: 
10.1029/2004JC002671, 2005.
    Feely, R.A., C.L. Sabine, K. Lee, W. Berrelson, J. Kleypas, V.J. 
Fabry, and F.J. Millero, 2004, Impact of anthropogenic CO<INF>2</INF> 
on the CaCO<INF>3</INF> system in the oceans, Science, 305(5682): 362-
366.
    Feely, R.A., J. Orr, V.J. Fabry, J.A. Kleypas, C.L. Sabine, and C. 
Landgon (in press): Present and future changes in seawater chemistry 
due to ocean acidification. AGU Monograph on ``The Science and 
Technology of Carbon Sequestration''.
    Fine, M. and D. Tchernov (2007). Scleractinian coral species 
survive and recover from decalcification, Science (315): 1811.
    Gazeau, F., Quiblier, C., Jeroen M. Jansen, J.M. Jean-Pierre 
Gattuso, J.-P., Middelburg, J.J., and C. H.R. Heip (in press) Impact of 
elevated CO<INF>2</INF> on shellfish calcification, Geophysical 
Research Letters.
    Ishimatsu, A., Kikkawa, T., Hayashi, M., Lee, K.-S., and J. Kita 
(2004): Effects of CO<INF>2</INF> on marine fish: Larvae and adults, 
Journal of Oceanography, Vol. 60, pp. 731-741.
    Kleypas, J.A., R.A. Feely, V.J. Fabry, C. Langdon, C.L. Sabine, and 
L.L. Robbins (2006): Impacts of ocean acidification on coral reefs and 
other marine calcifiers: A guide to future research. Report of a 
workshop held 18-20 April 2005, St. Petersburg, FL, sponsored by NSF, 
NOAA, and the U.S. Geological Survey, 88 pp.
    Kurihara, K. and Shirayama, Y. (2004): Impacts of increased 
atmospheric CO<INF>2</INF> on sea urchin early development, Mar. Ecol;. 
Prog. Ser., 274, 161-169.
    Marshall, P. and H. Schuttenberg (2006): A Reef Manager's Guide to 
Coral Bleaching, Great Barrier Ref Marine Park Authority, Townsville, 
Australia, 139 pp.
    Michael A., Litzow, M.A., Short, J.W., J.W. , Persselin, S.L., Lisa 
A. Hoferkamp3, L.A. and S.A. Payne, (submitted for publication). 
Calcite undersaturation reduces larval survival in a crustacean, 
Science.
    Orr, J.C., V.J. Fabry, O. Aumont, L. Bopp, S.C. Doney, R.A. Feely, 
A. Gnanadesikan, N. Fruber, A. Ishida, F. Joos, R.M. Key, K. Lindsay, 
E. Maier-Reimer, R. Matear, P. Monfray, A. Mouchet. R.G. Najjar, G.-K. 
Plattner, K.B. Rodgers, C.L. Sabine, J.L. Sarmiento, R. Schlitzer, R.D. 
Slater, I.J. Totterdel, M.-F. Weirig, Y. Yamanaka, and A. Yool, 2005, 
Anthropogenic ocean acidification over the twenty-first century and its 
impact on calcifying organisms, Nature, 437: 681-686.
    Portner, H.O., M. Langenbuch, and B. Michaelidis (2005) Synergistic 
effects of temperature extremes, hypoxia, and increases in 
CO<INF>2</INF> on marine animals: From Earth history to global change, 
J. Geophys. Res. 110, C09S10, doi: 10.1029/2004JC002561.
    Raven, J. Caldeira, K. Elderfield, H. Hoegh-Guldberg, O. Liss, P. 
Riebesell, U. Shepherd, J. Turley, C. Watson, A. (2005) Acidification 
due to increasing carbon dioxide. In Report 12/05. London, T.R.S.o. 
(ed.) London: The Royal Society, pp. vii + 60.
    Zachos, J.C., U. Rohl, S.A. Schellenberg, A. Sluijs, D.A. Hodell, 
D.C. Keely, E. Thomas, M. Nicolo, I. Raffi, L.J. Lourens, H. McCarren, 
and D. Kroon, 2005, Rapid acidification of the ocean during the 
Paleocene-Eocene thermal maximum, Science, 308: 1611-16.

    Senator Cantwell. Thank you very much.
    Dr. Conover?

           STATEMENT OF DAVID O. CONOVER, Ph.D., DEAN

         AND DIRECTOR, MARINE SCIENCE RESEARCH CENTER,

                     STONY BROOK UNIVERSITY

    Dr. Conover. Good morning, Chair Cantwell, Ranking Member 
Stevens, and members of the Subcommittee. My name is David 
Conover. I am a fisheries scientist and I also serve as Dean of 
Marine and Atmospheric Sciences at Stony Brook University on 
Long Island, New York. I am mostly going to talk about the 
effect of ocean warming on fisheries.
    I have studied the ecology of marine fishes along the U.S. 
East Coast for over 30 years. My message is this. We already 
see strong evidence of the effects of ocean warming on fish and 
shellfish along the East Coast. The evidence includes declines 
in cold-water species due to heat stress and disease, northward 
expansion of southern species, and explosions of invasive 
species. Let me explain what is going on.
    Because most animals in the sea are cold-blooded, ocean 
temperature has an enormous direct impact on their biology. We 
know a lot about the direct thermal effects at the species 
level, less so at the ecosystem level. But we know enough to 
make strong predictions.
    All species are adapted for life over a relatively narrow 
range of temperatures. Some species like it warm, others like 
it cold. Certain regions of the world ocean, particularly the 
East Coast, have transition zones between cold-water and warm-
water habitats. That is where you are going to first see the 
impacts of warming. My home state of New York sits right in the 
middle of a transition zone. We are the southern end point for 
northern species like cod, herring, and American lobsters and 
we are at the northern end point for southern species like 
weakfish, fluke, and bluefish.
    Here is what we see happening in New York. In 1999, we had 
a massive summer die-off of lobsters in Long Island Sound, 
followed by continued summer mortality in subsequent years. The 
probability is that lobsters cannot tolerate the exceptionally 
warm summer temperatures we have been having. Heat stress leads 
to physiological, pathogenic, and parasitic diseases. The 
result has been an 85 percent reduction in landings, and these 
diseases now appear to be moving northward.
    Another example is a parasitic disease called dermo. It 
causes catastrophic mortality of oysters. Prior to 1990, this 
parasite was unknown north of Chesapeake Bay. In the 1990s 
dermo underwent a massive northward range expansion, extending 
all the way into the Gulf of Maine. The expansion occurred 
during years when winters were unusually warm. Dermo is now 
highly prevalent from Delaware Bay to Cape Cod, with no signs 
of abating.
    Winter flounder is another species at the southern end of 
its range in New York. It too is declining drastically in our 
area. Commercial landings in New York are only 15 percent of 
what they were a few years ago. And it is not just winter 
flounder. When you look at the fin fish community of Long 
Island Sound as a whole over the last 15 years, nearly all of 
the cold-water species have been declining and nearly all of 
the warm-water species are increasing.
    Finally, there is the problem of invasive species. The 
recent trend of warmer winters in Long Island Sound has favored 
the growth and recruitment of exotic species over natives. 
Invasive sea squirts that like winters that are warm are 
coating the bottom of Long Island Sound, driving away native 
species.
    What do we do about this? From a fishery management 
perspective, we need to recognize that harvested populations 
near the limits of their ranges will need extra precautionary 
measures to protect them from extinction. Predators, pathogens, 
parasites and invasive species are moving across ecosystem 
boundaries. We may need to reduce harvest of some of these 
species in certain areas to enable them to withstand additional 
stress.
    Of course, the ultimate and best solution is the reduction 
of greenhouse gases. One way of doing this, advocated by some 
scientists and soon to be commercialized, is the purposeful 
fertilization of the open ocean with iron. The idea is that 
phytoplankton blooms will draw carbon out of the atmosphere. 
Here we need to be careful. Fertilizing aquatic systems almost 
always has some undesirable consequences. Hypoxia in Long 
Island Sound, for example, results largely from over 
fertilization by nitrogen. Sometimes enrichment causes blooms 
of harmful algal species like red tide or brown tide. The pros 
and cons of iron fertilization need much further investigation.
    Regarding ocean acidification, my colleagues have already 
discussed this issue. I just want to underscore that there will 
be direct impacts of acidification on marine fishes. It is a 
problem we need to look more seriously at.
    Also, changes in habitat due to loss of coral and shellbed 
habitats will alter the food web that supports our fisheries. 
We need to understand these complex interactions.
    Finally, I want to underscore the need for a comprehensive 
ocean observation system. Scientists are frequently asked to 
explain catastrophes like the die-off of lobsters in Long 
Island Sound. We need an observation system that can track 
environmental changes before, during, and after these events to 
provide the clues to what happened. Otherwise we are like the 
detective at the scene of a crime, with no evidence and lots of 
potential suspects.
    The technology exists. Let us put it to use. Such 
observation systems will greatly aid resource managers in 
ensuring sustainable fisheries. Thank you and I look forward to 
answering your questions.
    [The prepared statement of Dr. Conover follows:]

   Prepared Statement of David O. Conover, Ph.D., Dean and Director, 
        Marine Sciences Research Center, Stony Brook University
Introduction
    I thank Madame Chair Cantwell, Ranking Member Snowe, and the other 
Members of the Subcommittee for the opportunity to describe to you the 
likely consequences of climate change on marine fisheries. My name is 
David Conover. I am the Dean and Director of the Marine Sciences 
Research Center of Stony Brook University, Long Island, New York. My 
research expertise involves the ecology and natural history of marine 
fishes and the impacts of harvesting and other human influences on wild 
fish populations. Of particular relevance to the subject of this 
hearing, I have devoted much of my 30-year career to studying the 
physiological mechanisms by which fish adapt evolutionarily to climate 
change. Much of this work concerns species that live along the East 
Coast of North America from Florida to the Canadian maritimes, a region 
that encompasses dramatic changes in climate. We can learn a lot about 
what to expect from climate change by studying species that span the 
U.S. East Coast.
    You have asked me to address the consequences of climate change for 
fisheries, fish habitats, the distribution and abundance of species, 
food webs, and the gaps in our knowledge that preclude our ability to 
predict immediate and long term impacts. In addition, you have asked 
for suggestions on how resource managers should respond to these 
threats. I will begin by briefly outlining the major changes in the 
ocean ecosystems that are already underway and are expected to 
accelerate in the years ahead, touching briefly on ocean acidification 
and then devoting most of my attention to the effects of warming. Both 
the direct and indirect impacts of acidification and warming will be 
highlighted. I will then discuss several East Coast examples where 
already there is strong evidence that climate change is harming local 
species and altering ecosystems in transitional zones. Finally, I'll 
talk about short-term solutions and research needed to provide a 
longer-term prognosis and options for the future.
Ocean Acidification
    Knowledge of the potentially devastating impact of reduced pH on 
aquatic ecosystems is not new. Decades ago it became evident that acid 
rain was afflicting numerous freshwater ecosystems leading to declines 
and extinctions of numerous fish and macro-invertebrate species from 
certain lakes and streams that lacked a natural buffering capacity. 
What is new is the recognition that acidification of entire oceans is 
possible. It is caused not by acid rain, however, but from increased 
CO<INF>2</INF> in the atmosphere, which in turn leads to increased 
carbonic acid in the ocean.
    Most of our knowledge of the direct effects of ocean acidification 
on marine organisms focuses on species known as ``marine calcifiers'' 
(e.g., corals, mollusks) that build skeletons or shells made of calcium 
carbonate. Many of these species will suffer impaired ability to build 
skeletons as pH decreases. We know less about the direct impacts of 
acidification on harvested species like fishes and squids. In these 
species, the response to acidification is likely to involve 
physiological diseases including acidosis of tissue and body fluids 
leading to impaired metabolic function. Egg and larval stages are 
likely to be much more susceptible than adults, suggesting that reduced 
reproductive success will be among the first symptoms to appear. The 
indirect effects of acidification on fisheries will include loss of 
reef habitat constructed by marine calcifiers. Many fishes depend on 
the physical structure provided by coral skeletons or shell-building 
organisms such as oyster reefs as essential habitat for one or more 
life stages. In addition, food web alterations will likely affect 
harvested species through bottom-up effects on the food chain resulting 
from pH-induced shifts in the plankton community. More research is 
needed to understand these complex interactions.
Ocean Warming
    Temperature is a pervasive environmental factor with direct effects 
on nearly all aspects of the ecology, physiology, morphology, and 
behavior of poikilothermic or so-called ``cold-blooded'' animals. There 
is a vast scientific literature describing the temperature-dependence 
of physiological processes and thermal ecology of individuals of a 
given species. Less is known about population and ecosystem level 
responses to temperature change but we know enough to make fairly 
strong, general predictions about the consequences of warming at least 
for the species level.
    All species are adapted for life over a relatively moderate range 
of temperatures compared with the extremes experienced form the poles 
to the tropics. Temperatures below the optimal range slow the rate of 
metabolism and, if too low, can become lethal. Temperatures above the 
optimal range increase metabolism and, because warmer water contains 
less dissolved oxygen, a thermal threshold is reached where respiratory 
demand exceeds the capacity for oxygen uptake, sometimes referred to as 
the ``temperature-oxygen squeeze'' (Portner and Knust 2007). Hence, 
temperature is one of the primary environmental factors that determine 
the geographic range of a species. Minimum winter temperatures often 
determine the high-latitude boundary (the northern boundary in the 
northern hemisphere) while summer maximums determine the low-latitude 
limit of a species. Even within the normal range of a species, the 
dynamics of populations often show strong correlations with temperature 
trends.
    While scientists can use the thermal physiology of a species to 
predict how it might respond to the direct effects of ocean warming, 
there are indirect effects at the ecosystem level that complicate the 
overall impact considerably. In temperate regions, for example, the 
complex of species found at a given latitude are a mixture of those 
adapted to colder or warmer thermal regimes. These species are 
interconnected through a web of predatory, competitive, pathogenic, 
parasitic, and mutualistic interactions that influence the abundance of 
species. Invasive species also sometimes get a foothold more easily in 
systems undergoing disturbance. In addition, changes in temperature may 
influence the overall primary productivity of ecosystems in either 
positive or negative directions (Behrenfeld et al., 2006), which may 
ultimately impact fisheries yields.
    In general, the impact of ocean warming should be most evident at 
the northern and southern boundaries of the distribution of a given 
species. These boundaries tend to be shared among numerous species, and 
they tend to occur where there are sharp discontinuities in thermal 
gradients. Hence, there are certain regions of the world ocean that are 
transitional zones for numerous species. Cape Hatteras and Cape Cod are 
two such regions. It is within these transitional regions where we are 
likely to first see the strongest impacts of climate change. Most of 
the phenomena described above are illustrated by changes we are now 
seeing along the East Coast of the U.S., particularly within Long 
Island Sound.
Impacts of Warming on Fisheries as Exemplified by Long Island Sound
    The Long Island region has represented a thermal transition zone 
for thousands of years. During the Pleistocene, this region was the 
transition from glaciated to non-glaciated terrain. Today it still 
represents a subtle but ecologically important transitional zone 
between warm-water and cold-water regions.
    Most temperate marine species of fishes and macro-invertebrates can 
be described as having either cold-water or warm-water affinities. 
Northern species like cod, winter flounder, and American lobster are 
classic cold-water species. For many of these species, the Long Island 
Sound region represents that southern terminus of their migration and/
or geographic distribution. Southern species like weakfish, summer 
flounder, and blue crab are physiologically adapted to warm 
temperatures. Long Island Sound represents the northern end of their 
geographic occurrence. We are seeing strong evidence of shifts in the 
relative abundance of cold-water and warm-water species in our region 
that are consistent with the predictions of ocean warming.
    The most well studied example is American lobster. Massive, 
catastrophic summer-fall mortalities of lobsters in Long Island Sound 
began in August 1999, and have continued to occur to a greater or 
lesser degree in subsequent summers. An extensive federally-sponsored 
research program has identified summer warming of Long Island Sound 
bottom waters, coupled with hypoxia, and the outbreak of disease as the 
most likely causes. One of these diseases called ``excretory 
calcinosis'', discovered by scientists at Stony Brook University, is a 
gill tissue blood disorder resulting directly from warm temperatures 
(Dove et al., 2004). Other lobster diseases also appear to result from 
the stress of high temperature and hypoxia. The result of these 
multiple stresses has been a 75 percent reduction in total landings and 
85 percent reduction in the overall abundance of the population. These 
diseases now appear to be moving northward.
    Another example of climate-induced effects on fisheries involves 
the northward expansion of a disease known as ``dermo'' that afflicts 
the oyster. It is caused by Perkinsus marinus, a parasite that yearly 
kills 50 percent of oysters in the Gulf of Mexico. Prior to the late 
1980s, the parasite was known to occur only south of lower Chesapeake 
Bay. In the early 1990s, however, dermo underwent a 500 km northward 
range expansion extending all the way into the Gulf of Maine. 
Researchers at Rutgers University have demonstrated that the range 
expansion occurred during years when winters were unusually warm (Ford 
and Smolowitz 2007). The prevalence of dermo is now high from Delaware 
Bay to Cape Cod, with no signs of abating.
    Shifts in the relative abundance of finfish in Long Island Sound 
also bear the signature of ocean warming. Like the lobster, winter 
flounder is also at the southern end of its distribution and it too is 
showing extremely severe declines. Commercial landings in New York are 
only 15 percent of what they were 50 years ago. According to annual 
resource assessment surveys conducted since 1984 by the Connecticut 
Department of Environmental Protection (CTDEP), winter flounder 
abundance in Long Island Sound is now less than 10 percent of what it 
was in 1990. We need more research to determine if winter flounder are 
declining due to warming temperatures. But when you look at the finfish 
community of Long Island Sound as a whole (CTDEP 2006), evidence of 
warming as the causative factor becomes much stronger. Most of the 
cold-water species of Long Island Sound have been declining over the 
past 15 years (e.g., lobster, winter flounder, Atlantic herring, 
cunner, longhorn sculpin, sea raven, ocean pout, winter skate, little 
skate) while most of the warm-water fishes have been increasing (e.g., 
striped bass, weakfish, summer flounder, menhaden, scup, striped sea 
robin, butterfish, Atlantic moonfish, hickory shad).
    Finally, there is also evidence from Long Island Sound that the 
recent trend of warmer winters favors the growth and recruitment of 
invasive species over those of native species. Researchers from the 
University of Connecticut showed that exotic ascidian species (sea 
squirts) benefit more from mild winters while native species benefit 
more from cold winters (Stachowicz et al., 2002). Overgrowth of bottom 
habitat by invasive sea squirts is becoming an increasing problem in 
Long Island Sound.
Implications for Management
    Resource managers need to recognize that local populations of 
species near the limits of their distributional ranges will need 
additional precautionary measures to protect them from extinction. 
Warming and acidification represent additional stresses that make 
populations less resilient to the effects of harvest. We may need to 
reduce harvest of some species in certain areas to enable them to 
withstand the additional stress.
    Transitional regions are where the impact of climate change will 
first be evident. These regions are also conduits for species exchange. 
The transmittal of pathogens, predators, and invasive species across 
ecosystems will increase as species migrate into new regions across 
thermal and faunal boundaries such as Cape Cod, which separates the 
Mid-Atlantic region from the Gulf of Maine. Management practices that 
transplant species across ecosystems need to be viewed with caution.
Solutions, Their Implications, and Further Research
    The ultimate and best solution is the reduction of greenhouse gases 
that cause acidification and warming. One solution advocated by some 
scientists and soon to be commercialized is the purposeful 
fertilization of open ocean habitats that are deficient in iron. The 
resulting pulses of phytoplankton growth sequester carbon from the 
atmosphere and may help reduce the buildup of atmospheric 
CO<INF>2</INF>. Although this possibility deserves serious scrutiny, 
the ecosystem impacts of fertilization in most aquatic ecosystems 
almost always contain undesirable consequences for water quality, food 
webs, and fisheries. Hypoxia in Long Island Sound, for example, results 
largely from over-fertilization by nitrogen, which is the limiting 
nutrient in many coastal waters. Sometimes the blooms produced by 
enrichment turn out to be harmful algal species like ``red tide'' or 
``brown tide''. The ecological consequences of ocean fertilization on a 
scale sufficient to stem the build-up of green house gases needs much 
further research to evaluate the potential risks of unintended negative 
impacts.
    The certainty of climate change and its potential impacts on ocean 
ecosystems underscore the need for a comprehensive ocean observation 
system. Our ability to unravel the causes and consequences of ecosystem 
change is directly dependent on the availability of a continuous time 
series of many different kinds of environmental data. Gradual trends in 
highly variable environmental parameters like temperature, oxygen, 
salinity, pH, chlorophyll, wind, circulation patterns, and others 
become evident only after many years. Fishery ecologists are frequently 
asked to explain the cause of episodic events like the die-off of 
lobsters in Long Island Sound, but we need an observation system that 
can provide ``before, during, and after'' data to give us the clues. 
Otherwise, we are like the detective at the scene of a crime with no 
evidence and lots of potential suspects. The technology exists to 
continuously measure numerous physical and biological parameters that 
will greatly help us understand and therefore devise strategies to cope 
with ecosystem alterations caused by climate change or other forces. 
The number and diversity of sensors currently deployed in U.S. ocean 
waters is woefully inadequate. Such observation systems will greatly 
aid resource managers in ensuring sustainable fisheries.
References
    Behrenfeld, M.J., R.T. O'Malley, D.A. Siegel, C.R. McClain, J.L. 
Sarmiento, G.C. Feldman , J. Milligan, P.G. Falkowski, R.M. Letelier , 
and E.S. Boss, 2006: Climate-driven trends in contemporary ocean 
productivity. Nature, 444(7120), 752-755.
    CTDEP, Bureau of Natural Resources, Marine Fisheries Division. 
2006. A Study of Marine Recreational Fisheries in Connecticut. Federal 
Aid in Sport Fish Restoration, F-54-R-25, Annual Performance Report.
    Dove ADM, LoBue C., Bowser P., Powell M. 2004. Excretory 
calcinosis: a new fatal disease of wild American lobsters Homarus 
americanus. Diseases of Aquatic Organisms 58 (2-3): 215-221.
    Ford, S.E. and R. Smolowitz. 2007. Infection dynamics of an oyster 
parasite in its newly expanded range. Mar. Biol. 151: 119-133.
    Portner, H.O., Knust R. (2007) Climate change affects marine fishes 
through the oxygen limitation of thermal tolerance. Science 315, 95-97.
    Stachowicz, J.J., J.R. Terwin, R.B. Whitlatch, and R.W. Osman. 
2002. Linking climate change and biological invasions: ocean warming 
facilitates nonindigenous species invasions. Proc. Natl. Acad. Sci. 99: 
15497-15500.

    Senator Cantwell. Thank you, Dr. Conover.
    Dr. Hansen?

   STATEMENT OF DR. LARA J. HANSEN, CHIEF SCIENTIST, CLIMATE 
              CHANGE PROGRAM, WORLD WILDLIFE FUND

    Dr. Hansen. Thank you very much, Madam Chair.
    I'll attempt to make this show up on your screen as well. 
Perhaps yes, perhaps no. Ah, there we go.
    I have submitted written testimony, but for the purposes of 
my 5 minutes today I would actually like to take people on a 
more personal journey. In 2001, I was brought to the World 
Wildlife Fund to help them design conservation strategies to 
prepare for climate change. Over the course of the past 6 years 
we have developed this suite of projects and I think that I 
will take you through a couple of them that really illuminate 
the challenges that we face in the world's oceans in response 
to climate change. The basics of that have been presented by 
the previous speakers very eloquently. I am going to take you 
through what this means if you are a resource manager or a 
conservation planner.
    In the Florida Keys, which is a place near and dear to my 
heart--I did my postdoctoral research there--coral bleaching, 
coral disease, and hurricanes have resulted in the listing of 
two coral species for the entire range of the Caribbean. It is 
not clear how we can protect these species from those types of 
changes since we only see more of it on the horizon.
    Currently we are trying to reduce the proximal threats that 
are not related to climate change in order to increase the 
resilience of these systems to a changing climate, by reducing 
things like pollutants. But it is not clear that we can do that 
for much longer.
    In the Bering Sea, we are trying to protect fisheries. The 
fisheries of the Bering Sea are an enormous industry, not only 
for the United States but for Russia and many other countries 
of the world as well. But more importantly, this is a crucial 
ecosystem to the world's oceans. It is a very productive part 
of the world and we are trying to see if there are ways we can 
better manage fisheries to respond to climate change.
    We are also working on protecting mangroves around the 
world because they protect both coral reefs and coastal systems 
where humans and biodiversity live.
    But all of these actions that I talk about, be it better 
fisheries management, reducing pollution, or restoring 
habitats, will be inconsequential if climate change is allowed 
to continue at the rate it currently is. For climate change-
increasing temperatures, we recognize that there is about a 
limit of 2 degrees before we cannot use these types of methods 
to help these systems.
    In the case of ocean acidification, we do not know what 
that limit is. It is probably fairly low before we start seeing 
remarkable impacts, because the oceans historically have been 
believed to have a very high buffering capacity, so we would 
not need to worry about things like ocean acidification. In 
fact, that is not the case, as we can all--as Dr. Feely has 
already indicated.
    We are at a point now where we need to not only be dealing 
with adaptation, but we need to be dealing with mitigation as 
well. Unfortunately, we are currently dealing with neither. As 
a result, I suggest a number of things. Obviously, the Congress 
is doing a great job of taking on issues of mitigation, of 
reducing greenhouse gas emissions. There are several bills in 
process for that. But there is virtually nothing in process for 
what we are doing about adaptation, and we will be seeing the 
effects of climate change on every sector of society.
    We need a national adaption plan or strategy. As part of 
this, we also need the capacity to deal with climate change. It 
is almost impossible to find people who know how to design 
adaptation strategies and adaptation actions, because we have 
not trained people for these types of activities. We need an 
adaptation extension agency analogous to the land grant and Sea 
Grant extension agencies, with also an international component 
that can help people in other countries adapt.
    We have been told, according to the IPCC Second, Third--
Fourth Assessment Report, second working group, that it will be 
the poorest of the poor that will be affected by climate 
change. In fact, I would argue that we will all be affected by 
climate change, and I think that the slow recover of the Gulf 
Coast following Hurricane Katrina is an excellent example of 
the low adaptive capacity of even the United States, a very 
wealthy country by world comparison.
    We need to act now. We cannot wait and continue to do 
studies. We are seeing the changes. Obviously we need to 
continue to learn as we go, but we cannot wait for all the 
answers before we decide what it is we are going to do. This 
problem is already upon us.
    Thank you very much, Madam Chair.
    [The prepared statement of Dr. Hansen follows:]

  Prepared Statement of Dr. Lara J. Hansen, Chief Scientist, Climate 
                  Change Program, World Wildlife Fund
    ``Climate change is arguably the greatest threat to the world's 
biodiversity.'' That is how I began my testimony to the Senate 
Committee on Commerce, Science, and Transportation in March of 2004. 
Three years later this is no less true. In fact, the situation we find 
ourselves in is even more dire as was most recently highlighted in the 
Intergovernmental Panel for Climate Change (IPCC) Fourth Assessment 
Report released this year. Representing the top scientific experts in 
their fields, the three working groups of that body present the state 
of the science as demonstrating that:

        1. Climate change is caused by greenhouse gas emissions from 
        fossil fuels, such as carbon dioxide, and land use change;

        2. We are already seeing the effects of climate change around 
        us; and

        3. We need to take action now both in terms of mitigation and 
        adaptation to avoid an unacceptable future.

    The time to act is now.
    The primary response among policymakers has been to focus on 
reducing emissions of greenhouse gases, that is, mitigation of climate 
change. However, as the IPCC Working Group II emphasized, and as I have 
emphasized in my work over the years, adaptation--our ability to adjust 
to and prepare for the changes in climate already occurring and future 
changes to which our past emissions have already committed us--is now 
equally important. There is no need to debate the virtues of mitigation 
versus adaptation. Neither alone will solve our problems. We need both 
and we need to see meaningful legislation addressing both mitigation 
and adaptation during this Congressional session.
    As part of a conservation organization, my colleagues and I work to 
protect the world's biodiversity and natural resources. Traditional 
approaches to this work have relied on creating protected areas, 
limiting ``take'' of key species and resources and monitoring 
ecosystems of great importance and/or at great risk. Climate change 
makes these approaches inadequate. As the world's oceans warm and 
acidify, storm intensity increases, sea level rises, timing and 
concentrations of nutrient and contaminant run-off from terrestrial 
systems change, currents and upwelling patterns stop or move, timing of 
migration and lifecycle stages shifts, and ranges of species move, the 
oceans can not be protected from climate change by these old 
mechanisms. Conservation is now being planned across a matrix that is 
changing before our eyes and we are not prepared.
    It could further be argued that the United States as a whole is not 
prepared. The IPCC Fourth Assessment Report asserts that climate change 
will be hardest on the poorest of the poor globally. The 2005 hurricane 
season indicates that the United States will not be unscathed by 
climate change. It is now over a year and a half since a record number 
of Category 5 storms hit our Gulf Coast, and it has still not recovered 
from the battering. New Orleans is still in tatters. The calamities of 
climate change will be events like these and we are not prepared.
    To address climate change in our conservation planning, WWF has 
adopted an approach to increase the resilience of natural systems to 
climate change that we are employing in ecoregions around the planet. 
This work is based on four basic tenets:

        1. Protecting adequate and appropriate space. As the climate 
        changes species (plants and animals) will react to these 
        changes. They will react by altering how they live, such as 
        using new resources, by moving to new areas, or by disappearing 
        because they cannot find the habitat or resources they require. 
        To help ecosystems respond to climate change we need to start 
        planning where protected areas need to be in the future for 
        species survival and how they need to be managed differently to 
        support species groups. We need to look for locations that can 
        act as refuges from climate change, opportunities for networks 
        of reserves along climatological gradients (often across 
        latitude or elevation), locations with high amounts of 
        heterogeneity (or areas with different habitats and species) 
        and opportunities to support genetic diversity and gene flow. 
        All of these strategies try to maximize the opportunity for 
        species or ecosystems to respond to climate change, without 
        adversely affecting ecosystems with our actions.

        2. Reducing all non-climate stresses. Climate change presents a 
        number of environmental stresses--increasing temperature, 
        altered precipitation patterns, sea level rise, altered 
        environmental chemistry to name just a few--but these stresses 
        are not occurring in a vacuum. There are already a host of 
        other environmental stresses out there, including invasive 
        species, over-harvest, habitat degradation and fragmentation, 
        disease and pests, and pollution. Unfortunately in many cases 
        there are synergistic interactions between these traditional 
        stresses and the stresses of climate change, effectively 
        lowering the effect or ``toxicity threshold.'' To increase 
        ecosystem resilience to climate change we must lower the risk 
        of adverse reactions by lowering the acceptable limits of these 
        other stresses in the environment because climate change is 
        already happening and our actions/inaction has already 
        committed us to some changes.

        3. Implementing these pro-active approaches in adaptive 
        management so we can learn as we go. The actions we suggest are 
        just good sense in light of climate change. If we enact small-
        scale tests and wait to implement our approaches broadly, the 
        system will have changed and our approaches may no longer be 
        useful or applicable. The window of opportunity for 
        preparations may close as climate change progresses. 
        Additionally, we do not have the funds or the human capacity to 
        test strategies everywhere so we need to be learning lessons to 
        share and implement as rapidly as possible.

        4. Reduce the rate and extent of climate change. There is a 
        limit to our ability to adapt to climate change. For example if 
        we think about ocean acidification, there is a permanent 
        commitment to changing the pH of the ocean every time we add 
        more carbon to the atmosphere and it is not at all clear how we 
        can adapt to these changes. Best estimates are that 2+ C (3.6+ 
        F) increase in average global temperature brings us to a point 
        where adaptation options become dramatically limited in 
        feasibility and efficacy and prohibitively expensive in terms 
        of cost. It is not new thinking that mitigation is necessary. 
        This is simply another reason why we need to act sooner rather 
        than later.

    WWF's conservation adaptation projects are being implemented around 
the world, including in our marine ecoregions. In the tropics, we are 
testing how to protect coral reefs in American Samoa, Florida and the 
Mesoamerican Reef of Central America. We are also restoring and 
protecting mangrove forests to provide better coastal protection in 
Fiji, Cameroon and Tanzania. We are planning for sea level rise in low 
lying regions of the world, especially those that are home to 
endangered species, like endangered sea turtles in the Caribbean and 
beautiful tigers in the Sundarbans of India. In the Bering Sea of 
Alaska we are working to protect the future of that region's vital 
fisheries for the realities of climate change.
    Some of our first work on climate adaptation was focused on coral 
reefs. Coral reefs are particularly sensitive to climate change. They 
bleach when ocean temperatures climb by as little as one degree 
Celsius. They are unable to create the calcium carbonate skeleton that 
forms the reef structure when the pH drops. And, they are damaged by 
increasingly intense tropical storm activity. The fate of coral reefs 
will have ramifications for human societies as well. It has been 
estimated that coral reefs have a global economic value of $30 billon 
in net benefits. In the case of coral reefs we are particularly 
interested in increasing resilience by decreasing those non-climate 
stresses that exacerbate the adverse effects of climate change; those 
factors that add to the overall stress and prevent corals from being 
able to withstand the stresses of climate change itself. In American 
Samoa our research group worked with local stakeholders to assess the 
current and potential impact of climate change on their coral reef 
resources. Almost annual coral bleaching in this region may be leading 
to reef degradation. Increased awareness of this issue in the region, 
in part due to this project, has lead to climate change being front and 
center on the agenda of the upcoming U.S. Coral Reef Task Force meeting 
to be held in American Samoa.
    This first project led us to explore similar issues on a reef 
closer to home. In the Florida Keys, in fact for their whole Caribbean 
range, there are two species of coral, Acropora cervicornis and A. 
palmata, which are listed as threatened under the Endangered Species 
Act. The top three factors identified as the cause of their listing are 
increasing sea temperatures, hurricanes and disease. It is unclear how 
a recovery plan will be developed to respond to these threats given 
their inextricable link to global climate change and increasing 
greenhouse gas emissions. However the larger issue in the region is not 
how to protect these two species but rather how to protect the entire 
reef ecosystem. We are currently developing a decision-support tool to 
allow for the integration of historic coral bleaching data and water 
quality data in order to assess how improving regional water quality in 
the Keys may increase the resilience of those very economically 
valuable coral reefs. In 2001 it was estimated that coral reefs 
generated $3.9 billion in income for Broward, Mimai-Dade, Monroe and 
Palm Beach counties.
    Coral reefs are not the only systems at risk from climate change. 
Coastal communities, both people and wildlife, also experience multiple 
climate change challenges--sea level rise, increasing storm intensity, 
changing precipitation, and increasing temperatures. Couple those 
stresses with the high human population density and development typical 
of coastal regions and climate planning becomes quite complicated. In 
some regions we are working to protect coastline and in other we are 
preparing for its loss.
    Mangrove forests are already one of the most degraded ecosystems in 
the world. They have been cut down for firewood, building supplies and 
to clear coastline for development. Unfortunately these trees provide 
natural protection for shoreline from sea level rise and storm surge. 
Their loss has increased the vulnerability of coastal communities. WWF 
is working to restore and protect mangrove forests in order to increase 
coastal resilience in Fiji, Cameroon and Tanzania. As it turns out 
there is an added benefit of protecting mangroves; healthy mangroves 
may support healthy reefs. Mangroves filter nutrients out of the water 
as it flows from land to the oceans. It turns out coral reefs prefer 
low nutrient waters and when high nutrient waters flow into the oceans 
it can decrease the resilience of coral reefs. Additionally mangroves 
produce a compound that can filter out the harmful ultraviolet 
radiation that can exacerbate coral bleaching.
    Sea level rise means the loss of land. For some species appropriate 
land is limited; others thrive right along the shoreline. In either of 
these cases, there are almost always human communities nearby that are 
also competing for this already precious space. Unfortunately it is 
getting more precious every day. An interesting case study is the Key 
Deer, a federally endangered species that finds suitable habitat on 
just two of the Florida Keys. With an elevation of less than 2 meters 
(or about six feet) at their highest point the vulnerability of the 
Florida Keys to climate change is clear. If you are a Key Deer, with 
nowhere to migrate in response to climate change, your future is grim. 
While it is not clear what can be done for the Key Deer, WWF is trying 
to help develop plans to prepare other species for climate change. In 
the Caribbean basin, we are learning how sea level rise will inundate 
the nesting beaches of sea turtles. Sea turtles are vulnerable 
throughout their lives to climate change--their sex is determined by 
the temperature of the sand in which their eggs incubate, their long 
migrations and food sources are to varying degrees affected by ocean 
currents potentially vulnerable to climate, some rely on coral reefs 
and sea grasses which are themselves vulnerable and then their nesting 
beaches are being lost as the seas rise. Often as sea level rises, 
beaches retreat inland creating new coastline that would be suitable 
for turtle nesting. Unfortunately human infrastructure (buildings, 
roads) can prevent the generation of suitable new habitat. We are 
creating a new conservation plan for sea turtles that allows us to 
assess rate of sea level rise, beach elevations (looking for beaches 
that can withstand more sea level rise), local geology (subsidence and 
uplift), and patterns of human development. This will allow for 
choosing the right places for sea turtle protected areas and developing 
better coastal planning for not only sea turtles but human populations 
as well.
    On the other side of the planet we are dealing with a similar but 
potentially more dangerous issue. In the Sundarbans of India, tigers 
live on low-lying mangrove islands. It is estimated that 12 of these 
islands will be lost to sea level rise by 2020. These are home to not 
only the tigers but people as well. As these islands are lost, both 
tigers and people will be looking for new homes, and with this may come 
increasing human/wildlife interactions that can have adverse 
consequences for both sides. We are again trying to develop a new 
conservation plan to prepare for the habitat that both humans and 
tigers will need as the landscape changes.
    A similar process is occurring in our most northern oceans. In the 
Arctic, record sea ice loss is causing polar bears to spend more time 
on land or drown at sea. It is also making them go hungry because they 
require sea ice to hunt for their primary food source, ringed seals. 
More time on land means more time for potential interactions with 
people. In one Russian community where we work a young woman was killed 
by a polar bear near her village last year. We are now working with 
these communities on ways to decrease polar bear/human interactions 
without loss of life on either side through what are called ``Polar 
Bear Patrols.''
    In the Bering Sea climate change is causing fish species ranges to 
shift (generally moving farther north) and historic fishing grounds 
will no longer be as robust. This is no small concern as the Bering Sea 
is home to a $2.1 billion fishing industry. WWF is working to develop 
new management approaches that plan for climate change and protect the 
resource as well as the livelihoods that rely upon it.
    Obviously projects like these will not solve the problem of climate 
change. However they encompass the level of climate awareness that 
managers must now have and the range of activities they can engage in 
order to increase the resilience of their systems to climate change. 
They are part of a larger strategy that we must develop to address both 
the cause and effects of climate change.
    Virtually all of the major bills introduced in this Congress 
relating to climate change are focused on mitigation, whether in the 
form of across-the-board cuts in U.S. greenhouse gas emissions, or in 
more targeted cuts for electric power plants, mobile sources of 
emissions, etc. Given the crucial need to address the root cause of 
climate change this is not misguided. However we must now also begin 
the task of addressing how to respond to the effects of climate change. 
At this point, bills on climate change have not addressed adaptation in 
a meaningful way.
    Conservation organizations are not alone in their lack of 
preparedness for the effects of climate change. We need a bold new plan 
in all sectors to deal with this ubiquitous challenge. WWF proposes a 
legislative approach with two components. First we need a National 
Strategy for Adaptation, supported not only with funding, but with an 
extension agency that works to develop the myriad responses we will 
need in all sectors of our society, not just the oceans, not just 
natural resources and wildlife, but in civil society and the 
infrastructure on which we and our economy relies--food, water, 
housing, transportation, education, public health . . . the list is 
endless. This extension agency could be modeled after the Land and Sea 
Grant programs to work with all levels of society across the country on 
specifically addressing and adapting to climate change. Second, we need 
an impact assessment approach modeled after National Environmental 
Policy Act (NEPA) that would require public works, infrastructure 
activities and all other projects that might adversely affect natural 
systems to take into account the added effects of climate change, and 
address how those adverse effects could be avoided. For instance, some 
pollutants become more toxic at elevated temperatures, so existing 
exposure limits may not adequately protect people and ecosystems as the 
planet warms and this could affect permitting for new sewage treatment 
projects. In fact this approach of assessing the vulnerability of 
projects to climate change should be good business practice for all 
federally funded project in order to ensure their value, success and 
longevity, regardless of whether they focus on natural resources.
    The task of fully addressing climate change is massive, but we can 
no longer ignore it.
                                 ______
                                 

           Sustainable Development Law & Policy--Winter 2007

              Climate Change and Federal Environmental Law

        by Drs. Lara Hansen and Christopher R. Pyke<SUP>*</SUP>
---------------------------------------------------------------------------

    \*\ Dr. Lara Hansen is Chief Scientist on Climate Change at the 
World Wildlife Fund. Dr. Christopher R. Pyke is the Director of Climate 
Change Services for CTG Energetics, Inc.
---------------------------------------------------------------------------
Introduction
    Human activities, particularly the combustion of fossil fuels and 
the large-scale transformation of land cover, affect ecosystems around 
the world, Changes in temperature, precipitation, and water chemistry 
are altering our environment. These changes will also affect 
environmental regulatory frameworks, either rendering them ineffective 
or forcing them to adapt to achieve their goals under changing 
conditions.
    Global temperature has increased by 0.8+ C over the last century. 
Climate scientists estimate that we arc committed to an additional 0.5+ 
C increase due to the amount of carbon dioxide (``CO<INF>2</INF>'') 
that is already present in the atmosphere.\1\ Rising temperatures have 
been accompanied by a wide range of environmental changes, including, 
retreat of sea ice and glaciers, sea level rise, and changes in the 
intensity and frequency of storms and precipitation events.\2\ Rising 
CO<INF>2</INF> concentrations has not only changed the composition of 
the air, but it is also changing the chemistry of the water: 
CO<INF>2</INF> is absorbed by the oceans, which forms carbonic acid, 
causing the acidification of the oceans.\3\
    These changes mean that regulations intended to protect natural 
resources and promote conservation will be applied under conditions 
significantly different from those that prevailed when they were 
drafted. Achieving the original goals of these regulations will require 
a careful assessment of long-standing assumptions, as well as decisive 
action to change regulatory practices in ways that accommodate, offset, 
and mitigate climate change. Three such laws will be explored in this 
article: the Endangered Species Act (``ESA''), the Clean Water Act 
(``CWA''), and the Clean Air Act (``CAA'').
Climate Change and the Endangered Species Act
    The stated purpose of the ESA is ``to provide a means whereby the 
ecosystems upon which endangered species and threatened species depend 
may be conserved.'' \4\ The architects of the ESA intended to save 
creatures from proximal threats, such as bulldozers and dams. Yet, 
today we see clear evidence that climate change creates new threats to 
already imperiled species by contributing to the disruption of 
ecological processes essential to entire ecosystems. Deteriorating 
conditions will impact the viability of endangered species and the 
practices used to protect them through implementation of the ESA (e.g., 
listing, ``take'' permitting, and recovery planning).
    For example, in 2006, two species of Caribbean coral, Elkhorn 
(Acropora palmata) and Staghorn (A. cervicornis) coral, were listed as 
``threatened'' for their entire range under the ESA. The listing stated 
that ``the major threats to the species' persistence (i.e., disease, 
elevated sea surface temperature, and hurricanes) are severe, 
unpredictable, likely to increase in the foreseeable future, and, at 
current levels of knowledge, unmanageable.'' \5\ This listing 
identifies three key threats that all relate to climate change: rising 
sea surface temperatures, disease susceptibility, and hurricane-related 
impacts. Sea surface temperatures are closely related to increasing 
global surface air temperatures. A severe Caribbean coral-bleaching 
event in 2005 demonstrated that high temperatures cause coral bleaching 
and bleaching corals become more susceptible to disease.\6\ Moreover, 
as global temperatures rise, the intensity and frequency of hurricanes 
may increase.\7\ The timing of this listing was particularly profound 
as it followed the unprecedented 2005 Caribbean summer, during which 
the region experienced the hottest water temperatures ever recorded 
with large-scale bleaching followed by disease,\8\ and a record 
breaking hurricane season.\9\
    Recently, the U.S. Fish and Wildlife Service proposed listing Polar 
Bears (Ursus maritimus). The bears rely on Arctic sea ice for access to 
food and breeding sites. Their primary food source, the ringed seal 
(Phoca hispida), is also an ice dependent species. The loss of nearly 
30 percent of Arctic ice cover over the past century, together with the 
possibility that the Arctic will be seasonally ice-free before the end 
of this century, strongly suggest that climate change will jeopardize 
the survival of this species.\10\
    Another example is the Key Deer, which is now limited to living on 
two islands in the Florida Keys. Most of the Keys have less than two 
meters of elevation. If sea levels were to rise one meter, most the Key 
Deer habitat would be lost. The only way to limit sea level rise and 
protect remaining Key Deer habitat is to take action to mitigate the 
rate and extent of climate change.\11\
    These three species represent the tip of the iceberg, so to speak. 
Because climatic conditions are central to basic ecological processes 
that control the distribution and abundance of life, the list of 
species that are or will be endangered by climate change is potentially 
enormous.\12\ The most direct way to protect the ecosystems in which 
these species live--the mandate of the ESA--will be to address the 
cause of climate change: greenhouse gas emissions. However, because 
some impacts are inevitable, it is important that we also consider how 
implementation of the ESA can be used to reduce the vulnerability of 
imperiled species and aid in their recovery despite changing 
conditions.
Climate Change and the Clean Water Act \13\
    The CWA provides the legislative foundation for the protection and 
restoration of the waters of the United States. The Act seeks to 
``restore and maintain the chemical, physical, and biological integrity 
of the Nation's waters'' with the goal of achieving water quality that 
``provides for the protection and propagation of fish, shellfish, and 
wildlife, and recreation in and on the water.'' \14\ The CWA gives the 
U.S. Environmental Protection Agency (``EPA'') the statutory authority 
to establish water quality standards and to regulate the discharge of 
pollutants into waters of the United States.
    Climate and water quality are linked by hydrologic processes 
involved in the global water cycle. These processes move water from the 
oceans, into the atmosphere, and back down into rivers, streams, 
wetlands, and estuaries. The net result is a sustainable supply of 
clean, fresh water and a wide variety ecosystem services, such as 
recreational opportunities and food production. It has long been 
recognized that humans intervene in this cycle through activities that 
intercept, store, utilize, or otherwise alter natural hydrologic 
processes (e.g., the expansion of impermeable surfaces, application of 
excess fertilizer, and removal of ecological filtration processes such 
as wetlands). The CWA provides a framework for understanding these 
sources of impairment and acts to restore impaired waters and prevent 
further degradation. Over time, the CWA contributed to significant 
improvements in surface water quality in the United States despite a 
steadily growing population and expanding economy.
    Climate change adds a new and potentially disruptive element to 
these long-running efforts. The Intergovernmental Panel on Climate 
Change predicts a wide variety of changes, including rising air 
temperature, more frequent heat waves, more intense precipitation 
events, and increasingly severe dry-spells and droughts.\15\ These 
changes reflect the biophysical consequences of an overall acceleration 
of the global hydrologic cycle, and these general conclusions have been 
a feature of the scientific literature for nearly twenty years. 
However, the local and regional consequences of these complex processes 
remain difficult to predict. The key conclusion for local and regional 
decisionmakers is that ``change'' will be the operative word, and 
historic observations will provide an increasingly unreliable guide to 
future conditions. Changes in hydrologic processes will be reflected in 
changes in the quantity and quality of surface waters, and, in many 
cases, they are likely to undermine important assumptions used in the 
implementation of the CWA. For example:

  <bullet> More intense precipitation events will increase nonpoint 
        source pollution loads.

  <bullet> Increasing storm water volumes may exceed expectations and 
        design specifications for water treatment works and sewer 
        infrastructure.

  <bullet> Decreases in flow volume may increase in-stream pollutant 
        concentrations and reduce the ability of waters to accommodate 
        pollutant discharges.

  <bullet> Increases in ambient air temperature will raise temperatures 
        in surface waters and threaten aquatic ecosystems.

  <bullet> Humans may respond to some climate change-related impacts 
        through increased use of some pesticides, fungicides, and 
        fertilizers, increasing the concentrations in surface and 
        groundwater (e.g., expanding nuisance species).

  <bullet> Climate change may also decrease the toxicity thresholds of 
        bioindicators to these pollutants.

    These changes have significant implications for the most important 
and far-reaching CWA programs, including the control of point source 
discharge, management of nonpoint source pollution, and environmental 
monitoring.
    Point source discharges are typically managed by engineered 
systems. Most modern systems are designed to accommodate a relatively 
wide range of environmental conditions. However, there are limits, and 
climate change may drive systems unexpectedly close to their design 
tolerances--sometimes risking catastrophic outcomes (e.g., levies 
surrounding New Orleans). Changes to long-term, capital-intensive 
investments such as sewer and stormwater facilities are costly and time 
consuming. Consequently, those involved in their design, construction, 
and operation need to begin anticipating the impacts of climate change 
immediately.
    Nonpoint source pollution represents a different kind of problem. 
By definition, nonpoint loads come from many small sources. Pollution 
is controlled by means of so-called Best Management Practices 
(``BMPs''), such as riparian buffers, retention ponds, and cover 
cropping. Climate change will alter both the volume and concentration 
of nonpoint source pollution and the effectiveness of BMPs. Managing 
nonpoint source pollution under changing climatic conditions will 
require thoughtful monitoring and attention to the relative 
sensitivities of different land uses and BMPs. In many cases, 
thoughtful land use planning and the selection of climatically-robust 
BMPs may be able to achieve many nonpoint source pollution control 
goals despite changing conditions.
    CWA programs are based on observations of the actual water quality 
conditions and activities that may contribute to impairment. 
Observations include information about a water body's physical, 
chemical, and biological condition. These indicators are used to assess 
compliance with water quality standards and attribute degradation to 
specific sources. This process typically assumes that drivers of change 
can be found within a given watershed. However, climate change will 
alter water quality regardless of local actions and, in most cases, 
climate-related changes will compound or exacerbate on-going water 
quality problems and a myriad of existing conditions and on-going 
restoration activities. In other words, climate change will make an 
already complicated analysis significantly more challenging.
    Untangling complex, changing mixtures of factors contributing to 
water quality will require monitoring systems that allow for separation 
of climatic and non-climatic factors. The EPA uses a system of 
bioindicators to evaluate the biological integrity of surface 
waters.\16\ These are typically fish, aquatic insects, and other 
organisms that have well-known responses to changes in water quality. 
These bioindicators provide synthetic measures of water quality that 
can help diagnose specific causes of impairment or degradation. 
However, bioindicators are themselves part of ecological systems that 
will respond to changes in both climate and water quality.\17\ The 
myriad examples offered in toxicological literature demonstrate that 
elevated temperature and altered water chemistry can exacerbate the 
toxicity of pollutants. Consequently, the use of this important 
information for attribution will require understanding the response of 
specific bioindicators to changing conditions and specifically 
selecting indicators with methods that allow for partitioning between 
climatic and non-climatic impacts.\18\
Climate Change and the Clean Air Act
    The stated purpose of Title IV of the CAA is ``to reduce the 
adverse effects of acid deposition.'' \19\ It seeks to address 
Congressional findings that:

        1. the presence of acidic compounds and their precursors in the 
        atmosphere and in deposition from the atmosphere represents a 
        threat to natural resources, ecosystems, materials, visibility, 
        and public health;

        2. the principal sources of the acidic compounds and their 
        precursors in the atmosphere are emissions of sulfur and 
        nitrogen oxides from the combustion of fossil fuels;

        3. the problem of acid deposition is of national and 
        international significance;

        4. strategies and technologies for the control of precursors to 
        acid deposition exist now that are economically feasible, and 
        improved methods are expected to become increasingly available 
        over the next decade; and

        5. current and future generations of Americans will be 
        adversely affected by delaying measures to remedy the 
        problem.\20\

    The CAA is primarily targeted at reduction of sulfur 
(``SO<INF>X</INF>'') and nitrogen oxides (``NO<INF>X</INF>''). It also 
may be interpreted or amended to apply to greenhouse gases. Rising 
atmospheric CO<INF>2</INF>-levels acidify ocean water and threaten 
marine resources and ecosystems. Reducing CO<INF>2</INF> emissions 
would help mitigate this global problem, potentially using CAA 
mechanisms originally designed for SO<INF>X</INF> and NO<INF>X</INF>. 
For example, Title IV of the CAA encourages ``energy conservation, use 
of renewable and clean alternative technologies, and pollution 
prevention as a long-range strategy, consistent with the provisions of 
this title, for reducing air pollution and other adverse impacts of 
energy production and use.'' \21\ These activities also reduce 
CO<INF>2</INF>, emissions and in so doing mitigate the effect of 
atmospheric CO<INF>2</INF>, on the ocean.
    Finally, CO<INF>2</INF>, acidification, like SO<INF>X</INF> and 
NO<INF>X</INF>, is a problem of national and international scope. 
Current and future generations will be affected by any delay in taking 
action. Due to the fact that roughly half of anthropogenic emissions 
end up in the oceans and because CO<INF>2</INF> remains in the 
atmosphere for a substantial period of time, CO<INF>2</INF> will 
continue to acidify the Earth's oceans for decades or centuries to 
come. Failure to limit anthropogenic emissions will only perpetuate 
this problem. The likelihood that reducing greenhouse gas emissions 
will limit acidification is very high.
    To date, the EPA has been unwilling to regulate CO<INF>2</INF> as 
an air pollutant, and legal action by states and municipalities on this 
issue awaits a decision by the U.S. Supreme Court. Interpreting or 
amending the CAA to regulate CO<INF>2</INF>, as an acidifying agent may 
be an effective mechanism for curbing CO<INF>2</INF> emissions.
Conclusion
    The ESA, the CWA, and the CAA form the foundation of the effort to 
protect and restore the environment in the United States. Climate 
change undermines the ambitious goals of these laws. Changes in climate 
can jeopardize the survival and recovery of endangered species. Climate 
change is likely to alter hydrologic processes in ways that could 
undermine the goal of providing clean, safe water resources. Climate 
change can also exacerbate long-standing air quality issues by 
increasing the likelihood of unhealthy or ecologically-damaging 
conditions. The first step is to take our collective foot off our 
fossil fuel-powered accelerator by implementing prompt and deliberate 
measures to reduce the emission of greenhouse gases.
    This first step, while necessary, is not sufficient. We are already 
committed to significant levels of climate change due to the 
accumulation of CO<INF>2</INF>, in our oceans and atmosphere. Achieving 
conservation and resource protection goals will require developing 
robust and resilient practices that explicitly anticipate and address 
the potential for changing conditions. In the years ahead, efforts to 
mitigate and adapt to climate change will constitute important, new 
dimensions to these critical pieces of environmental legislation.
Endnotes
    \1\ G.A. Meehl et al., How Much More Global Warming and Sea Level 
Rise?, 307 Science 5716 (2005).
    \2\ Kerry Emanuel, Increasing Destructiveness of Tropical Cyclones 
Over the Past 30 Years, 436 Nature 7051 (2005).
    \3\ Intergovernmental Panel on Climate Change, Summary for 
Policymakers, Climate Change 2001: Impacts, Adaptation, and 
Vulnerability (Feb. 2001), available at http://www.ipcc.ch/pub/
wg2SPMfinal.pdf (last visited Feb. 13, 2007) [hereinafter IPCC].
    \4\ 16 U.S.C.  1531 (2000).
    \5\ Rules and Regulations. Endangered and Threatened Species: Final 
Listing Determination for Elkhorn Coral and Staghorn Coral, 71 Fed. 
Reg. 26,852 (May 9, 2006).
    \6\ See Mark Eakin, Management During Mass Coral Bleaching Events: 
Wider Caribbean Case Study, International Tropical Marine Ecosystem 
Management Symposium (October 16-20, 2006); see also National Park 
Service, Coral Bleaching and Disease Deliver ``One-Two Punch'' to Coral 
Reefs in the U.S. Virgin Islands (October 2006), available at http://
www.nature.nps.gov/water/Marine/CRTF_Fact_
Sheet1-1a.pdf (last visited Jan. 21, 2007) [hereinafter NPS].
    \7\ Kevin E.Trenberth and Dennis J. Shea, Atlantic Hurricanes & 
Natural Variability in 2005, 33 Geophysical Research Letters, June 27, 
2006, at 1; see generally Emanuel, supra note 2.
    \8\ NPS, supra note 6.
    \9\ Trenberth & Shea, supra note 7.
    \10\ Endangered and Threatened Wildlife and Plants; 12-Month 
Petition Finding and Proposed Rule to List the Polar Bear (Ursus 
maritimus) as Threatened Throughout its Range, 72 Fed. Reg. 1064 (Jan. 
7, 2007).
    \11\ See generally U.S. Fish and Wildlife Service, Southeast Region 
Workforce Management Plan, available at http://www.fws.gov/southeast/
workforce/images/WorkforcePlan.pdf (last visited Feb. 13, 2007).
    \12\ J.R. Malcolm et al., Global Warming and Extinctions of Endemic 
Species From Biodiversity Hotspots, 20 Conservation Biology 538, at 
538-548 (2006).
    \13\ See generally C.R. Pyke, & R.S. Pulwarty, Elements of 
Effective Decision Support for Water Resource Management Under a 
Changing Climate, 8 Water Resources Impact 5 (Sept. 2006).
    \14\ 33 U.S.C.  1251 (2001).
    \15\ IPCC, supra note 3.
    \16\ U.S. EPA website, Biological Indicators of Watershed Health. 
http://www.epa.gov/bioindicators/html/indicator.html (last visited Feb. 
13, 2007).
    \17\ See generally Stephen R. Carpenter et al., Global Change and 
Freshwater Ecosystems, 23 Ann. R. Of Ecology And Systematics 119 
(1992).
    \18\ B.G. Bierwagen and S. Julius, A Framework for Using 
Biocriteria as Indicators of Climate Change, Second Annual Meeting of 
the International Society for Environmental Bioindicators, April 24-26, 
2006.
    \19\ 42 U.S.C.  7651 (2003).
    \20\ 42 U.S.C.  7651 (2003).
    \21\ 42 U.S.C.  7651 (2003).

    Senator Cantwell. Thank you, Dr. Hansen.
    Dr. Kruse?

       STATEMENT OF GORDON H. KRUSE, Ph.D., PRESIDENT'S 
 PROFESSOR OF FISHERIES AND OCEANOGRAPHY, SCHOOL OF FISHERIES 
               AND OCEAN SCIENCES, UNIVERSITY OF 
                        ALASKA FAIRBANKS

    Dr. Kruse. Madam Chair and members of the Committee: It is 
my honor to testify to you this morning. My name is Gordon 
Kruse. I am the President's Professor of Fisheries at the 
School of Fisheries and Ocean Sciences, University of Alaska, 
Fairbanks.
    My objectives are to discuss potential mechanisms and 
effects of climate change on living marine resources in Alaska, 
future outlook for these resources, and implications for 
management and research needs. As just one measure of the value 
of marine ecosystems, in 2005 landings from Alaska totaled 5.7 
billion pounds, representing 59 percent of the total 9.6 
billion pounds landed in the United States.
    Because the Arctic has been warming much faster than the 
rest of the globe and this accelerated trend is projected to 
persist, studies on its effects in Alaska are critically time 
sensitive. A large body of scientific evidence implicates 
climate as being primarily responsible for many observed 
changes in marine ecosystems off Alaska. Three of the important 
interrelated scales of variability I will discuss today are 
inter-annual, decadal, and global warming.
    Regarding inter-annual or year to year variability, an 
important component is the El Nino, which occurs every 2 to 7 
years. In association with warm ocean temperatures, species 
more typical of tropical waters, such as ocean sunfish and 
Pacific white-sided dolphins, extend their distributions into 
Alaska. El Ninos appear to have become more intense in the 
latter half of the 20th century, possibly as a manifestation of 
global warming.
    Coincident with the very strong 1997-1998 El Nino, the 
first ever massive bloom of coccolithophores, which are very 
small, rather non-nutritious microscopic plants or 
phytoplankton, was observed in the eastern Bering Sea. The 
bloom was so massive that it was observed from space. Some 
seabird species experienced massive die-offs and others 
produced very few surviving offspring owing to feeding 
problems.
    Much decadal-scale variability occurs in the form of 
climate regime shifts every 10 to 30 years. For instance, in 
the northeast Pacific Ocean temperatures were warm in the mid-
1920s to the mid-1940s, cool in the mid-1940s to the late 
1970s, and warm since then. Marine ecosystem changes since the 
regime shift of the 1970s include declines in forage fishes, 
crabs and shrimps, and increases in salmon and groundfish, 
presumably as a result of changes in nutrients supporting 
phytoplankton production.
    Global warming will have differential thermal effects on 
the species distributions. In the Bering Sea, adult red king 
crab and snow crab have shifted to the north since the late 
1960s, likely due to an aversion to increasing bottom 
temperature. It appears that the planktonic larvae of both 
species are now being carried by ocean currents too far north, 
beyond preferred nursery habitats. At the same time, warmer 
temperatures have allowed predators of young crabs, such as 
Pacific cod and rocksole, to shift their distributions to the 
north. For these reasons, Bering Sea crabs may fare poorly 
under continued global warming.
    One species that seems to have particularly benefited 
greatly from conditions since the late 1970s is arrowtooth 
flounder, a species at its highest record levels of abundance. 
This species is a voracious predator that consumes large 
amounts of pollock, cod, and other commercially valuable 
species. Unfortunately, the flesh of the arrowtooth flounder 
has low market value owing to enzymes that degrade flesh 
quality.
    The Bering Sea is being restructured by ongoing warming 
temperatures and loss of sea ice. In years of extensive sea 
ice, an ice edge phytoplankton bloom occurs in April, which 
falls to the sea floor and supports bottom or benthic species 
like crabs and clams. In years of little sea ice, the spring 
bloom occurs in May or June and it stays in the upper layers, 
where it benefits water column or pelagic species, like 
pollock. A sharp decline in sea ice has favored pelagic over 
benthic species in the southeast Bering Sea since the late 
1970s.
    Recent studies are indicating that similar changes are now 
beginning to occur in the northern Bering Sea. In these 
northern areas, loss of benthic production will adversely 
affect walruses and spectacled eiders, which feed primarily on 
benthic clams or other bivalves.
    What about implications of global warming on fishery 
management? The North Pacific Fishery Management Council is 
considering management actions with respect to likely northward 
expansion of fish resources into the northern Bering Sea and 
Arctic Ocean. At its June 2007 meeting, the North Pacific 
Fishery Management Council is considering action that may ban 
bottom fishing in the northern Bering Sea except for the 
conduct of experiments to study fishing effects.
    Over the long-term, the Council may develop an Arctic 
Fishery Management plan, but these efforts are severely 
constrained by lack of information on marine fish and 
invertebrate resources in the region.
    In general, global warming will cause greater uncertainty 
about the productivity of fish stocks. Under science-based 
management, increasing uncertainty translates into more 
precaution, which will likely mean reduced fish harvests in 
Alaska.
    I have recommended five research needs to improve our 
ability to forecast and address likely future marine ecosystem 
changes in Alaska with regard to global warming. First, it is 
critical at this time to establish baseline assessments of 
marine ecosystems of the northern Bering Sea and Arctic Ocean.
    Second, establishment of Integrated Ocean Observing Systems 
is essential to monitoring and understanding the effects of 
global climate change on these marine ecosystems. Third, it is 
important to invest in studies on the biology, life history, 
and ecology of very poorly studied species in the northern 
regions. Fourth, it is important to establish linkages between 
climate models and marine ecosystem and fishery models, so that 
the effects of global warming can be better quantified. And 
finally, climate change coupled to the likely increases in 
marine transportation, development of other human uses of 
marine ecosystems off Alaska, heighten the need for further 
development of an ecosystem approach to management.
    Thank you, Madam Chair, for the opportunity to speak to you 
today and I would be pleased to answer any questions.
    [The prepared statement of Dr. Kruse follows:]

  Prepared Statement Gordon H. Kruse, Ph.D., President's Professor of 
  Fisheries and Oceanography, School of Fisheries and Ocean Sciences, 
                     University of Alaska Fairbanks
Introduction
    Madam Chair and members of the Committee, it is my honor to testify 
to you this morning. My name is Gordon Kruse. Since 2001, I have been 
the President's Professor of Fisheries and Oceanography at the School 
of Fisheries and Ocean Sciences, University of Alaska Fairbanks. Prior 
to my current position, I directed the marine fisheries research 
program for the Alaska Department of Fish and Game for 16 years, where 
I was the lead Science Advisor to the State of Alaska on state and 
Federal marine fishery management. I have been a member of the 
Scientific and Statistical Committee (SSC) of the North Pacific Fishery 
Management Council (NPFMC's) for 7 years, including the two most recent 
years as chair (2005-2006) and the two prior years as vice-chair (2003-
2004). I served an additional 11 years as a member of the NPFMC's Crab 
Plan Team and Scallop Plan Team and co-authored the original crab and 
scallop Fishery Management Plans. I am the current chair of the Fishery 
Science Committee for the North Pacific Marine Science Organization 
(PICES), an international marine science organization involving China, 
Japan, South Korea, Russia, Canada and the U.S.
Objectives of Testimony
    My objectives are to discuss: (1) potential mechanisms and effects 
of climate change on living marine resources in Alaska, (2) future 
outlook for these resources and implications for management under 
continued global warming, and (3) uncertainties associated with gaps in 
our understanding that require further research.
Importance of Marine Ecosystems Off the Coast of Alaska
    Alaska is unique in that it is bounded by three large marine 
ecosystems: the North Pacific Ocean, Bering Sea, and Arctic Ocean 
(including the Beaufort and Chukchi Seas). These are some of the 
world's most productive ecosystems, supporting thousands of marine 
mammals, millions of seabirds, and trillions of fish and shellfish 
belonging to hundreds of species.
    These Arctic and subarctic oceans provide priceless ecosystem 
services, including human use. Since before recorded history, Native 
Alaskans have depended on the bounty of these ecosystems for their very 
existence. Still today, many of these communities remain as 
subsistence-based (barter) economies, and their harvests of fish, 
shellfish, mammals and other resources (e.g., bird eggs, kelp) provide 
the majority of their diets.
    These ecosystems support extremely valuable commercial fisheries 
that provide both U.S. food security and foreign exports that 
contribute toward the national balance of trade. More than half of the 
total U.S. fishery landings come from the waters off Alaska. In 2005, 
landings from Alaska totaled 5.7 billion pounds, representing 59 
percent of the total 9.6 billion pounds landed in the U.S. (NMFS 2007). 
While important fisheries occur in the Gulf of Alaska and Aleutian 
Islands, most of this catch is taken from the eastern Bering Sea, owing 
to its broad, highly productive continental shelf. In 2005, the 
Nation's top seafood port was again Dutch Harbor-Unalaska, accounting 
for 888 million pounds of landings worth $283 million exvessel (before 
value-added processing). Moreover, seven of the Nation's top 20 seafood 
ports are located in Alaska. The Bering Sea supports the world's 
largest fishery (walleye pollock), largest flatfish fishery (yellowfin 
sole), and largest salmon (sockeye) fishery. Other valuable commercial 
fisheries target a diversity of species of crabs, rockfishes, flatfish 
(flounders and soles), cod, halibut, herring, and other fish and 
invertebrates. These same waters provide world-class recreational 
fishing opportunities for non-resident visitors and Alaskan residents 
alike for salmon, halibut, rockfish and other species.
Resource Sustainability Versus Variability
    In their report to the nation, the Pew Oceans Commission (2003) 
noted that Alaska's fisheries were ``arguably the best managed 
fisheries in the country. With rare exception, the managers have a 
record of not exceeding acceptable catch limits set by scientists. In 
addition, the North Pacific Fishery Management Council and Alaska Board 
of Fisheries have done more to control bycatch and protect habitat from 
fishing gear than any other region of the Nation.'' The sustainability 
of groundfish, salmon and other fishery resources in Alaska is tied 
directly to conservative, science-based fishery management.
    Nonetheless, there are clear historical cases of overharvest and 
resultant collapse of living marine resources, even in Alaska--examples 
include the Steller's sea cow (hunted to extinction in 1768), northern 
fur seal (1700s-early 1800s and again in the late 1800s-early 2000s), 
great whales (mid 1800s-mid 2000s), sea otters (mid 1700s-early 2000s), 
yellowfin sole (1960s), and Pacific ocean perch (1960s-1970s). Causes 
of recent declines in Steller sea lions, northern fur seals, shrimp, 
and king, Tanner and snow crabs are much less clear. Although human 
effects have been implicated in many of these recent examples and 
undoubtedly humans have contributed to varying degrees, a large body of 
scientific evidence has emerged in support of climate change as being 
primarily responsible for major shifts in the marine ecosystems off 
Alaska. Environmental variability affecting marine ecosystems occurs 
over a wide range of time scales; the scales most relevant to most 
marine animal populations are seasonal to decadal and longer. Owing to 
our rather short history (few decades) of research and monitoring of 
marine organisms in Alaska, much of our outlook for impacts of global 
warming on marine ecosystems is based upon our understanding of the 
mechanisms and effects operating on shorter time scales, as summarized 
below.
Effects of Seasonal Climate Variability on Living Marine Resources in 
        Alaska
    Seasonal climate variability is vital to the productivity of 
temperate, subarctic and Arctic marine ecosystems. In these regions, 
there is a seasonal ``battle'' between winds that mix deep, nutrient-
rich waters into the photic zone and solar heating that warms the upper 
layers of the ocean, causing thermal stratification that retains 
microscopic plants (phytoplankton) in the upper layers of the ocean 
where they can grow under sufficient light penetration and nutrient 
concentrations.
    In the spring, when solar heating wins the battle, an intense bloom 
of large phytoplankton occurs, providing large amounts of food to 
microscopic animals (zooplankton) that, in turn, bloom in abundance. 
This sequential burst in abundance of phyto- and zooplankton serves as 
food to higher trophic levels, including the planktonic early life 
stages (larvae) of many commercially important species of fish and 
shellfish, as well as adults of some species of planktivorous marine 
mammals (e.g., humpback whales) and seabirds (e.g., crested auklet). In 
other words, this spring bloom fuels the engine that supports much of 
the productivity of marine ecosystems in Alaska. The timing of herring 
spawning, hatching of red king crab larvae, and outmigration of salmon 
smolts are tied to this remarkable annual event. As summer progresses, 
nutrients in the warm upper layers of the ocean become depleted, 
overall production tends to decline, and other species of small 
phytoplankton adapted to low-nutrient conditions become prevalent.
    In the fall, as winds strengthen and solar heating diminishes, the 
water column mixes, stability breaks down and a smaller fall bloom may 
occur. However, phytoplankton are mixed to deeper waters where light 
levels are too low to sustain net growth and the engine that fuels the 
marine ecosystem slows down. In winter, productivity is low, but, even 
at this time of year some species (e.g., some flatfish) have adapted 
strategies for optimum survival as winter spawners. In the following 
spring, the cycle is repeated again.
    Each species has evolved unique life history strategies to be 
successful in these seasonally dynamic marine ecosystems. For many 
species of marine fish and invertebrates, their success depends upon 
the synchrony in time and space of their early life stages (eggs and 
larvae) with abundances of suitable food, the abundance (or lack 
thereof) of predators, and ocean currents that carry them (advection) 
to nursery areas most amenable to their survival. Likewise, the success 
of seabird and marine mammal populations depends largely upon the 
ability of adults to secure adequate prey while feeding their young on 
rookeries.
Effects of Interannual and Decadal Climate Variability on Living Marine 
        Resources in Alaska
El Nino
    Although an understanding of seasonal variability in environmental 
variables is important toward understanding the strategies by which 
species thrive within marine ecosystems, it is the year-to-year 
(interannual) variability in climate and ocean processes that 
determines how animal populations change over time. One important 
component of interannual variability that occurs every 2-7 years is El 
Nino/La Nina, an oscillation of a coupled ocean-atmosphere system in 
the tropical Pacific having important consequences for weather in the 
North Pacific and around the globe. Prominent features of an El Nino 
include the relaxation of the trade winds and a warming of sea surface 
temperature in the equatorial eastern Pacific, extending along the U.S. 
west coast into Alaskan waters. Species more typical of subtropical and 
tropical waters extend their distributions into Alaska during El Nino 
events. For instance, during the 1997-1998 El Nino, albacore tuna were 
caught off Kodiak Island and ocean sunfish were observed in the 
northern Gulf of Alaska (Kruse 1998). Global surface mean temperature 
anomalies provided by NOAA's National Climate Data Center suggest that 
El Ninos became more intense and more frequent in the latter half of 
the 20th century, quite possibly as a manifestation of global warming. 
Thus, range extensions and first-time sightings of southern species 
have become more common in recent years.
    Beyond the curiosity of such unusual sightings, more far-reaching 
marine ecosystem changes can be associated with El Nino events. 
Coincident with the 1997-1998 El Nino, salmon run failures occurred in 
western Alaskan river systems imposing severe economic and social 
hardships in some western Alaskan communities (Kruse 1998). A Federal 
disaster was declared by the U.S. President. Also, in 1997, the first-
ever massive bloom of coccolithophores (a non-nutritious microscopic 
phytoplankton covered with calcium carbonate platelets) was observed in 
the eastern Bering Sea. The bloom was so dense and expansive, that it 
was easily observed by satellites orbiting the Earth. A massive die-off 
of short-tailed shearwaters was associated with reduced availability of 
their preferred prey (euphausiids). Murres, a dive-feeding seabird, 
produced fewer offspring, likely because dense coccolithophore 
concentrations obscured their vision and ability to feed. It is 
important to recognize that these ecosystem effects were likely the 
product of an unusual combination of El Nino, decadal climate 
variability, global warming, and other atypical regional conditions. 
However, this suite of climatic conditions set the stage for repeated 
coccolithophore blooms in the eastern Bering Sea for half a dozen years 
after this initial event.
Decadal Climate Regime Shifts
    Much marine ecosystem research in Alaska since the 1980s has 
documented decadal climate variability patterns that have led to regime 
shifts every 10-30 years. The Pacific Decadal Oscillation (PDO) is one 
index of such shifts, based on warm-cold patterns of sea surface 
temperature in the northern North Pacific Ocean. Some have likened the 
warm phase of the PDO to an extended El Nino situation. For instance, 
ocean temperatures in the northeast Pacific were typically warm in the 
mid-1920s to mid-1940s, cool during the mid 1940s-late 1970s, and warm 
since then. The opposite pattern was experienced in the northwestern 
Pacific.
    The regime shift of the late 1970s has been particularly well 
studied. Since the late 1970s, Alaskan waters have experienced more 
frequent winter storms associated with an intensified Aleutian Low 
Pressure System, increased freshwater discharge into the Gulf of 
Alaska, a stronger Alaska Coastal Current (which flows in a counter-
clockwise fashion around the gulf), and warmer ocean temperatures. 
These changes appeared to have altered the flux of nutrients, leading 
to a marked increase in the biomass of zooplankton in the Gulf of 
Alaska. Other major ecosystem changes associated with this regime shift 
include a decline in forage fishes, crabs, and shrimps and increases in 
the abundances of salmon and groundfish (Anderson and Piatt 1999). Some 
research supports the hypothesis that declines in a number of 
populations of marine mammals and seabirds are related to observed 
shifts in marine food webs (e.g., decline in forage fish) in Alaska. 
However, as with any complex ecosystem with limited monitoring, the 
evidence is less than conclusive.
    Decadal-scale variability in the extent of sea ice formation has 
had profound effects on the Bering Sea marine ecosystem. Sea ice forms 
and melts seasonally spreading from the northern to southern Bering Sea 
shelf waters. Timing of the spring bloom depends heavily on ice 
formation and melt. In years of extensive ice coverage, the ice thaws 
more slowly and melt water stratifies the upper water column with 
buoyant, low salinity water. If this stratification occurs sufficiently 
late (e.g., April), then sunlight is adequate at that time of year to 
cause an early spring bloom near the ice edge. However, there is a 
dearth of zooplankton in this cold melt water, so much of the 
phytoplankton sinks ungrazed to the seafloor where it benefits bottom-
dwelling (benthic) species, such as clams, crabs and other 
invertebrates. On the other hand, in years when ice is thin and less 
extensive, it melts in February or March; the lesser amount of 
freshwater is inadequate to stratify the water column and sunlight is 
too weak at that time of year to support a plankton bloom. In such 
years, the spring bloom is delayed until May or June after the sun has 
had sufficient time to heat a stratified layer of warmer water. Warmer 
ocean temperatures at this time of year support growth of the 
zooplankton community and much of the phytoplankton production is 
grazed by water column (pelagic) species, such as walleye pollock.
    Sea ice in the southeast Bering Sea has declined markedly from 
covering 6-7 months in the late 1970s to spanning just 3-4 months each 
winter since the 1990s. As the ice-edge bloom may account for a large 
fraction of the total annual primary production in the eastern Bering 
Sea, there is considerable concern that declines in productivity have 
occurred with reductions in sea ice since the late 1970s. Although 
long-term records of phytoplankton are lacking, declines in summer 
zooplankton have been clearly documented in the eastern Bering Sea by 
the Japanese research vessel OSHORO MARU since at least 1990.
Effects of Global Warming on Living Marine Resources in Alaska
Terrestrial Impacts of Global Warming in Alaska
    Increases in global air and sea temperatures have been clearly 
documented since the 1800s. On land, observed changes in Alaska are 
dramatic and well known, including retreat of nearly all glaciers, 
melting of permafrost and associated structural damage to buildings and 
roads, and increased insect outbreaks (e.g., spruce bark beetle) in 
coniferous forests and an associated increase in frequency of forest 
fires. Along the coast of western Alaska, higher sea levels and lack of 
shore-fast sea ice in winter has led to extensive coastal erosion 
during storms, prompting the imminent costly relocation of dozens of 
Native villages.
Climate and Oceanographic Changes With Global Warming
    A composite land-ocean index of global temperature provided by NASA 
shows that temperature changes since the 1880s reflect the combined 
influences of the two major frequencies already discussed--El Ninos 
(every 2-7 years) and decadal variability (10-30 years)--plus a long-
term increase in temperature associated with global warming (*100 
years). Because our history of research and monitoring of marine 
organisms is very short (decades) relative to the century-long time 
scale associated with global warming, the outlook for living marine 
resources under continued global warming is based largely upon our 
rather limited understanding of recent variability and mechanisms 
associated with those observed changes. The outlook for these marine 
resources also depends upon the accuracy of future projected changes in 
temperature, precipitation and winds from climate forecast models.
    Based on the working group of the Intergovernmental Panel on 
Climate Change in 2007, the near-term projection is for an average 
global increase of 0.2+ C per decade over the next two decades. The 
Arctic has been warming twice as fast as the rest of the globe since 
the mid 1800s, and this accelerated trend is projected to persist for 
the higher latitudes into the foreseeable future. Based on these IPCC 
models, increased precipitation is also very likely in the higher 
latitudes. High-latitude changes in wind patterns are also projected, 
but specific details in the projections concerning storm frequency and 
intensity are somewhat less certain.
Shifts in Species Distribution and Abundance
    Each species has its own preferred optimum temperatures within a 
wider range of temperatures suitable for its growth and survival. With 
warming ocean temperatures, species at the southern end of their 
distributions (e.g., snow crabs in the southeastern Bering Sea) are 
expected to contract, whereas those at the northern ends of their 
distributions (e.g., Pacific hake in southeastern Alaska) are expected 
to expand northward.
    Increased temperatures may benefit some species and disfavor 
others. With the warming experienced in the last two decades, in-river 
temperatures in British Columbia have exceeded 15+ C, which causes 
stress in sockeye salmon, increasing susceptibility to disease and 
impairing reproduction. Studies have shown that mortality is positively 
related to temperature and river flow in Fraser River sockeye salmon. 
Turning back to the poor salmon runs in western Alaska in 1997-1998 
mentioned earlier, among other potential causes, anecdotal reports 
found a high incidence of a parasite, called Ichthyophonus. Infected 
fish did not dry properly when smoked (a common means of preservation 
by subsistence users) and had white spots on internal organs and 
muscle. Follow-up studies found that 25-30 percent of adult chinook 
salmon returning to the Yukon River in 1999-2002 were infected (Kocan 
et al., 2003). Many of the diseased fish appear to have died before 
spawning. The spread and pathogenicity of this parasite is correlated 
with Yukon River water temperature in June, which increased from 11+ C 
to 15+ C over 1975 to 2002 at Emmonak (river mile 24). Such examples of 
adverse impacts of increasing temperatures on salmon may become more 
common in Alaska with continued global warming.
    Warming temperatures are expected to increase the northward 
migration of piscivorous predators into the future. Pacific mackerel 
and jack mackerel, species common to the coast of California, have 
extended their distributions into British Columbia in recent warm 
years. The productivity of Pacific mackerel populations is favored 
during warm years off California. Mackerel compete with and prey on 
juvenile salmon; reduced survival of sockeye salmon on the west coast 
of Vancouver Island is correlated with the abundance and early arrival 
of Pacific mackerel in British Columbia. The impact of mackerel 
predation and competition with salmon is a concern for Alaska. Mackerel 
have already been encountered in Southeast Alaska by salmon troll 
fishermen.
    There are additional concerns about the northward extension of 
other predators, such as spiny dogfish in Alaska. A colleague from the 
University of Washington and I have an ongoing project to evaluate the 
evidence for an increase in dogfish abundance, as well as to evaluate 
the life history and productivity of dogfish and management 
implications in Alaska. Bycatch of dogfish is an increasing problem to 
fishermen, particularly in the salmon gillnet and halibut/sablefish 
longline fisheries in Alaska. On the one hand, dogfish bycatch causes 
gear damage (gillnet) and hook competition for more valuable species 
(sablefish and halibut), but, on the other hand, this species could 
provide new economic opportunities (dogfish supply the fish and chips 
industry in Europe). Determination of sustainable harvest levels is 
problematic for this abundant species that has a low rate of annual 
productivity associated with delayed maturity and low reproductive 
rate.
    In the Bering Sea, the centers of distribution of adult female red 
king crab and snow crab have shifted to the north since the late 1960s 
and early 1970s, likely due to increases in bottom temperature (Loher 
and Armstrong 2005, Orensanz et al., 2004, Zheng and Kruse 2006). The 
larval stages of both species are planktonic--subject to passive drift. 
Given the northward flow of prevailing ocean currents and the probable 
fixed location of juvenile nursery areas, the northward shift of 
females has most likely adversely affected the ability of these 
populations to supply young crabs to the southern end of their 
distribution in recent decades. At the same time, warming ocean 
temperatures have allowed predators of young crabs, such as Pacific 
cod, rock sole, and skates, to shift their distributions to the north. 
So, the young stages of crab not only have to deal with settlement into 
suboptimal habitats, but they have to navigate the gauntlet of 
increased predation by groundfish. These two mechanisms may be leading 
reasons why crabs have generally faired poorly since the late 1970s 
regime shift. For these same two reasons, crabs may continue to fair 
poorly under continued global warming. On the other hand, groundfishes 
like pollock and cod may continue to benefit.
    One species that seems to have benefited greatly from conditions 
since the late 1970s is the arrowtooth flounder, a species at its 
highest recorded levels of abundance and still increasing. This species 
is a voracious predator that consumes large amounts of pollock, cod, 
and other commercially valuable groundfish and shellfish. 
Unfortunately, the flesh of the arrowtooth flounder has low market 
value owing to enzymes that degrade the flesh quality. So, future warm 
ocean conditions may continue to result in a shift from commercially 
valuable species, like pollock and cod, to this species, which has low 
market value.
    Other predatory species that may increase in Alaska with continued 
global warming include seasonal predators, such as albacore tuna. This 
species would provide new economic opportunities in Alaska, perhaps to 
the detriment of salmon fisheries.
Restructuring of Ecosystems
    Earlier, I discussed the role of sea ice extent on funneling energy 
to the benthic ecosystem (early spring bloom) or the pelagic ecosystem 
(late spring bloom). Although the trend since the late 1970s has been 
toward a late spring bloom favoring pelagic species (such as pollock) 
in the southeastern Bering Sea, the spring bloom remains largely an 
ice-edge bloom in the northern Bering Sea, where the ecosystem remains 
benthic dominated (e.g., clams). This benthic production is essential 
for a number of charismatic species, such as walruses and spectacled 
eiders that feed on benthic clams and other bivalves. All, or nearly 
all, of the world's populations of spectacled eiders overwinter in a 
small area between St. Lawrence Island and St. Matthew Island in the 
eastern Bering Sea. In the past decade with an increase in air and 
ocean temperatures and a reduction in sea ice, there has been a 
reduction in benthic prey populations and a displacement of marine 
mammals (Grebmeier et al., 2006). With a commensurate increase in 
pelagic fishes, the northern Bering Sea is shifting from a benthic to a 
pelagic ecosystem, posing risks to benthic prey-dependent species of 
seabirds and marine mammals. This benthic to pelagic trend is expected 
to increase and expand northward with continued global warming.
    Loss of sea ice in the Bering Sea is likely to have major impacts 
on ice-dependent marine mammal species, such as ring seals and bearded 
seals. Ring seals excavate caves (lairs) under the ice in which they 
raise their young for protection from the weather and predators. Ring 
and bearded seals feed on a variety of invertebrates and fishes. Both 
seals are major components of the diet of polar bears. Polar bears also 
have the capacity to kill larger prey, such as walruses, a species with 
seasonal migrations also tied to the advance and retreat of sea ice. 
Therefore, it seems very likely that the loss of sea ice associated 
with global warming will have serious impacts on these ice-dependent 
marine mammals.
Potential for Invasive Species
    An additional area of concern under global warming is invasive 
species. With increasing ocean temperatures, cold thermal barriers to 
warm-water invasive species may become removed. One key species of 
concern is the European green crab, a species that is native to the 
North and Baltic Seas. Unintentionally introduced as an invasive 
species, the green crab has consumed up to 50 percent of manila clams 
in California, and it was blamed for the collapse of the soft-shell 
clam industry in Maine. This species has the potential to alter an 
ecosystem by competing with native fish and seabirds. Its recent 
arrival on the U.S. west coast and potential to expand northward with 
global warming causes concerns for Alaska with respect to our Dungeness 
crab fishery and aquaculture farms for oysters and clams.
Changes in Seasonal Production Cycle
    Increased temperatures may result in earlier stratification, 
perhaps advancing the timing of the spring bloom. In such case, the 
continued success of some species depends upon their ability to spawn 
earlier so that their early life history stages continue to match the 
spring bloom. Additionally, greater heat in the ocean may lead to 
prolonged summer-like conditions favorable to small phytoplankton that 
thrive in low nutrient conditions, including some phytoplankton species 
that produce toxins, such as paralytic shellfish poisoning. Food chains 
based on small phytoplankton (typical of summer) tend to be less 
productive than those based on large phytoplankton (typical of the 
spring bloom), because they require more steps of energy conversions 
along the food chain to support upper trophic level species, such as 
seabirds, marine mammals, and commercially important fish including cod 
and halibut. So far, this seasonal cycle outlook is based solely upon 
increased temperatures; other important considerations are the 
forecasted future changes in storm frequency and intensity. If greater 
storminess in the Gulf of Alaska and Bering Sea is associated with 
global warming, then the increased mixing could somewhat compensate for 
the tendency for increased stratification caused by warmer 
temperatures, perhaps resulting in little change in the timing of the 
spring bloom. However, in such case, given the temperature control of 
the rate of many physiological processes (including reproduction) of 
cold-blooded marine fish and invertebrates, a challenge for many 
species will be to maintain current spawning timing despite warming 
temperature conditions.
Ocean Acidification
    As greenhouse emissions continue to increase, the ocean soaks up 
more and more CO<INF>2</INF>, which when dissolved in water, becomes 
carbonic acid. Such increases lower the pH of seawater, causing a 
critical concern for species with calcium carbonate skeletons. 
Preliminary results of studies in Alaska indicate that declining 
seawater saturation of calcium carbonate induced by ocean acidification 
may make it more difficult for larval blue king crabs to harden their 
shells (J. Short, NMFS, Auke Bay Laboratory, pers. comm.). Juvenile 
king crabs had substantially increased mortality, slower growth, and 
slightly less calcified shells when exposed to undersaturated seawater 
conditions projected for their rearing habitat within the coming 
century in the North Pacific Ocean. These preliminary results indicate 
that continued increasing carbonation of the ocean surface layer as a 
result of increasing atmospheric CO<INF>2</INF> may directly affect 
recruitment of commercially important shellfish. Other witnesses on 
this panel have outstanding expertise on ocean acidification and will 
speak in much greater detail on this topic.
Management and Economic Implications
    One need not look further than the Bering Sea pollock fishery in 
2006 for an example of the sort of management implications expected 
under global warming. During the B (fall) fishing season, pollock were 
farther north and west than normal. Diesel fuel prices were high. The 
at-sea (factory trawler fleet) sector has the ability to conduct 7-10 
day fishing trips and a byproduct of their fish harvests is fish oil, 
which they burn in their boilers and generators. On the other hand, 
smaller shore-based vessels only have capacity for 2-4 day trips and 
they cannot produce fish oil. The northward shift of pollock, typical 
of expectations under global warming, had relatively small impact on 
the at-sea sector, but had significant adverse impacts on the shore-
based fleet, owing to reduced access to the resource and increased 
operational costs. Under northward shifts in fish resources, the shore-
based fleet will need to shift to a mothership-type fishery or will 
need to relocate plants in new northern ports at greater investment of 
capital.
    Over the near term, the NPFMC is currently considering management 
actions with respect to the potential northward expansion of pelagic 
and other fishery resources into the northern Bering Sea and Arctic 
Ocean. One major problem is that current surveys do not extend into the 
northern Bering Sea, much less the Arctic, so allowance of fisheries to 
follow the fish north would be conducted under increased uncertainty, 
perhaps at greater risk to previously unexploited benthic resources, 
which in turn could place sensitive populations of marine mammals 
(e.g., walrus) and seabirds (e.g., spectacled eider) as risk. At its 
June 2007 meeting, the NPFMC is scheduled to take action on a proposal 
to define and mitigate essential fish habitat in the eastern Bering Sea 
including an SSC proposal to allow fishing in the northern Bering Sea 
only under an experimentally designed study to test fishing impacts 
upon which future decisions can be based. Over the longer term, the 
NPFMC is considering management options for the Arctic Ocean, perhaps 
under a new Arctic Fishery Management Plan. Management options for the 
Arctic are constrained by a serious lack of information on the marine 
fish and invertebrate resources in this region. The reliance of species 
of marine mammals and seabirds, as well as Native communities, on the 
living marine resources of these northern areas, heightens the gravity 
of management decisions for the Arctic Ocean.
    Long-term forecasts of the implications of global warming and 
fisheries management in Alaska are highly speculative, given present 
levels of understanding. Just as there was a reorganization of marine 
ecosystems after the regime shift of the late 1970s, marine ecosystems 
off Alaska might be expected to reorganize again, perhaps to a new 
unobserved state, in response to a climate regime shift associated with 
continued global warming. If so, then a commensurate reorganization of 
the fishing industry is to be expected. Uncertainty increases as 
conditions (e.g., temperature, percent sea ice cover) move outside the 
range of historical observations. Under science-based management, 
increasing uncertainty typically translates into more precaution. Thus, 
more precautionary management under greater uncertainty, coupled to the 
increasing use of ecosystem-based fisheries management, will likely 
result in more conservative fish harvests in Alaska in the future.
Data Gaps and Research Needs
    Predictions of future changes of marine ecosystems for the Gulf of 
Alaska, Aleutian Islands, and eastern Bering Sea are uncertain, partly 
owing to gaps in our understanding of mechanisms affecting the dynamics 
of living marine resources and partly due to uncertainties in climate 
forecast models at the level of detail necessary for the Alaska region. 
A combination of improved monitoring, process-oriented studies, 
modeling, and policy development are recommended to improve our ability 
to forecast and address likely future marine ecosystem changes in 
Alaska:

  <bullet> Arctic baselines--very few data are available on the 
        abundance, distribution, and life history of marine species in 
        the northern Bering Sea and Arctic. It is critical at this time 
        to establish baseline understanding of community structure and 
        function before the Arctic region is perturbed by human impacts 
        and climate change.

  <bullet> Integrated Ocean Observing Systems--establishment of routine 
        observing systems for physical and biological features of 
        marine ecosystems off Alaska is essential to monitoring the 
        effects of global climate change.

  <bullet> Studies of physiology and life history. Models only go so 
        far; the biology and life history of many species off Alaska 
        are poorly known, including functional relationships between 
        their growth and survival and environmental conditions. In 
        order to understand the effects of global warming and human 
        effects on these populations and associated ecosystem 
        consequences, it is essential to invest in studies of basic 
        biology, life history, and physiology of poorly studied 
        northern marine species. Physiological studies can reveal a 
        great deal about the impacts of increasing temperature on the 
        scope for growth and survival of northern species.

  <bullet> Coupled climate-ecosystem and climate-fisheries forecasting 
        models. It is imperative to establish explicit linkages between 
        climate forecast models and regional ecosystem and fishery 
        models so that outlooks for changes in marine ecosystems and 
        fisheries can be made more quantitative and less qualitative. 
        In June 2007, PICES will convene a workshop on linking climate 
        and fisheries forecasts, but this is just a very initial step 
        in a process that will require substantial efforts.

  <bullet> Ecosystem approach to management. Climate change is just one 
        of a suite of both human and naturally occurring factors that 
        need to be considered in the management of living marine 
        resources. Effective management of marine resources off Alaska 
        will become increasingly complex, given the uses of these 
        resources by coastal Native communities and higher trophic 
        level species (e.g., birds and mammals). Potential for 
        increased marine transportation and oil and gas exploration and 
        development further heighten the need for an ecosystem approach 
        to management.
    Thank you, Madam Chair, for the opportunity to speak to you and 
your committee today. I would be pleased to answer any questions you or 
other committee members may have.
References
    Anderson, P.J., and J.F. Piatt. 1999. Community reorganization in 
the Gulf of Alaska following ocean climate regime shift. Marine Ecology 
Progress Series 189: 117-123.
    Grebmeier, J.M., J.E. Overland, S.E. Moore, E.V. Farley, E.C. 
Carmack, L.W. Cooper, K.E. Frey, J.H. Helle, F.A. McLaughlin, and S.L. 
McNutt. 2006. A major ecosystem shift in the northern Bering Sea. 
Science 311: 1461-1464.
    Kocan, R., P. Hershberger, and J. Winton. 2003. Effects of 
Ichthyophonus on survival and reproductive success of Yukon River 
chinook salmon. U.S. Fish and Wildlife Service, Office of Subsistence 
Management, Final Report 01-200.
    Kruse, G.H. 1998. Salmon run failures in 1997-1998: A link to 
anomalous ocean conditions? Alaska Fishery Research Bulletin 5(1): 55-
63.
    Loher, T., and D.A. Armstrong. 2005. Historical changes in the 
abundance and distribution of ovigerous red king crabs (Paralithodes 
camtschaticus) in Bristol Bay (Alaska), and potential relationship with 
bottom temperature. Fisheries Oceanography 14: 292-306.
    NMFS (National Marine Fisheries Service). 2007. Fisheries of the 
United States, 2005. National Marine Fisheries Service, Current Fishery 
Statistics 2005, Silver Spring, MD.
    Orensanz, J., B. Ernst, D.A. Armstrong, P. Stabeno, and P. 
Livingston. 2004. Contraction of the geographic range of distribution 
of snow crab (Chionoecetes opilio) in the eastern Bering Sea: an 
environmental ratchet? CalCOFI Report 45: 65-79.
    Pew Oceans Commission. 2003. America's living oceans: charting a 
course for sea change. A report to the nation: recommendations for a 
new ocean policy. Arlington, VA.
    Zheng, J., and G.H. Kruse. 2006. Recruitment variation of eastern 
Bering Sea crabs: climate forcing or top-down effects? Progress in 
Oceanography 68: 184-204.

    Senator Cantwell. Thank you, Dr. Kruse.
    Admiral Watkins, welcome. Let me thank you again for your 
leadership on the U.S. Commission on Ocean Policy, something 
this Committee has had a lot of involvement with, starting with 
Senator Hollings' bill on the Oceans Policy Act, and my 
colleagues Senator Stevens and Senator Inouye and many others 
have had much involvement in this. We are glad you are back 
before the Committee.

         STATEMENT OF JAMES D. WATKINS, ADMIRAL (RET.),

     U.S. NAVY; CHAIRMAN, U.S. COMMISSION ON OCEAN POLICY;

          CO-CHAIR, JOINT OCEAN COMMISSION INITIATIVE

    Admiral Watkins. Thank you very much, Madam Chair and 
distinguished members of the Subcommittee, for inviting me to 
participate in today's hearing. I submitted a much longer 
statement for the record that I hope will be included therein.
    I appear before you today representing the interests of the 
U.S. Commission on Ocean Policy, as well as the Joint Ocean 
Commission Initiative, which I co-chair with Leon Panetta. As 
you know, he was Chair of the Pew Ocean Commission, a 
privately-funded commission. Because we were not doing very 
much in Washington toward establishing a National Ocean 
Commission Pew decided to go ahead anyway, which I think scared 
the Congress and they passed the Ocean Policy Act of 2000, 
which led to our commission.
    I want to thank you, particularly the Senate, for the work 
that you have done to bring national visibility to the oceans.
    While today's hearing is focused primarily on the issue of 
increasing acidification of the oceans and the impact on living 
marine resources, I appreciate the opportunity to come and 
speak to the broader issue of the role oceans play in climate 
change and the need to pursue strategies, how to mitigate and 
adapt to these changes.
    As public awareness of climate change and its potential 
economic and environmental consequences has increased, so has 
the level of urgency to take action. Unfortunately, few people 
fully appreciate the fundamental role oceans play in governing 
climate through their immense capacity to store and distribute 
heat and their part in the carbon cycle. I have never seen one 
article on climate change that ever mentions the oceans and I 
think it is a tragedy. They are the first victims and they are 
also the hope for mankind to come out of this and to adapt to 
it.
    We have global ocean circulation and heat flux models that 
clearly indicate major changes are under way. Yet we still lack 
a clear understanding of the underlying dynamics of these 
processes and are even less knowledgeable about activities 
occurring along the highly dynamic coastal margins, where 
ecological and economic activities are of greatest importance 
to humans and many of the impacts of climate change, such as 
sea level rise and coastal storms, will be directly felt.
    Clearly, a more coherent strategy is needed, and a core 
element of such a strategy must include increased attention to 
the role of the oceans and impacts on ocean resources. Let me 
proceed by focusing my remarks on three key points that I hope 
my written statement communicates.
    Congressional leadership. First, our oceans, coasts, and 
Great Lakes need a voice and strong leadership and we are 
counting on the members of this Committee to help fill this 
role. The ocean community is in the process of a major 
organizational transition, moving away from an outdated, highly 
structured, institutional approach toward an integrated process 
that more closely resembles the function of natural systems. We 
call that ecosystem-based management.
    This transition is necessary in order to respond to the 
host of problems impacting the ecological health and economic 
viability of the oceans. These problems range from impacts 
associated with climate change, such as acidification, sea 
level rise, more intense coastal storms, to degradation issues 
such as water pollution, habitat loss, overfishing, and 
invasive species.
    The problems facing the oceans are too large and too varied 
to continue the current piecemeal approach to management and 
science. It will take leadership and vision from Members of 
Congress to lay the foundation for a transition to ecosystem-
based management. It will be difficult and require some painful 
decisions, but it is incumbent upon you to recognize the need 
for reform and to move the process forward, and today's hearing 
hopefully is a major step toward this objective.
    Governance reform. My second point builds squarely on the 
concerns raised in my first point. Governance problems in the 
oceans community are severely limiting the oceans community's 
capacity to provide the scientific information and management 
options needed by Congress to make critical policy decisions. 
Given the oceans' fundamental role in climate change, this 
weakness in the ocean community is impacting its capacity to 
make meaningful contributions toward the effort to understand 
and address climate change.
    We need a new governance regime within the Federal 
Government that moves away from the stove-piped, command and 
control organization where the budget process often discourages 
inter-agency cooperation. The Joint Initiative has made ocean 
governance reform one of its highest priorities and the urgency 
of this issue has only escalated, given the need to address 
ocean-related science and management demands associated with 
climate change.
    We must focus on improving our capacity to more accurately 
assess the processes influencing climate change and place 
greater attention on designing and implementing a comprehensive 
strategy that balances resources across the spectrum of 
scientific disciplines, that is physical, chemical, and 
biological, and sectors, that is research, monitoring, and 
modeling, as well as expand support for translating this data 
into information that will allow you, Congress, to establish 
policies aimed at meeting the goal of improving the resiliency 
of the coastal communities and ecosystem.
    My final point is straightforward: The time to act is now. 
Leon and I are committed to pursuing the implementation of the 
two Commissions' recommendations through establishment of the 
Joint Initiative because we feel strongly that a failure to 
respond to problems facing our oceans and coasts now will 
result in irreversible damage to our economy and environment. 
The urgency of the need for action is further highlighted by 
growing concern over impacts associated with climate change and 
the ocean's role in the process.
    A much more comprehensive and robust science enterprise, 
one that includes a better understanding of the ocean's role in 
climate change, is required to more accurately predict the rate 
and implications of change at the global through local level, 
as well as to enable a more thorough evaluation of options for 
mitigating and accommodating this change.
    One of the first steps in the process of strengthening the 
science enterprise should be a commitment to building a 
comprehensive environmental monitoring system. Clearly, an 
integrated ocean observing system such as the one recommended 
in Senate 950, which is cosponsored by many members of this 
Subcommittee, should be a key element of such a system.
    Yet progress toward this goal is limited and appears to be 
moving backward. A recent NRC study out of the National 
Academies found that remote sensing satellite programs of NASA 
are at serious risk due to a $500 million decrease in funding 
for its Earth Science program and that the next generation of 
satellites on the drawing board are generally less capable than 
the current, rapidly diminishing system.
    This situation must be addressed and a comprehensive 
monitoring system that includes support for data management and 
analysis and modeling must be the core of a national strategy.
    I will conclude by noting that the recent elevation of 
concerns surrounding climate change and its economic and 
environmental implications validate similar concerns voiced by 
the oceans community in the release of the U.S. Commission on 
Ocean Policy and Pew Ocean Commission reports. At the heart of 
the matter is the need for a more robust science enterprise 
capable of advancing our understanding of the processes that 
drive our planet and guide the decisions of policymakers. The 
integration across agencies and scientific disciplines can only 
occur if we succeed in implementing a new governance regime 
that facilitates greater collaboration, including resources and 
expertise outside of the Federal system.
    So I am appealing to you publicly, as Leon and I have done 
in private, to take up the mantle of governance reform in the 
ocean community. It is the critical first step in a process 
toward realigning and focusing the resources and energy of the 
ocean community toward restoring the health and viability of 
our oceans and coasts. I can assure you that the rewards will 
be immense and enduring and will provide you with a lasting 
legacy.
    Thank you for the opportunity to appear and I stand ready 
to answer your questions.
    [The prepared statement of Admiral Watkins follows:]

  Prepared Statement of James D. Watkins, Admiral (Ret.), U.S. Navy; 
   Chairman, U.S. Commission on Ocean Policy; Co-Chair, Joint Ocean 
                         Commission Initiative
    Madame Chair, Senator Snowe and members of the Subcommittee: Thank 
you for the invitation to testify at today's hearing. I appear before 
you today representing the interests of the U.S. Commission on Ocean 
Policy as well as the Joint Ocean Commission Initiative, which I co-
chair with Leon Panetta. The Joint Initiative is a collaborative effort 
of members of the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission. The purpose of the Joint Initiative is to advance the pace 
of change for meaningful ocean policy reform.
    Leon and I believe that this is an important hearing and hopefully 
is the first of many hearings that will examine the fundamental role 
oceans play in global climate change, as well as the impact climate 
change is having on our oceans and coasts. We trust that the Members of 
the Committee will work closely with the multitude of other 
congressional committees that share jurisdiction over climate change 
related issues and will champion the need for greater attention to 
governance needs and the commitment of resources to support ocean-
related science, management, and education.
    Multi-jurisdictional problems, such as climate change, are becoming 
more common. In the work of our commissions, we found almost the 
identical problem in the effort to deal with the many problems facing 
our oceans, coasts, and Great Lakes. The lack of governance regimes 
capable of reaching across the diversity of congressional committees 
and Federal agencies is severely hampering our capacity to deal with 
these issues. Thus, while I understand that today's hearing is focused 
on the issue of the increasing acidification of the oceans and the 
impact on living marine resources, I appreciate the opportunity to 
speak to the broader issue of the role of oceans in climate change and 
the importance of pursing strategies now to help coastal communities 
adapt to the inevitable changes that will occur in the coming years.
Oceans Role in Climate Change
    As public awareness of climate change and its potential economic 
and environmental consequences has increased, so has the level of 
urgency to take action to mitigate the causes of this change and to 
make preparations to adapt to its impacts. Unfortunately, few people 
fully appreciate the fundamental role oceans play in regulating climate 
through their capacity to store and distribute heat and their role in 
the carbon cycle. As a nation, we are even less knowledgeable about the 
ramification of this change on the health of coastal and pelagic 
ecosystems and their capacity to provide the services upon which we've 
come to rely. This lapse has resulted in limited understanding of the 
complexity of ocean-related physical, geochemical, and biological/
ecological processes that are influencing and being influenced by the 
ongoing change. The consequences of this lack of knowledge are 
significant. Policymakers struggle to evaluate alternatives to address 
climate change because the levels of uncertainty associated with the 
short- and long-term impacts of proposed options are relatively high 
and the science underpinning these decisions is inadequate. Clearly, a 
more coherent strategy is needed to address climate change, and a core 
element of such a strategy must include increased attention to the role 
of the oceans.
    Oceans are key drivers in the Earth's heat and carbon budgets, 
storing one thousand times the heat of the atmosphere and absorbing a 
third of all anthropocentric carbon dioxide generated over the last few 
centuries. Furthermore, oceans not only store heat, but transport it 
around the globe, as well as vertically through the water column in 
ocean basins, making it a driving force of climate change. While our 
knowledge of physical oceanographic processes is further advanced than 
that of geochemical and biological processes, it is still rudimentary 
due to the lack of a comprehensive monitoring regime. As a result, we 
have ocean circulation and heat flux models that clearly indicate major 
changes are in progress. However, we still lack a clear understanding 
of these processes on a global scale, and are even less knowledgeable 
about activities occurring along the highly dynamic coastal margins, 
where ecological and economic health are of the greatest importance to 
humans and many of the impacts of climate change--such as sea level 
rise and coastal storms--will be directly felt.
    Further complicating the situation is the lack of understanding of 
the interrelationship among the physical, geochemical, and biological 
processes. As today's hearing clearly demonstrates, we need to know the 
implications of ocean acidification on marine ecosystems--such as 
phytoplankton communities, coral reefs, and fish larva. We also need to 
know the rate of ice sheet melt and its impact on coastal communities, 
polar ecosystems, and regional weather patterns.
    The complex relationship between oceans and climate change, as we 
currently understand it, cries out for reform in two core areas, 
governance and science. Congress must respond to the chorus of 
criticism directed at the lack of a coherent strategy and framework for 
addressing the challenges facing our oceans and coasts. This strategy, 
in turn, must be integrated into a broader national initiative to deal 
with climate change. It is incumbent upon Congress to take this 
opportunity to look beyond parochial interests and issue-specific 
legislation, and work toward a governance regime and management 
policies that place greater emphasis on cooperation and collaboration 
within the Federal Government, while capitalizing on the wealth of 
scientific expertise and resources that reside outside the Federal 
system.
Governance
    The complexity and breadth of issues associated with efforts to 
understand, mitigate, and adapt to climate change make it essential 
that the Nation have a coherent and comprehensive strategy to guide 
this work. This is a daunting challenge given the multitude of 
governmental and nongovernmental entities that have a vested interest 
in this issue and its long-term impact on the health and viability of 
the nation's economy and environment. The ocean community has been 
struggling with this same problem, albeit on a slightly smaller scale. 
But the challenge remains the same, we need a new Federal governance 
regime that moves away from the stove-piped, command and control 
organization in which individual departments and agencies formulate 
policies and budgets that are reviewed by the Office of Management and 
Budget and then sent to Congress for a similar review by the 
appropriate committee of jurisdiction. While there is a continuing 
effort to integrate programs and activities, it is the exception not 
the rule. In addition, the budget process often discourages interagency 
cooperation as funding for multi-agency programs is subject to cuts or 
reductions during internal agencies budget negotiations, compromising 
the integrity of the broader strategy and promoting further competition 
among Federal and non-governmental players.
    But don't take my word for it. There are a number of credible 
entities that have recognized that governance problems are impeding the 
Nation's capacity to respond to some of its most pressing challenges 
and have recommended solutions. Earlier this spring the National 
Research Council (NRC) responded to a request from the White House 
Climate Change Science Program to identify lessons learned from past 
global change assessments. In its report, the NRC cited the lack of a 
long-term strategic framework for meeting the climate change research 
mandate as an outstanding weakness of the current system.\1\
---------------------------------------------------------------------------
    \1\ Analysis of Global change Assessments: Lesson Learned. National 
Research Council 2007.
---------------------------------------------------------------------------
    Testimony by former administration officials who oversaw the 
climate change research program reiterated these concerns last Thursday 
in a hearing before a House Energy and Commerce Subcommittee, where 
recommendations were made to establish a program office with a sense of 
permanence, the political power to make decisions across agencies, and 
the authority over budgets.\2\ These recommendations closely track 
those made by the two ocean commissions, which advocated for a new 
management regime, based in the Executive Office of the President that 
would have the authority to coordinate efforts and guide the 
distribution of resources throughout the Federal Government in an 
integrated system that reached across jurisdictional boundaries of 
individual agencies.
---------------------------------------------------------------------------
    \2\ Hearing before the House Science and Technology Committee, 
Subcommittee on Energy and the Environment; Reorienting the U.S. Global 
Change Research Program Toward a User-Driven Research Endeavor. http://
science.house.gov/publications/hearings_markups_details.aspx?
NewsID=1798 May 3, 2007.
---------------------------------------------------------------------------
    Such a vision was partially implemented in the ocean community when 
the President established the Committee on Ocean Policy (COP). However, 
the COP's charge is limited to coordination. It lacks institutional 
independence and a leader charged with resolving interagency disputes 
and representing the interest of individual agency ocean programs in 
the budget process. Consequently, efforts to move a new national ocean 
policy forward have languished and the ocean community's capacity to 
contribute toward the scientific and management needs to address 
climate change have been compromised.
    Similar problems exists in Congress, where cross-cutting issues 
such as oceans and climate fall under the jurisdiction of multiple 
committees and subcommittees. Take the case of ocean acidification. The 
Commerce Committee clearly has jurisdiction; however, the Environment 
and Public Works Committee has authority over water pollution and water 
quality issues, the Energy and Natural Resources Committee has a role 
regarding emissions from energy facilities, which are a major source of 
CO<INF>2</INF>, and the Committee on Appropriations funds authorized 
activities. The same diversity of oversight authority exists in the 
House, significantly complicating efforts to develop a comprehensive 
strategy to address climate change. In the 108th Congress, the U.S. 
Commission on Ocean Policy identified a total of 58 standing committees 
and subcommittees having jurisdiction over ocean-related issues in the 
House and Senate.\3\ An early assessment of the 110th Congress shows 
little change or consolidation.
---------------------------------------------------------------------------
    \3\ U.S. Commission on Ocean Policy, Appendix F. 2004.
---------------------------------------------------------------------------
    Further evidence of support for a more coherent approach to 
science-related policy issues is reflected in the growing interest in 
reestablishing an Office of Technology Assessment (OTA). OTA was a 
congressional office charged with providing nonpartisan research on 
technical and scientific issues pending before Congress, but was closed 
in 1995. As Congress struggles with increasingly sophisticated and 
complex technical issues such as biomedical research and climate 
change, an entity such as OTA can provide timely and issue specific 
guidance that would complement the more exhaustive, costly and time 
consuming review process performed by the National Academies. Congress 
relies on credible and readily available information to make informed 
policy decisions. Right now, the lack of information on oceans and 
coasts, or a clear strategy for collecting and translating this 
information into products and services useful to decisionmakers and 
managers, is hobbling Congress' ability to perform its role.
    Thus, the focus must turn to improving our capacity to more 
accurately assess the processes and phenomena influencing climate 
change and society's impact on such processes and phenomena. This will 
require much greater attention and support being devoted to the broader 
problem of designing and implementing a strategy that balances 
resources among basic and applied research, monitoring and analysis, 
and modeling. This strategy must also be expanded to incorporate 
support for translating and utilizing this information to evaluate the 
effectiveness of mitigation, adaptation, and other management actions 
aimed at meeting the goals of increasing the resiliency of coastal 
communities and ecosystems.
    Given the complexity and interdisciplinary nature of the issues 
surrounding climate change, progress toward these goals will require 
changes in the operation and coordination of Federal agencies and the 
Federal budget process. The National Oceanic and Atmospheric 
Administration (NOAA) is the logical lead Federal agency to oversee the 
climate change science program; however, public and private confidence 
in the agency is lacking. This is due, in great part, to the outdated 
organizational structure of the agency and the lack of resources that 
have been provided to fulfill its expanding mandate. The opportunity is 
ripe to reevaluate and realign NOAA's programs along its core 
functions, which include: assessment, prediction and operations; 
scientific research and education; and marine resource and area 
management. This step, taken in combination with an effort to enhance 
the oversight role of the President's Committee on Ocean Policy, would 
lay the foundation for a major transition in the ocean and atmospheric 
policy that would be of enormous long-term benefit to Congress and the 
public.
    Congress should also take advantage of this opportunity to address 
science agency mission and funding inconsistencies that are hampering 
the collection and synthesis of long-term data measurements. While NASA 
and NSF are charged with developing new approaches to collecting, 
analyzing, and integrating data, NOAA has the charge--but lacks the 
technical expertise and fiscal resources--to maintain increasingly 
important remote and in situ observation platforms capable of sustained 
data collection (the compilation of long-term data sets). These long-
term data sets are crucial to understanding the rate of change over an 
extended period. Further exacerbating the situation is a disjointed 
data management system that is preventing scientists from fully 
utilizing data that are currently being collected. Given the 
consolidation of science agencies (NOAA, NASA, and NSF) responsible for 
ocean and atmospheric research under the jurisdiction of the Commerce 
Committee and its sister appropriations subcommittee, the opportunity 
exists to more closely link their complementary programs through both 
the authorization and appropriations processes. While this proposal may 
disturb many of those in the community who have a vested interest in 
programs associated with the individual agencies, in the long-term 
their collaboration is essential if our Nation is to succeed in making 
progress toward understanding and responding to climate change while 
also restoring the health of our oceans and coasts.
    Clearly, a careful reevaluation of the governance regime guiding 
climate and ocean-related science and management programs is needed to 
overcome the obstacles that are currently hampering efforts to develop 
a comprehensive response to climate change. Whatever action Congress 
takes, it should look beyond the current models and existing 
organizational structure to ensure that both ocean and climate change 
programs are broad-based and charged with developing a balanced 
strategy that incorporates science, management and outreach. Anything 
less will perpetuate an approach that has proven to be ineffective and 
is now jeopardizing the health and welfare of current and future 
generations.
Science
    Credible scientific information is essential as the Nation begins 
the process of developing a new regime to mitigate and adapt to climate 
change. Better science, when linked with improved risk management and 
adaptive management strategies will help guide a process that must deal 
with the relatively high levels of uncertainty surrounding mitigation 
alternatives and the range of impacts associated with climate change. A 
much more comprehensive and robust science enterprise--one that 
incorporates a better understanding of the oceans' role in climate 
change--is required to more accurately predict the rate and 
implications of change at the global-through-local level, as well as to 
enable more thorough evaluation of options for mitigating and 
accommodating this change.
    While the United States is making a significant financial 
commitment to understanding climate change, the inadequacy of the 
current strategy has become clear and reform is urgently needed. 
Research that has been primarily focused on physical science and 
validation of climate change must expand to incorporate greater 
attention to the role and contributions of biogeochemical and 
ecological processes, as well as interactions among these three 
processes. This will require a significant commitment of new resources 
and will increase the complexity of the science strategy to understand 
and respond to climate change. However, these actions cannot be avoided 
if the science community is going to be responsive to Congress' need 
for credible scientific information to guide its decisionmaking 
process.
    One of the first steps should be a commitment to building a 
comprehensive environmental monitoring system. We are supposedly well 
on our way to fulfilling our international commitment to support 
climate observing systems--which according to the most recent report 
from the Climate Change Science Program is over 50 percent complete. 
However, support for this system is in trouble, which is compounded by 
the fact that considerably fewer resources are dedicated to supporting 
an ocean-focused component of the observing system. A recent NRC study 
found that remote sensing satellite programs in NASA are at great risk 
and that the next generation of satellites is generally less capable 
than the current, rapidly diminishing system. Projected budgets show 
U.S. investment in these capabilities falling by 2012 to its lowest 
level in two decades.\4\ Support for a dedicated ocean observing 
program appeared in the President's budget for the first time this 
year, at the level of $16 million, a fraction of what Congress has been 
providing in recent years.
---------------------------------------------------------------------------
    \4\ Earth Science and Applications for Space: National imperatives 
for the Next Decade and Beyond, NRC 2007.
---------------------------------------------------------------------------
    As a consequence our knowledge of physical ocean-related processes 
is limited, and our capacity to understand biogeochemical and 
ecological processes languishes due to the lack of capacity to study, 
much less monitor and model these systems and their responses to 
change. The expert scientific witnesses appearing before the 
Subcommittee today have testified to this fact, presenting us with 
quantifiable data that humans have contributed to the increased 
acidification of the oceans and that there are very real and 
potentially damaging consequences associated with this change. Yet, the 
ocean scientific community does not have access to funding to support 
large-scale field experiments, study environments that are naturally 
more acidic, or more fully examine the geologic record to understand 
past events that may have resulted in similar conditions.
    It is now obvious that enhanced and integrated observing systems 
are a key element underlying a robust ocean and climate science 
strategy. From a research perspective this need was clearly articulated 
in the release of the Administration's Ocean Research Priorities Plan 
and Implementation Strategy in January, in which the deployment of a 
robust ocean-observing system was highlighted as a critical element of 
the plan. Such an observing system will require a commitment to deploy 
and maintain infrastructure and instrumentation, such as satellites, 
research vessels, buoys, cabled underwater observatories, and data 
management networks. A sustained, national Integrated Ocean Observing 
System (IOOS), backed by a comprehensive research and development 
program, will provide invaluable economic, societal, and environmental 
benefits, including improved warnings of coastal and health hazards, 
more efficient use of living and nonliving resources, safer marine 
operations, and a better understanding of climate change. However, the 
value of this system will be fully realized only if an adequate 
financial commitment is also provided to support integrated, 
multidisciplinary scientific analysis and modeling using the data 
collected, including socioeconomic impacts. Unfortunately, support for 
the lab and land-based analysis of the data derived from these systems 
is often inadequate, diminishing the value of these programs, while 
support for socioeconomic analysis is virtually nonexistent.
    The lack of a comprehensive climate change response strategy and 
supporting governance regime that integrates fundamental research and 
development, monitoring and analysis, and modeling efforts is a major 
weakness in our national effort. It must be immediately addressed to 
ensure that policymakers have the scientific information necessary to 
guide their deliberation regarding both mitigation and adaptation 
strategies. Congress should develop legislation, perhaps with guidance 
from the National Research Council, requiring the development of a 
comprehensive science strategy that incorporates support for ocean-
related sciences with a focus on enhancing the predictive capacity of 
physical and ecological models. This advancement is necessary to 
provide policymakers and the public with the information necessary to 
make informed decisions regarding the collateral impact of potential 
mitigation strategies--such as carbon sequestration in or under the 
oceans or biofuel production that results in increased runoff of 
agricultural pollutants into coastal watersheds--and strategies for 
increasing the resiliency of coastal communities and marine ecosystems 
to climate generated impacts.
Conclusion
    The recent elevation of national conversation surrounding climate 
change and its economic and environmental implications validate similar 
discussions voiced by the ocean community upon the release of the U.S. 
Commission and Pew Commission reports. At the heart of the matter is 
the need for more a robust science enterprise capable of advancing our 
understanding of the processes that drive our planet and can better 
guide the decisions of policymakers. The integration across agencies 
and scientific disciplines, with a focus of developing products and 
services useful to policymakers and the public, will only occur if we 
succeed in implementing and integrating new governance regimes for 
climate change and ocean policy that facilitates greater collaboration, 
including resources and expertise outside of the Federal system.
    This transition must be well thought out and deliberate, perhaps 
pursuing a phased approach such as that recommended in the U.S. 
Commission report. In it, we recommended that the initial focus be on 
strengthening NOAA, followed by a realignment and consolidation of 
ocean programs that are widely distributed throughout the Federal 
Government. The final phase would be the consolidation of natural 
resource oriented programs under a single agency. This approach 
responds to the recommendation of the Volker Commission, which 
identified the proliferation and distribution of agencies and programs 
throughout the Federal Government as a major hindrance to efficiency 
and effectiveness of the Federal system.\5\
---------------------------------------------------------------------------
    \5\ National Commission on the Public Service: Urgent Business for 
America: Revitalizing the Federal Government for the 21st Century 
http://www.brookings.edu/gs/cps/volcker/volcker_hp.htm 2004.
---------------------------------------------------------------------------
    I am appealing to you publicly, as Leon and I have done in private 
to many of you, to take up the mantle of governance reform in the ocean 
community. It is the critical first step in the process toward 
realigning and focusing the resources and energy of the ocean community 
toward restoring the health and viability of our oceans and coasts. I 
understand it will be difficult, but increased public awareness and 
concern about the health of the environment has provided us with a 
unique and timely opportunity to leave a lasting legacy, one we can 
appreciate when sitting on a beach--free of closure and swimming 
advisory signs--on a sunny summer afternoon with our children or 
grandchildren while looking out over the horizon of a sparkling blue 
sea.
    Madame Chair and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today, and look forward to working 
with you to address the ocean and coastal issues raised in this 
hearing. I would be happy to answer any questions that you may have.

    Senator Cantwell. Thank you, Admiral Watkins. Thank you for 
your, as I said earlier, ongoing advocacy in this area.
    We will start now with a round of 5-minute questions from 
my colleagues. I will start off with Dr. Feely if I could, 
asking you a question about this experience of acidification 
that we are in now. Obviously, we have had other experiences in 
the past on ocean acidification.
    We obviously--I do not know if you are anticipating my 
question.
    [Laughter.]
    Dr. Feely. If that is the question, I have a slide for you.
    Senator Cantwell. I did not know I was going to ask this 
question. But we obviously have had time periods before between 
glacial and inter-glacial periods when we have had 
acidification. So what is different now? That is my first 
question. If you have a slide for that I am going to be very 
surprised.
    [Laughter.]
    Dr. Feely. Actually, no. In the past, through the 
geological past, the CO<INF>2</INF> levels have been much 
higher than we have seen now, perhaps 20 million years ago or 
even farther back. The difference is that the organisms that 
are responding to the acidification respond to the saturation 
state of sea water, which is a combination of the 
CO<INF>2</INF> concentrations and the pH change and the calcium 
changes.
    It turns out that in our present condition calcium 
concentrations are lower than they have ever been in geological 
history. So therefore the saturation state that we are looking 
at occurring in the future is going to be lower than has ever 
been observed in the geological past. This is being influenced 
directly by the CO<INF>2</INF> increases that we are observing.
    So these ecosystems will be looking at a lowered saturation 
state that has not been observed through the entire history of 
the oceans.
    Senator Cantwell. So how should we look at the corrective 
nature of things in the context if we were able to reduce 
CO<INF>2</INF> emission now how long would it take to have an 
impact? How do we look at the time period if we continue for 
another 10 years at the level of CO<INF>2</INF> emissions? We 
have heard from Dr. Hansen and Admiral Watkins about various 
adaptive or ecosystem approaches. How do we look at what we can 
do to correct this current trend?
    Dr. Feely. That is very difficult to answer, particularly 
because we do not have a lot of information on what the 
biological tipping points are for these individual species. We 
do for a select few species that have been studied in mesocosm 
experiments under laboratory and bag experiments in the field. 
These tipping points suggest that by the middle of this century 
the coral reef systems will be severely impacted by the 
increasing CO<INF>2</INF> levels in the oceans.
    The concern that we have is in the ocean itself, the reefs 
are not only influenced by these simple relationships that we 
just determined in the laboratory, but also other impacts such 
as erosion, storm effects, and perhaps the tipping points that 
we measure in the laboratory do not show and represent what the 
organisms see in the field.
    So what we dearly need is experiments that occur in the 
field that are representative of field conditions, as well as 
continuing experiments in the laboratory. Our best projections 
right now are that for coral reef systems we may be seeing 
severe impacts as soon as 2050 or earlier.
    Senator Cantwell. Dr. Kruse, how do you as an expert in 
fisheries management, how do you deal with this information? I 
mean, are you working into, with salmon or Bering Sea species, 
are you working factors of climate change and acidification 
into the management plans for fisheries? How do you address 
that if, as Dr. Feely says, we do not have all the data, but we 
know that we are starting to see impact?
    Dr. Kruse. Thank you for your question. In the North 
Pacific Fishery Management Council, we are making some really 
pretty good progress to incorporate climate variability into 
fish stock assessments and fishery management. One of the ways 
that scientists are doing that, for example, is they have found 
that the catchability of the trawl used to survey of certain 
species is very highly dependent on temperature. So they have 
done experimentation both in the field, but also modeling 
studies, that have identified the nature of that relationship. 
So they are incorporating that into stock assessments.
    Also, with the Bering Sea pollock, which is probably the 
best assessed fish stock that we have in our system, there has 
really been some excellent studies relating the dynamics of 
that particular population to temperature and sea ice dynamics. 
So those are finding their ways into the management strategies.
    Admittedly, we are really early on the curve of doing this. 
In fact, soon there will be a workshop to address these issues. 
I chair the Fisheries Science Committee for the PICES, the 
North Pacific Marine Science Organization. A subgroup of us are 
having a workshop in Seattle in July 2007 with our 
international Pacific Rim colleagues to see how we can better 
make these connections between climate and our fish assessment 
models and our management strategies.
    So we are making some progress, but certainly there is a 
lot more work to be done.
    Senator Cantwell. Well, I applaud the North Pacific Fishery 
Management Council for its leadership in this area. I think in 
the past you have showed great stewardship on environmental 
issues, so I applaud that, even though it seems challenging at 
this point in time.
    Senator Stevens?
    Senator Stevens. Thank you very much.
    Mr. Doney, I am informed that the Pacific Decadal 
Oscillation has shifted every 20 to 30 years and that if we 
look at the past there were temperature observations that the 
ocean cooled from 2003 to 2006, but over the past 40 years that 
the average of all those has been that the warming trend has 
resulted in a .04 degrees change Centigrade. Do you agree with 
that? The increase in the temperature of the oceans has been 
.04 degrees Centigrade?
    Dr. Doney. Senator, I think that is a reasonable estimate 
of the volume average change. That is actually a rather large 
number. The heat capacity of the ocean is several thousand 
times that of the atmosphere, and the numbers, the back of the 
envelope calculation, is that if the integrated global average 
temperature of the ocean went up by .1 degrees it would be 
equivalent to the atmosphere going up by 100 degrees.
    So you have to think about it in the context----
    Senator Stevens. That is in terms of stored heat.
    Dr. Doney. That is in stored heat.
    Senator Stevens. I understand that. But in terms of the 
temperature, the implication of your testimony was there has 
been this overwhelming rise in the temperature of the oceans. 
Is that your position?
    Dr. Doney. The surface temperature has been going up about 
.2 degrees per decade over the last 30 years, and if you look 
at the full water column much of the heating is occurring at 
the surface. As you go down the water column, the heating rates 
are smaller, but they are quite large relative to the natural 
background.
    Senator Stevens. You disagree with that figure that I just 
gave you, then, that the average for 40 years is .04?
    Dr. Doney. I think it is .04 degrees Celsius over the 40 
year period. That is actually quite a large number, considering 
the rates that the ocean heats and cools naturally.
    Senator Stevens. Do you agree or disagree, doctor? Is that 
a proper figure?
    Dr. Doney. I would have to check my numbers, but I think 
that is a reasonable estimate.
    Senator Stevens. I have been told that we are ending the 
Little Ice Age, that this period we are seeing right now is a 
return to the normal situation at the beginning of that Little 
Ice Age. Do you disagree with that?
    Dr. Doney. I do think the paleoclimate data suggest that 
the current temperatures are much higher than the temperatures 
that were existing before the Little Ice Age. These are records 
that are based on, for example, tree ring records and isotope 
records. The best estimates of the climate over the last 
thousand years show that the 50-year period we are in now is 
warmer than at any time in the last 1,000 years.
    Senator Stevens. How long do you think the Little Ice Age 
lasted?
    Dr. Doney. The Little Ice Age was a couple hundred years. 
So we are certainly experiencing much warmer climate than 
existed prior to the Little Ice Age.
    Senator Stevens. Would you check that, please, because that 
is not my information.
    Dr. Doney. I can check that for you, sir.
    Senator Stevens. Let me ask Admiral Watkins. I think I 
agree with everything you said. The difficulty is the funding. 
Since 2001 the Congress and this administration has allocated 
$29 billion just to climate-related science alone. There may be 
some question of whether those funds were spent effectively, 
but that is a massive increase over the previous 6 year period.
    How much more do you think we need to have?
    Admiral Watkins. Senator, last year we worked with the 
staff up here and members to deliver the answer to some 
questions raised by the Senate, and I think you were a co-
signer on that letter.
    Senator Stevens. Yes.
    Admiral Watkins. We worked very hard on that to come up 
with what do you need, what are we talking about here? We came 
up in that report, ``From Sea to Shining Sea,'' that the Senate 
acted on last year, at least in one case, and that was 
Magnuson-Stevens Reauthorization Act. That was a good product 
that came out of that.
    That was the Senate. You had to push it through the House. 
We have not had any support from the House on funding. In fact, 
the Senate has had to restore every year for the last 5 years 
significant cuts by House Appropriations, coming over here with 
NOAA getting a $500 million cut, and you have had to restore it 
all.
    So we have spent all our time restoring to status quo. And 
our report said status quo ain't good enough. We have got to 
start making the investment in science. We have got to start 
getting serious about organization and structural changes of 
how we deal with an ecosystem-based approach that cuts across 
jurisdictional lines both in the White House and up here and in 
the states. And we still have not done anything. So it has been 
3 years now.
    So I am just saying I count on the Senate because the 
Senate has been the only receptive body, and we have not put 
enough money in. We said $750 million over 2007 appropriated is 
the right kickstart, and to do that for the next 4 or 5 years 
to try to buildup to about $13 billion----
    Senator Stevens. I wanted that in the record. $750 million, 
if we had that increase by that amount over 5 years----
    Admiral Watkins.--over 5 years that would do everything we 
recommended in our report, and that would include the climate 
change issue.
    Senator Stevens. Madam Chairman, I have a conflict. May I 
ask one more question?
    Senator Cantwell. Yes.
    Senator Stevens. Dr. Kruse, I do appreciate your coming, as 
I indicated. I want to know this. I am told, and as a matter of 
fact you said in your own testimony here today that is printed, 
that the North Pacific temperatures warmed between 1920 and 
1940. Do we have any records to show what happened to king crab 
and other species during that time? Did they shift northward 
during that period, that 20 years of warming? Can we show--when 
the temperature went down, were they restored naturally?
    Dr. Kruse. Thank you, Senator Stevens, for your question. 
That is really an excellent question. Unfortunately, as we go 
back in time we find we just do not have the routine stock 
assessments that we have now. For example, in the Bering Sea 
the very first National Marine Fisheries Service bottom trawl 
survey started, I believe it was 1969, and it was in a small 
area of Bristol Bay, focusing on Bristol Bay red king crab.
    Likewise in the Gulf of Alaska, most of our surveys started 
in the 1980s or maybe in the 1970s. So we do not have the 
fishery-independent information to really objectively look at 
that question. If you look at fisheries data, you always have 
to be careful because catch rates can be affected by fishing 
practices and there may not be a direct reflection to what the 
populations are doing.
    In the Kodiak area, for example, those fisheries did not 
begin until the late 1950s and really got under way in the 
1960s. King crab catches peaked in 1965. So we just did not 
have observations prior to that time.
    There were, however, some fishermen who were fishing for 
other species who claim that in the earlier time period it was 
very rare to find king crab. So it is anecdotal information 
that lends support that crab populations were down.
    Senator Stevens. Did those peaks follow the temperature 
curve, is what I am getting at? Have they followed the 
temperature curve? There seems to be a 20 year up and 20 year 
down in the North Pacific. Have the peaks in our species 
followed that curve?
    Dr. Kruse. The short answer is some of them do and some of 
them don't. I spend a lot of time with colleagues examining 
crab population dynamics and some crab populations seem to be 
related to temperature signals. The northern shrimp that had 
supported a big fishery in Alaska is more clearly related to 
temperature, particularly in the North Atlantic. But it is 
difficult to simply connect temperature to king crab population 
dynamics. It is much more complicated.
    Senator Stevens. I thank you. I have overstayed my leave. I 
saw a chart just recently that showed that the CO<INF>2</INF> 
spike was very small compared to the spike in methane. We have 
now got enormous amounts of methane being released from the 
permafrost in Russia and in the Arctic. Has anyone examined 
this? Is that going to affect the oceans at all as the methane 
continues to increase?
    Dr. Kruse. I have not done that. It is not my area.
    Dr. Doney. I will take a shot at that. Molecule for 
molecule, methane is about 20 times or 30 times more potent as 
a greenhouse gas than CO<INF>2</INF>.
    Senator Stevens. Why have we not measured that, then?
    Dr. Doney. Actually, there is a global network that NOAA is 
part of that measures methane, and there are actually quite 
good measurements.
    Senator Stevens. I mean in relation to the oceans.
    Dr. Doney. The effect of methane on the oceans is, as I 
mentioned in my testimony, is one of the other greenhouse gases 
that is leading to increased warming. The methane doesn't 
dissolve in the ocean, so most of its impacts are through 
increased warming.
    Senator Stevens. Thank you very much.
    Senator Cantwell. Dr. Feely, did you want to respond to 
that too?
    Dr. Feely. I just wanted to add that when methane is 
released into the oceans it quickly oxidizes to CO<INF>2</INF> 
by bacterial processes. So the impacts that we see in the 
oceans are the oxidation product of CO<INF>2</INF>.
    Senator Stevens. Resulting from the increase in methane?
    Dr. Feely. When methane is released, for example from 
sediments or from methane hydrates, it quickly gets oxidized to 
CO<INF>2</INF> by methane-oxidizing bacteria. So the impacts 
that we would see in the oceans would be the CO<INF>2</INF> 
enrichment.
    Senator Cantwell. Thank you.
    Senator Klobuchar?
    Senator Klobuchar. Thank you, Madam Chair.
    I just wanted to follow up, Dr. Doney, on some of the 
questions that Senator Stevens was asking about the temperature 
issue, just to clarify this. I am also on the Environment 
Committee and I get questions about this kind of thing a lot. I 
always use the example for the air temperature that it has gone 
up one degree in the last century and the EPA predicts it will 
go up 3 to 8 degrees in this coming century. To give some 
perspective to people, because especially in Minnesota we 
think, well, in the middle of the winter that does not sound 
that bad, but I give them the perspective that since the Ice 
Age it has only gone up 5 degrees, the height of the Ice Age, 
the temperature worldwide.
    So I wondered if you could use that kind of analogy with 
the ocean temperatures in some way to better clarify this for 
us, when you said that it was actually a large amount to go up 
.04.
    Dr. Doney. Right, and I also wanted to make one additional 
clarification, which is there were some early reports that 
global ocean temperatures had started to drop around the year 
2002. But when they went back and reexamined the data, they 
found that they had been making errors in the way they had been 
treating some of the data. The most recent estimates are that 
the ocean temperatures leveled off or cooled slightly but there 
has not been a significant, long-term drop since the 
observational record began.
    Yes, the ocean changes that we are seeing are unprecedented 
in the historical record and are comparable to what was seen 
during the deglaciation from the last glacial period. You have 
to remember, though, when you are talking about the temperature 
change of 5 degrees between the glacial maximum and what we 
call the Holocene, the modern period, that occurred over 
several thousand years. We are experiencing the same 
temperature change over decades, and that is what I mentioned 
in my testimony that it is not just the magnitude of the 
change, it is the rate of change that species cannot adapt to.
    Senator Klobuchar. Thank you.
    One of the things I get asked about is the effect that this 
has had on the severity of storms with the warming of the 
ocean. Does anyone want to lend some expertise to that issue?
    Dr. Doney. I will try to answer that. There is some data 
that suggests that the intensity of tropical storms has been 
increasing for things like hurricanes and typhoons. There is 
still not clear evidence whether the frequency of storms will 
change. There are good theoretical reasons to believe that 
storms will increase in intensity because warmer air can hold 
more water, and the whole process of the energetics of warmer 
sea surface temperatures and warmer atmospheres holding more 
water should lead to stronger storms, both in the tropics, but 
also at mid-latitudes, which could lead to not just effects in 
the ocean, but effects on land like increased flooding.
    Senator Klobuchar. I mentioned the Great Lakes earlier in 
my opening comments and I just wanted to put something out 
there because I am not sure we will have a hearing entirely 
devoted to the Great Lakes and climate change. But as I 
mentioned, the water in Lake Superior is lower, and there are 
studies out of the University of Minnesota at Duluth and other 
places showing that part of this, the opposite of the oceans 
where it is going up, is that because we have less ice because 
of the increasing temperatures and so the water is evaporating, 
and it is having an actual tremendous effect on the economy up 
there.
    Just to give you a sense, in 2006 at just one terminal dock 
in Duluth it took 42 more ships to load the same amount of 
tonnage as it did in 2005 because of the fact that we are 
seeing a lowering of the water level in the Great Lakes. I 
always look for examples to use for some of my colleagues that 
are in states that are not on the coast areas, to use about why 
the climate change issue is affecting us just as it is 
affecting people in the coastal areas.
    I know that this was not the focus of this hearing, but if 
anyone had any information to add to the information we are 
gathering on the Great Lakes that would be helpful. Dr. Feely?
    Dr. Feely. Yes. I just wanted to add, the same problems 
that we are talking about with ocean acidification should be 
also thought about with respect to the Great Lakes. The Great 
Lakes are lakes that are not as well buffered as the oceans, so 
the impacts could be even more severe. To my knowledge there 
has been very few studies of this particular problem. 
Historically, we have looked at acid rain in the Great Lakes 
regions and acid rain is very similar to this kind of problem 
because it involves sulfuric acid and nitric acid and those 
kinds of impacts are usually quite severe and short-lived over 
the seasonal changes due to snow melt and its impacts on rivers 
and lakes.
    This is a different kind of problem because it is a gradual 
increase in CO<INF>2</INF> over a long period of time. So we 
should look at these kinds of issues with respect to the Great 
Lakes as soon as possible.
    Senator Klobuchar. Madam Chair, could I do one more 
question or are we running out of time?
    Senator Cantwell. No, absolutely ask additional questions. 
I thought perhaps, though, given your question, I think that 
Dr. Feely's slides are about acidification and acidification 
impact. Would now be a proper time to show that?
    Dr. Feely. Sure, I would love to.
    Senator Klobuchar. Very good. We have been waiting to see 
this slide.
    [The PowerPoint presentation is retained in Committee 
files.]
    Dr. Feely. I actually prepared this slide for this 
presentation. What we have done with the global CO<INF>2</INF> 
surveys, we made measurements in the 1990s of the distribution 
of anthropogenic carbon in the ocean and we used that 
information to develop models of how the oceans will change 
over time with respect to saturation levels that the coral reef 
systems and the pteropods and many of these calcifying 
organisms are sensitive to.
    Then we worked together with the modelers who had been 
working with global circulation models. This is a composite 
model output of the 13 best models throughout the world that 
have been used for these studies. What this map shows is the 
pre-industrial level of saturation state for the oceans in the 
surface waters. What we have plotted on here in the map in the 
very black dots are the present day distributions of tropical 
coral reefs. The magenta dots are the present day distributions 
of the deep water coral reefs.
    What the tropical coral reefs need is a saturation state in 
excess of 3, a saturation state of 3 for them to survive 
naturally. We do not know what the saturation state requirement 
is for deep water corals because those studies have not been 
done.
    So we move into the present condition in 2000 and we see 
that the system has changed. It is no longer optimal for 
calcification, but many of the regions are still safely within 
that saturation state of 3. We would prefer to have it at 3.5 
or 4. Again, most of the tropical coral reefs are within that 
state. But we see we are now encroaching on that optimal 
saturation state.
    If we go out to 2040, we see that now the coral reef 
systems in the Hawaiian Islands region and other locations are 
also very, very close to being well within this limit of 3.0 
saturation, and therefore there is some concern whether they 
can continue to calcify by 2040.
    The magenta regions here are the thermodynamic limit where 
dissolution begins to occur, and we can see that occurring in 
the southern ocean by 2040.
    When we go out to 2100, what we see is that the entire 
world oceans are no longer within this level of 3.0, which 
means that the coral reef systems would not be able to continue 
to calcify. Again, the entire southern ocean would be a region 
of complete dissolution. In other words, no organism would be 
able to calcify. They would begin to dissolve.
    Now we see in the North Pacific, high northern latitudes, 
also in the Atlantic particularly and presumably the Bering 
Sea, we have the same conditions of undersaturation in which 
the coral organisms and the other calcifying organisms would--
--
    Senator Cantwell. But Dr. Feely, on calcification, you are 
treating that like an indicator species? Or should we attribute 
other----
    Dr. Feely. Calcification is the process by which they form 
their shells. So the question is can they form their shells or 
not? What these models show is where they can form their shells 
and when the shells will actually begin to dissolve.
    Senator Cantwell. You are treating that as, you are 
treating that like any other indicator species as to the health 
of an environment, or are there other implications we should 
draw from that, I guess as you keep going through this?
    Dr. Feely. Yes. Well, for example, for coral reefs, this 
means whether they can continue to produce their skeletons. But 
for other species, this would suggest that they would no longer 
be able to calcify. For example, the pteropods which are the 
primary food source for salmon would no longer be able to form 
their calcium carbonate shells. So these are the regions where 
they would have to be--no longer can exist in those locations. 
So they would be removed from those locations. So the food 
chain would change dramatically.
    Senator Cantwell. So you are saying they are the beginning 
of the food chain indication?
    Dr. Feely. Right.
    Senator Cantwell. Is that what you are saying?
    Dr. Feely. That is exactly correct.
    Senator Cantwell. OK.
    Dr. Feely. So what we are seeing, this process of 
CO<INF>2</INF> enrichment really starts from the poles and 
moves toward the tropical regions. So the high latitude 
regimes, the high productivity regimes for fish and shellfish, 
are going to be affected first, and this is what we are seeing 
in these model outputs.
    Senator Cantwell. Thank you very much.
    Senator Klobuchar?
    Senator Klobuchar. I think Dr. Hansen wanted to comment a 
little more.
    Dr. Hansen. I wanted to add something with regard to the 
Great Lakes. The Great Lakes have not only, as well as the 
world's oceans, have not only an issue of quantity--as you 
stated, the world's oceans are growing, while the lakes are 
shrinking--but also issues of water quality. In the Great Lakes 
region you have not only the issue of increased evaporation 
because of altered ice cover, but you also have periods of 
drought that have been occurring there.
    Coupled with that drought are altered use of fertilizers 
and pesticides for agriculture and other human adaptations, if 
you will, to the changes that are already going on. And as part 
of that, I think that one of the concerns for the Great Lakes 
should be how is the water quality being protected under that 
changing climate regime and how do we rethink the way we set 
regulatory limits on things like contaminants, sewage outflow, 
in response to the fact that there is now less water in that 
water body that historically has been receiving those outputs.
    Senator Klobuchar. Thank you.
    My last question was for you, Admiral Watkins. As we looked 
at all the enormous challenges we are facing, you had some 
ideas for solutions, and obviously some of it is the funding 
for research. But I was interested in your idea of the more 
integrated management of our ecosystem and if you could just 
spend a little time explaining that to us as we look at how we 
can better do things in addition to the additional funding.
    Admiral Watkins. Well, let me say first, Senator, that I do 
not know if you noticed, but when we put out our draft report 
in the spring of 2004 the biggest negative comment we had on 
that draft was from the Great Lakes area saying, it is oceans, 
coasts, and Great Lakes. We agreed and you will see it in our 
report. It is not only what we just heard here, but also 
invasive species are coming in there and destroying the 
fisheries.
    Senator Klobuchar. The Asian carp.
    Admiral Watkins. It is a huge issue. If you ask the White 
House, what are you doing you will hear: Look, we have 
established a task force, we have got a Federal to State 
relationship, we have got the Canada-Great Lakes Commission, it 
has been there for many, many years. And the answer is: Yes; 
what have you done? And the answer is not very much.
    So it is like everything else. It is a lot of rhetoric and 
very little substance to the investment that we need in the 
Great Lakes. But it is part of the whole regime that we are 
talking about here. We are saying that we need to have a 
governance response and we need to have a science response, and 
both of those come into play for the Great Lakes.
    On the governance side, we have mentioned to Congress in 
our reports we need to codify and strengthen NOAA. That should 
be a pigh priority of this Committee to pass a NOAA Organic 
act. NOAA should focus on three core functions: assessment, 
prediction, operation; research and education; and marine 
resource and area management; a realignment that would benefit 
the Great Lakes.
    Congress should also request a National Academies study to 
make organizational recommendations for a national climate 
change response office. That could deal with the Great Lakes 
issue. It should also require an integrated budget in support 
of the national climate change response office.
    This Committee, members of this Committee here and other 
committees, sent a letter 2 years ago to the White House 
saying, we want an integrated ocean policy budget submission. 
If you want to send them up this way, from 15 agencies, that is 
fine, but horizontally integrate them and get them up here, so 
we can tell; are you doing anything. So far we have not seen 
such a budget, so the answer is no, they are not doing 
anything. So it is all superficial stuff.
    So again, the Great Lakes get affected by all that.
    We say codify and strengthen the White House Committee on 
Ocean Policy. Could this work in the current system? Yes. All 
the President would have to say is: Do it, Mr. OMB, and do it, 
Mr. Adviser, the Policy Adviser. That happened to me when I was 
Secretary of Energy. I wanted to clean up the bomb factory 
after 40 years when the Cold War ended. It was President H.W. 
Bush who said: No, Mr. Secretary of Defense, I know it is 
coming out of your hide, but we are going to do it. We went 
from $800 million a year to $6 billion. Now it is $7 billion. 
We are turning Rocky Flats back to the State of Colorado, 
Fernault back to the State of Ohio.
    So we can work with the current system if we want to do it. 
So it really starts in the White House. I think if they took 
the lead the Congress would respond very positively.
    So then we want to codify the Committee on Ocean Policy, to 
prevent it from disappearing, since it currently exists under 
an executive order. That is how NOAA was established via an 
executive order, and we do not want that any more. We want 
Congress to codify NOAA to give them responsibility, 
accountability, and resources. Of the $750 million a year over 
JOCI recommended, about 60 percent of that would go to NOAA, to 
support all the projects that we have outlined in our report.
    So that addresses the governance issue. On the science 
side, we say fund the climate-related research priorities in 
the administration national ocean research priorities plan. 
They have a plan that was released in January. Fund it. And you 
know, in the initial funding for the plan they allowed NASA to 
refuse funding to support its Earth sciences. So I do not trust 
implementation of that plan solely by the Administration. So 
Congress has to codify it and say: No, we expect it to do its 
job.
    Fund the Integrated Earth Observing System. We have heard 
that here today. We have got to have a comprehensive 
observation system. We have got to know what is going on out 
there. And we can build on that. It is 50 percent completed 
now, but not in the ocean. There is not even close to 50 
percent there. We are way down at the bottom of the heap in 
terms of our science, technology, data management, ability to 
convert data into useful product.
    Senator Cantwell. Admiral Watkins, if I could jump in here, 
are you suggesting that we incorporate the oceans impact when 
we are talking about setting a target for CO<INF>2</INF> 
emissions reduction? And if we were, how would you do that?
    Admiral Watkins. Well, the Oceans Commission was never 
tasked by the Congress to do that. We are on the fringes of it 
because we kept running into the time. But we could not address 
it. So we did not feel we had the mandate out of Congress to 
deal with greenhouse gas mitigation. Obviously, as Secretary of 
Energy when I was there we did. We ran some of the ocean flux 
studies. We ran the carbon cycle. We put a lot of emphasis in 
this.
    I think it dissipated at that point. So I have some 
personal views on it, but I do not have any clues as to--you 
know, there has been so much talk about this, to give a 
specific number and set these. I am on the same wavelength as 
some of the witnesses this morning on doing both mitigation and 
adapting, and adaptation. We have not addressed the subject of 
adaptation at all and that is sad, because for the next two and 
a half decades, no matter what we do with greenhouse gas 
reduction, we are going to have a problem of global warming. It 
is there for us to deal with and we have got to manage our way 
through it. So we need both.
    Senator Cantwell. Well, let us turn to Dr. Feely on that so 
we can understand, because I think that the Fiscal Year 2008 
budget would decrease about 14 percent from the 2006 level 
research related to acidification. Is that correct?
    Dr. Feely. Yes, Senator, that is correct.
    Senator Cantwell. And we do not have any money for 
adaptation?
    Dr. Feely. Well, the research that is presently being 
provided for directly funding ocean acidification research is 
about $1.6 million per year throughout all the Federal 
agencies. There is an additional $4 million per year that is 
being funded within NOAA on related activities to ocean 
acidification, but they are not directly funding ocean 
acidification research.
    We draw from that additional related research to identify 
and proceed on ocean acidification studies. But they are not 
directly funded for doing ocean acidification studies.
    Senator Cantwell. You have suggested, I think, four themes. 
One would be--in this research realm. One would be monitoring. 
Another would be understanding the response of the animals to 
acidification, ecosystem modeling, and risk assessments.
    Dr. Feely. That is correct.
    Senator Cantwell. So do you have a sense of how much that 
would cost in the context of where we are today and where we 
need to get a clear picture of ocean health and a plan?
    Dr. Feely. Well, we have discussed this in a number of 
workshops that involve the scientists that are doing ocean 
acidification research and related activities. In those 
workshops, the community has indicated that a national program 
on the order of $30 million per year would be appropriate.
    Senator Cantwell. Dr. Hansen, did you--in best practices on 
adaptation, what do you think are the key things that we should 
be looking at?
    Dr. Hansen. Well, the first thing is that we actually need 
the capacity to do this type of work. We are not training 
people to do this work whatsoever. We are also not raising the 
awareness of people that it needs to be done. Many people are 
still trying to pretend that climate change either is not 
happening or someone else is taking care of it. Unfortunately, 
it is a reality for all of us.
    So the sort of steps that I have laid out in my testimony 
and that my colleagues and I have been talking about is first 
the need to train the next generation of people who will be 
taking this on, as well as getting ourselves up to speed on it; 
developing some sort of extension agency that actually is going 
out, raising awareness about this issue, engaging people on 
what the options are, getting them to implement them, and 
taking the lessons back to synthesize and provide the next 
generation of guidance.
    Then finally, we need to be incorporating climate 
adaptation into literally everything that is being done in 
national and local and international legislation, quite 
frankly, where we are preparing all of the projects we are 
working on so that they are climate-prepared, be it in coastal 
infrastructure, preparing it for sea level rise, be it 
agriculture, preparing it for periods of drought or movement of 
pest species, forestry, preparing for increasing fire regimes, 
fisheries, preparing for movement and new management 
strategies.
    Literally every sector of our society is and will continue 
to be impacted by climate change for decades to come, and we 
are grossly underprepared for that.
    Senator Cantwell. Dr. Kruse, it seems that you are kind of 
on the front lines there in Alaska with the polar bears and 
walruses and seals being impacted by melting ice. What can 
managers do on these species?
    Dr. Kruse. Thank you for your question. Certainly these 
climate changes are out of the purview of fisheries managers, 
but fisheries managers need to deal with the ramifications. So 
one of the clearest things we can do is be more precautionary. 
So if there is potential for fishery interactions with either 
of those species directly or indirectly through their prey 
base, I think we have to be more precautionary.
    As I indicated briefly in my oral remarks and more fully in 
my written remarks, the North Pacific Fishery Management 
Council is looking at establishing perhaps an Arctic Fishery 
Management Plan that would basically set those areas off 
limits, particularly with an eye toward the loss of sea ice. 
The loss of sea ice reduces habitats for the ice seals and 
polar bears. Associated with the loss of sea ice, we may see a 
switch from that system, which is a more benthic system that 
support prey of birds like the spectacled eiders and walruses 
to a pelagic system. Realizing that these changes are 
happening, maybe it is best to not allow any fishing there.
    At their next meeting in June 2007, the North Pacific 
Fishery Management Council is looking at defining what we call 
essential fish habitat. They will consider basically freezing 
the northern boundary of the current areas that are being 
fished in the Bering Sea, even realizing that fish may move 
north, into previously unfished areas wtih increasing 
temperature. The problem is that we simply do not have data nor 
surveys up there, so we do not know what is there, and we 
realize that these northern ecosystems can be very fragile with 
respect to species, such as some of the seabirds, the marine 
mammals. Certainly the coastal residents of those northern 
areas make use of those marine resources and really depend on 
them for their survival.
    So being more precautionary I guess is the short answer.
    Senator Cantwell. Dr. Conover, do we have to take this into 
consideration in implementing the Magnuson-Stevens Act?
    Dr. Conover. Yes. I think one of the most important shifts 
that we are seeing in how we manage marine resources is to take 
a more ecosystem-based approach. In an ecosystem-based 
approach, then the impacts of climate change can be folded into 
the decisions we make about how heavily we can harvest various 
species or whether we need to back off.
    A lot of the things we see happening in my region of the 
world go beyond just the impacts of harvesting and include 
diseases, the impacts of water quality, hypoxia, and all those 
end up having an impact on the abundance of the species we are 
trying to protect. So using an ecosystem approach, which really 
we have only begun to do recently, lends itself to thinking 
longer term rather than year to year, and including 
expectations of climate change in that approach.
    Senator Cantwell. Admiral Watkins, I am going to give you 
the last word, with the emphasis on ``last.'' But if you could 
briefly, what do you think that we need to change from a policy 
perspective? Why from a political sense are we not getting this 
done? What are the road blocks and what do you suggest that we 
do to take the information we have had to date at this hearing 
and integrate that into policy action?
    Admiral Watkins. Well, you used the term here ``ecosystem-
based management.'' That is not a trivial issue. Eyes roll back 
when you tell that to the public, but in Washington we know 
what it means. It means major reorganization of how we do 
business here. Horizontal integration across Federal agencies, 
up here on the Hill and so forth becomes very important when 
you get into climate change practices. We cannot separate these 
things. So we have to kind of back away from the old way of 
doing business, take advantage of the information technology 
world we live in, bring business and industry into the game to 
help us build these architectural systems that we want to 
observe, get the database straightened out, be able to convert 
that data to useful products at the local, county, State 
levels.
    We should be able to do all this, but the current 
governance regime is a big hindrance right now. There is no 
process to integrate activities across the Federal Government. 
That is what we have got to deal with. That is why we put so 
much emphasis on governance. It is not that governance will 
answer everything. Obviously, you have to have a budget and you 
have to have educational programs. You have to have a lot of 
things. But if we are going to spend the money right, we better 
do it right, and we better do it the way nature does it. We 
fouled it up by managing it piecemeal, vertically. Nature 
beautifully integrates horizontally and tells us what the 
problem is. And we need to listen to that, and then we need to 
manage within the natural process, and we are not doing that 
today at all.
    So that is why I put so much emphasis on governance. And 
obviously the science is the other critical component. We have 
not put adequate emphasis on it. When the President announced 
his new American Competitiveness Initiative two years ago in 
the State of the Union Address, oceans were not in the game. 
They are not even considered in this.
    So we have not put emphasis on science, in particular, 
ocean science. The Office of Science and Technology Policy also 
used to be the Science Adviser to the President. He is no 
longer the Science Adviser to the President. It was removed. Is 
science important to the administration or not? I do not think 
so, not sufficiently important, particularly when you get into 
this area of climate change.
    So we have got a major job to do in the way we look at 
this, and that is why, because the Senate has been so receptive 
to our work over the last few years, we are kind of counting on 
the Senate to take the lead. We tried the White House and we do 
not get enough response. I do not know that Jim Connaughton is 
not doing a decent job, but he is not given the time of day and 
the strength to put the money into the budget process, to give 
you a budget up here that is other than what we have always 
done.
    I will say the administration this year in the 2008 budget 
finally put in a figure that was comparable to the 2007 
appropriated. They have never done that before. So is that a 
plus? Well, yes, I guess so, but not a big plus.
    Senator Cantwell. We will stop on that note.
    Admiral Watkins. Anyway----
    Senator Cantwell. Because we all do want to work together, 
and I appreciate your point. You had the scientists nodding at 
the other end of the table about how we should look more at the 
environment and its response from a systematic perspective.
    I will point out that I think the Pacific Northwest, 
particularly Washington State, has done fabulous work on two 
areas, timberfish and wildlife, which is industry working 
together with environmentalists. In fact, those ecosystem 
plans, if they are ever challenged, you get the industry 
officials as aggressively responding as you do the 
environmentalists. So I think it has been a good measure. I 
think Bill Ruckelshaus has done fabulous ecosystem work as it 
relates to salmon recovery in the Northwest, again working with 
a whole cadre of local governments, Native Americans, 
fishermen, industry officials across the board. So we may be a 
little bit more of a forerunner on that.
    And as I mentioned, the Pacific Northwest Fishery Council I 
think has been a forerunner in implementing environmental 
impacts and management into their fisheries policy ahead of the 
rest of the Nation. So we obviously do care greatly about our 
environment in the Northwest, including our ocean.
    So I want to thank all the panelists for a very detailed 
presentation about the challenges that we face with our oceans 
policy. Admiral Watkins, I hope that my colleagues will review 
all of this. Obviously, we are going to leave the record open 
for additional questions. If you could help us and comply by 
answering that in a quick fashion, we will leave the record 
open for a few weeks. But I hope my colleagues will take this 
hearing and take the testimony and take up the baton that you 
are passing to us to act and to consolidate this as part of our 
response to healthy oceans.
    So thank you all very much. We are adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Coral reefs have been called ``the rainforests of the sea.'' In 
addition to their great beauty, they offer critical habitat to a 
variety of marine organisms. Coral reefs cover less than 1 percent of 
the Earth's surface, but they provide resources and services worth 
approximately $1.4 billion annually to the U.S. economy. In the State 
of Hawaii, the economic value of coral reefs is estimated at more than 
$360 million annually.
    These diverse coral habitats have survived for millions of years, 
recovering from natural disturbances. However, the reefs are under 
threat from rising ocean temperatures and increasing ocean acidity. 
Scientists are observing coral bleaching that is more widespread and 
more severe, in some cases, severe enough to kill the corals.
    I am pleased the Administration is proposing legislation to 
reauthorize and strengthen the Coral Reef Conservation Act of 2000, 
legislation that I introduced in 1999 to establish the Coral Reef 
Conservation Program within the National Oceanic and Atmospheric 
Administration.
    However, this legislation will not be effective in protecting coral 
reefs if we do nothing to reduce carbon emissions.
    Coral reefs are just one of the kinds of living marine resources 
that are impacted by climate change. Scientific research has confirmed 
that emissions of greenhouse gases contribute to climate change and 
that such emissions are causing our oceans to become warmer and more 
acidic. These effects are harming our living marine resources. The 
science is also clear that these impacts will grow worse as long as we 
continue to do nothing to reduce greenhouse gas emissions.
    Therefore, I hope that our distinguished panel members will be able 
not only to help us understand these impacts, but also to suggest a way 
forward.
                                 ______
                                 
            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Madam Chairman, thank you for holding today's hearing.
    Despite the Bush Administration's ongoing efforts to censor and 
suppress science, there is no doubt that man-made global warming is 
real, and it threatens the health of our planet, including our oceans.
    The increase in carbon dioxide causes global warming and ocean 
acidification.
    NOAA researchers predict that oceans will continue to acidify to 
``an extent and at rates that have not occurred for tens of millions of 
years.'' Ocean acidification threatens our marine ecosystems. As the 
chemistry of our ocean changes, some marine life may not be able to 
survive.
    Acidic water damages our corals, for example, which provide vital 
habitat to many marine species, and plankton, the foundation of the 
marine food chain.
    In addition, the rise in ocean temperature has caused some fish to 
move to colder waters, posing challenges to our commercial and 
recreational fisheries.
    The combined effects of global warming and ocean acidification 
cannot be ignored. The potential environmental and economic cost to New 
Jersey--and coastal states across the country--is too great.
    I am concerned that the Administration is not taking the issue of 
ocean acidification seriously enough. In the Magnuson-Stevens bill we 
passed last year, Congress directed the National Research Council to 
report on ocean acidification and its impact on the United States. I 
have requested funding for this authorized study as a member of the 
Appropriations Committee, and I will work with my colleagues to see 
that the effects of ocean acidification are made a priority for this 
Administration.
    Thank you again Madam Chairman for beginning our work on this 
important issue.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Scott C. Doney, Ph.D.
    Question 1. Coral reefs are not just critical habitat for fish. In 
my state of Hawaii, they are also an economic engine supporting both 
fishing and tourism. Is ocean acidification or the increase in sea 
temperature the more pressing issue for protecting and preserving 
Hawaii's coral reefs and other marine resources and why?
    Answer. Surface ocean warming and acidification are two sides of 
the same coin because their root cause is the same, namely the human-
driven rise in atmospheric carbon dioxide. Therefore we need to address 
both issues simultaneously. Warming has already been linked to coral 
bleaching events. Acidification has been shown to limit coral growth in 
the laboratory, and more work is needed to assess the impacts on whole 
ecosystems. One concern is that the combined effect of temperature and 
warming may be much more harmful on coral reefs than either factor in 
isolation. Thus it is difficult to separate temperature and 
acidification effects and to assign one factor or the other as the most 
pressing issue; they are both important.

    Question 2. How can we incorporate actions to address these issues 
into an overall management strategy for protecting Hawaii's corals and 
other marine resources?
    Answer. Climate warming and acidification are global processes that 
are not easy to reverse at the local or state level (see below). 
Management strategies, however, can be developed to minimize their 
impacts on coral reefs and fisheries. The first step is to reduce the 
negative effects of other factors that are more amenable to local 
control. These include things like pollution, land runoff of excess 
nutrients, over-fishing, and habitat destruction. The second step is to 
create more adaptive, forward-looking management strategies that 
explicitly include climate warming and acidification in their design. 
For example, the catch limits for many fisheries are set based on 
historical levels of fish stocks. But the future ocean will not look 
like the past. Numerical climate models will provide some guidance for 
helping resource managers, but at present there remain relatively large 
uncertainties in our forecasts of the magnitude in climate change on 
regional scales and resulting biological responses. Following a 
precautionary principle, one strategy would be to lower present catch 
limits to provide an additional safety factor for unforeseen climate 
impacts and to closely monitor resource levels to maintain 
sustainability. Climate change and ocean acidification also need to be 
factored into the design of other management tools such as marine 
reserves or marine protected areas. For example, as species 
distributions shift with climate, will the size of a protected area be 
sufficient and will it still protect the target species of interest.

    Question 3. Dr. Doney, could you tell me what adaptation and 
mitigation steps you think the United States needs to take to address 
the threats that climate change and ocean acidification pose to our 
ocean resources?
    Answer. Increasing surface water temperatures and ocean 
acidification are driven by the human emissions to the atmosphere of 
greenhouse gases like carbon dioxide. The atmosphere mixes on time-
scales of months to a few years, and the climate impact of carbon 
dioxide emissions is global rather than local. Thus ocean warming and 
acidification require global solutions to limit the rise in atmospheric 
carbon dioxide. The most direct mitigation steps would be to reduce the 
amount of carbon dioxide released to the atmosphere. Reducing emissions 
can occur through shifts to non-fossil fuel energy sources, increases 
in energy efficiency, and deliberate actions to sequester carbon rather 
releasing it to the atmosphere. One of the more promising sequestration 
approaches appears to be storage of carbon dioxide in geological 
reservoirs, such as old natural gas and oil fields. There are also 
proposals to manipulate land and ocean ecosystems to remove some of the 
excess carbon dioxide in the atmosphere and increasing carbon storage 
plants, soils and the deep ocean. Adaptation strategies are discussed 
in the answer above.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Scott C. Doney, Ph.D.
    Question 1. The most rigorous mitigation goal in the recent summary 
report by the Intergovernmental Panel on Climate Change is to stabilize 
atmospheric greenhouse gas levels between 445 and 710 parts per million 
by 2030. But given that the current concentrations of atmospheric 
carbon are estimated at 379 parts per million, shouldn't this target be 
set at a much lower level if we are to effectively address climate 
change? What is the expected temperature increase of this range?
    Answer. The IPCC stabilization scenarios from the 4th IPCC 
Assessment report are discussed in some detail in the Technical Summary 
for Working Group III (Mitigation). I think the specific values of 445 
to 710 parts per million are drawn from Table TS. 2 (page 21 and 22 of 
the draft Technical Summary); the same table is given as Table SPM.5 on 
page 23 of the Summary for Policymakers. This table is somewhat 
confusing as it lists two columns of carbon dioxide (CO<INF>2</INF>) 
levels, one an actual CO<INF>2</INF> level and the other the 
``equivalent'' CO<INF>2</INF> level, that is the amount of 
CO<INF>2</INF> that would be needed to match the total radiative 
warming of excess CO<INF>2</INF> plus the other human driven greenhouse 
gases (methane, nitrous oxide, chlorofluorocarbons, etc.).
    (numbers from Table TS. 2; IPCC 4th Assessment, Technical Summary, 
Working Group III)

------------------------------------------------------------------------
                                                             Equilibrium
                                                 Equivalent  temperature
             Category               CO2 (ppm)    CO2 (ppm)      change
                                                               (deg. C)
------------------------------------------------------------------------
I                                      350-400      445-490      2.0-2.4
II                                     400-440      490-535      2.4-2.8
III                                    440-485      535-590      2.8-3.2
IV                                     485-570      590-710      3.2-4.0
V                                      570-660      710-855      4.0-4.9
VI                                     660-790    855-1,130      4.9-6.1
------------------------------------------------------------------------

    The most extreme stabilization scenario is for stabilizing roughly 
present day conditions (CO<INF>2</INF> of 350-400 ppm; equivalent 
CO<INF>2</INF> of 445-490 ppm) by 2100. This is a very rigorous goal 
and would require reductions of all greenhouse gas emissions by 2015 
and net removal of CO<INF>2</INF> by some means (e.g., growing biomass) 
toward the end of the century. A series of stabilization scenarios are 
then presented that allow for higher atmospheric CO<INF>2</INF> (and 
equivalent CO<INF>2</INF> because of the other greenhouse gases).
    Two different temperatures are often reported for stabilization 
scenarios, the transient temperature at some point in time along a 
pathway and the equilibrium temperature. Even once atmospheric 
greenhouse gas levels are stabilized, the planet will continue to warm 
for an extended period of time. The temperature differences given above 
are for the equilibrium global mean temperature. Equilibrium 
temperature changes relative to pre-industrial levels are estimated by 
IPCC to range from 2.0-2.4 deg. C for the most aggressive stabilization 
scenario (marked I in the table above). The temperature increases grow 
as higher stabilization CO<INF>2</INF> levels are allowed, reaching 
4.9-6.1 deg. C for the most lenient case examined. Even these values 
are considerably less than some business as usual scenarios considered 
in IPCC.

    Question 1a. What would be the impacts on our ocean resources if we 
were to reach these emissions levels?
    Answer. Even if we were to eliminate all greenhouse gas emissions 
to the atmosphere, the ocean and the planet would experience some 
additional amount of warming and acidification beyond current levels 
(global mean temperature increase of 0.76 <plus-minus> 0.19 deg. C and 
surface pH drop of -0.1 units) because of the inertia in the climate 
system. Even the most aggressive IPCC stabilization scenarios lead to 
further warming and acidification beyond what we have already 
experienced (see above). Broadly speaking, there is a strong consensus 
that reducing the total amount of climate change will lessen the 
impacts of climate change and acidification on ocean resources. For 
some specific ecosystems we can make estimates of the trends such as 
reductions of some species and increases in others, poleward shifts in 
the ranges of warm-water species, further degradation of coral reef 
systems, etc. Making more detailed, quantitative forecasts for 
biological systems comparing the impacts for one stabilization scenario 
versus another is more difficult at present because of uncertainties in 
our scientific understanding. Biological systems are not linear, and it 
is likely that at least for some regions with larger climate change and 
acidification ecosystems will reach thresholds beyond which there will 
be significant and dramatic changes in ocean resources. Equally 
important is the rate at which the changes are occurring. Faster rates 
of climate change and acidification give species less time to adapt or 
to migrate to different regions where conditions may be more favorable. 
Faster rates of change also introduce additional social and economic 
problems, particularly when significant changes happen over a time-
scale short relative to the lifetime of infrastructure used for a 
particular ocean resource (e.g., fishing fleets).

    Question 2. How can we improve our ocean and Earth observation 
programs to ensure understanding of the impacts of global climate 
change and ocean acidification on the marine environment?
    Answer. The U.S. and other countries are putting in place elements 
that will contribute to a global ocean observing system, but there 
remain a number of gaps in such a system. First, much of the current 
in-water observing network measures physical properties of the ocean. 
Documenting ocean physical changes is key, as physical changes drive 
biological changes. But there needs to be a corresponding rapid 
expansion of in-water chemical and biological properties. In some 
cases, we need to invest in the development and testing of new sensors 
to routinely measure seawater chemistry and biology. For example, there 
is an international network that uses volunteer observing ships (cargo 
freighters, research vessels) and some moorings to measure surface 
ocean carbon dioxide levels. Given concerns with ocean acidification, 
that network needs to be expanded in scale (e.g., by using autonomous 
drifters and profiling floats) and in scope by including pH 
measurements.
    Second, the U.S. needs to maintain and extend the capability to 
monitor ocean trends from space using satellite-based remote sensing. 
For ocean biology, sensors measuring ocean color, a proxy for surface 
water phytoplankton chlorophyll, have been invaluable in understanding 
biological spatial patterns and dynamics on time-scales from seasonal 
to multi-year. We will soon have 10 years of data from the NASA and 
GEOEYE SeaWiFS sensor. The future of U.S. ocean color remote sensing 
and other routine satellite ocean measurements is somewhat in doubt 
with the transition of many measurements from NASA research mode to an 
operational mode under NPOESS by NOAA and DOD. In particular, the 
requirements for long-term climate data records (e.g., consistency 
across time and across satellite platforms) can be more demanding than 
those for operational needs, and it is not clear that the appropriate 
investments are being made within NPOESS.

    Question 3. What are the potential impacts of some of the currently 
proposed climate change mitigation strategies on the marine 
environment--such as iron stimulated plankton blooms or injection of 
CO<INF>2</INF> into sea sediments?
    Answer. Ocean iron fertilization has been proposed as a carbon 
mitigation strategy because phytoplankton growth is limited by the 
availability of the trace nutrient iron in some oceanic regions. As 
indicated by the results from about a dozen deliberate experiments, 
adding iron causes the plant-like phytoplankton to bloom, drawing down 
seawater carbon dioxide levels. What is not clear, however, is the 
long-term fate of the newly formed organic matter. If this material is 
converted back to carbon dioxide in the surface ocean by respiration, 
the net effect on ocean carbon storage will be small. If on the other 
hand some of the carbon is transported to the deep ocean, iron 
fertilization could act to sequester carbon and lower atmospheric 
carbon dioxide levels.
    Several concerns have been raised about the potential impacts of 
iron fertilization:

        1. To be effective, iron fertilization must alter ecosystem 
        dynamics, and the environmental consequences on other parts of 
        the food web are not well understood. For example, how will 
        iron fertilization effect fisheries? Will it increase the 
        likelihood of harmful algal blooms? Because of ocean 
        circulation, the environmental impacts of iron fertilization 
        may arise either locally near the fertilizationsite or non-
        locally downstream.

        2. Iron fertilization may stimulate the production and release 
        to the atmosphere of other climate greenhouse such as nitrous 
        oxide and methane. Since these gases are much more potent 
        greenhouse gases on a per molecule basis, the release of these 
        gases may greatly decrease the effectiveness of iron 
        fertilization as a mitigation approach.

        3. Increased carbon export to mid and deep-ocean could decrease 
        subsurface oxygen levels, increasing the size of oxygen minimum 
        zones.

    Two other proposed carbon mitigation strategies include direct 
injection of carbon dioxide into the deep ocean water column or into 
deep-sea sediments. Deep-sea sediment injection would have local 
impacts on benthic (bottom) and water-column ecosystems because of the 
infrastructure required for injection. If the leakage of carbon dioxide 
into the overlying seawater can be minimized, the environmental 
consequences on the ocean water column will be relatively small. Direct 
injection of carbon dioxide into the ocean deep waters will result in a 
lowering of seawater pH and ocean acidification. Locally around the 
injection site the resulting acidification will be much larger than 
that observed in the upper ocean. Extrapolating from studies of surface 
species, one should expect significant negative impacts on calcifying 
species (deep-sea corals, mollusks). Some studies suggest only minimal 
acute (short-term) effects on fish; less clear are the longer-term, 
chronic effects. There will also be local dissolution of carbonate 
bottom sediments. Some injection schemes involve pumping down liquid 
carbon dioxide, which is heavier than seawater and will form 
concentrated pools along the ocean bottom. Benthic life will be 
destroyed underneath the liquid carbon dioxide pools, but the effected 
area would be considerably smaller than if the carbon dioxide were 
dispersed in the seawater. The environmental impacts will depend upon 
the extent to which the liquid carbon dioxide mixes into the overlying 
seawater.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Scott C. Doney, Ph.D.
    Question 1. According to NOAA, about 4,000 species of fish, 
including approximately half of all federally-managed fisheries, depend 
on coral reefs and related habitats for a portion of their life cycles, 
and the National Marine Fisheries Service estimates that the value of 
U.S. fisheries from coral reefs exceeds $100 million. Will corals and 
plankton be able to survive or adapt to more acidic waters in our 
oceans?
    Answer. Our current information on the impacts of ocean 
acidification is based almost entirely on short-term (days to months) 
studies of shell forming plants and animals to large increases in 
carbon dioxide. Higher CO<INF>2</INF> will affect other organisms (non-
shell forming plankton, juvenile fish, etc.) but there is considerably 
less data on non-calcareous (shell forming) organisms. Most of the 
experiments to date have been conducted either in the laboratory or in 
small controlled conditions (for example, outdoor seawater tanks or 
floating tethered bags filled with seawater). The observed effects of 
acidification include decreased calcification rates (slower shell-
formation), reduced growth rates, and in some cases reduced 
reproduction rates. Extrapolating from those results to the ocean, 
where the rise in carbon dioxide will be more gradual, involves 
considerable uncertainties.
    The ability of calcifying organisms to survive or adapt to high 
CO<INF>2</INF> conditions likely varies from group to group. Some types 
of organisms, such as phytoplanktonic coccolithophores, have species or 
ecotypes that can survive without a calcareous shell, and under high 
CO<INF>2</INF> conditions the population may shift toward the non-
calcareous variants. The shells of other groups of calcareous organisms 
such as pteropods (planktonic marine mollusks) and most corals appear 
to be integral to their life history. Most organisms experience 
variations in seawater chemistry naturally due to seasonal cycles and 
year to year variability. It is not well known the degree to which 
organisms may possess mechanisms to adapt to small levels of 
acidification or the extent to which those mechanisms would be 
effective (even over decadal time-scales) against the significant 
levels of acidification projected by the middle to end of this century. 
A recent study (Fine and Tcernov, Science, Vol. 315, page 1811, 2007) 
showed that a Scleractinian coral species could grow as individual 
polyps without shells at high CO<INF>2</INF> levels; while this 
demonstrates survival to acidification, the ecological impact of these 
naked polyps would be dramatic as they no longer would contribute to 
reef formation.

    Question 1a. If they cannot, what are the implications for other 
marine species and the ocean's food chain?
    Answer. Calcareous organisms are important components of ocean food 
webs, and the reductions in calcareous organisms due to acidification 
likely will have broad ecological effects. The gradual build-up of 
warm-water coral skeletons produces reefs that provide habitat for some 
of the richest marine ecosystems on the planet. The size of reefs 
reflect a dynamic balance between calcium carbonate production that 
adds to the reef and loss processes (storms, human reef destruction, 
etc.) High CO<INF>2</INF> conditions will likely shift the balance and 
may cause a reduction in the size of reefs. Similar decreasing trends 
for cold-water corals would result in habitat loss on the continental 
shelf and slope in temperate to polar latitudes. Planktonic calcareous 
organisms play important roles as prey for larger species. For example 
pteropods (small planktonic snails), which are abundant in the North 
Pacific and Southern Ocean, are eaten by fish (e.g., salmon) and baleen 
whales. At present it is not clear how the impacts of acidification 
will filter through the rest of the ecosystem and whether and how 
predator species will adjust to the loss calcareous prey.

    Question 1b. Species have migrated in response to ocean temperature 
changes. Will marine organisms migrate to avoid acidification?
    Answer. The ranges for calcifying species are expected to shift in 
response to acidification. Most experiments show that organisms are 
sensitive to the carbonate ion concentration and the saturation state 
for carbonate minerals, both of which decrease as pH declines. Seawater 
carbonate chemistry varies with temperature, and under present 
conditions saturation decreases as one moves poleward. Under a high 
CO<INF>2</INF> world, species ranges therefore would have to shift 
equatorward to maintain the same saturation state. In contrast, global 
warming will drive species ranges poleward. One concern is that the 
opposing forces of warming and acidification will eliminate the 
combined temperature and saturation state niches to which some 
organisms are adapted.

    Question 2. There have been ocean acidification events in the past 
that have resulted in the disappearance of marine organisms, including 
corals. What does the fossil record reveal about the adaptation of 
marine organisms to changes in ocean acidification?
    Answer. Several different lines of geological evidence suggest that 
ocean seawater carbonate chemistry has varied in the past in response 
to alterations in atmospheric carbon dioxide levels and variations in 
the weathering rates on land and deposition rates of carbonate minerals 
in the ocean. Several processes buffer (damp) ocean pH variations on 
the gradual time-scales of several thousand to several hundreds of 
thousands of years that characterize many geological changes. The 
current rate of ocean acidification is many times that of prehistoric 
rates and because of the slow time-scales of ocean buffering the pH 
changes over the next several centuries may be much larger than those 
experienced throughout most of the geological record. Ocean pH levels 
have already dropped by 0.1 since the preindustrial period, comparable 
to the pH change thought to have occurred between glacial and 
interglacial cycles, and an additional pH decrease of 0.14-0.35 may 
occur by the end of this century.
    Past analogues to present acidification may have occurred in 
several catastrophic events in the geological record where it appears 
that large amounts of carbon dioxide were released rapidly into the 
atmosphere-ocean system, resulting in ocean acidification and dramatic 
reductions in marine carbonate burial. The more extreme episodes are 
associated with minor to major biological extinction events, which 
because of the way the geological time-scale was originally developed 
using paleofossils, often fall at the boundaries of geological periods. 
A number of hypotheses have been proposed (e.g., isolated refuges) for 
why some species (or groups of species) survive these acidification 
events and others do not, but the exact reasons are not well 
understood.

    Question 2a. How long did it take for corals and other marine 
organisms to recover from the acidification events in the past?
    Answer. The recovery time-scales to past geological events most 
likely were determined by both biology and geochemistry. One of the 
best documented events occurred during the Paleocene-Eocene thermal 
maximum (PETM) about 55 million years ago. The PETM is marked by rapid 
increases in temperature and alterations in the ocean carbonate system 
over about 1,000 to 10,000 years followed by a more gradual relaxation 
over several hundred thousand years. A large acidification event throws 
off the balance of alkalinity input and removal from the ocean, and the 
hundred thousand year relaxation timescale can be explained as the 
amount of time required for the ocean alkalinity cycle to come back 
into balance through carbonate and silicate weathering on land. There 
is only a limited fossil record to reconstruct what happened to 
calcifying organisms during the PETM because carbonate sediments are 
not buried under acidic conditions. Following the PETM, there was a 
biological radiation of calcifying organisms.

    Question 3. Dr. Feely indicates in his statement that ``the 
atmospheric concentration of carbon dioxide is now higher than 
experienced on Earth for at least 800,000 years and is expected to 
continue to rise*the oceans are absorbing increasing amounts of carbon 
dioxide . . . and the chemical changes in seawater resulting from the 
absorption of carbon dioxide are lowering seawater pH.'' Have 
scientists determined a dangerous level of pH that we need to avoid?
    Answer. A report from the German Advisory Council on Global Change 
(WBGU) recommends that the surface seawater pH decrease from 
preindustrial conditions be limited to 0.2 pH units or less on scales 
of either individual ocean basins or the global average (Schubert et 
al., 2006). Estimates are that surface pH has already decreased by 0.1 
since the preindustrial (30 percent drop in H<SUP>+</SUP> 
concentration); a pH drop of 0.2 would result in a 60 percent decline 
in H<SUP>+</SUP> concentration. Lower pH increases the solubility of 
calcium carbonate minerals (aragonite and calcite) making it more 
difficult for marine organisms to make shells, and the rationale used 
by Schubert et al., 2006 is that we should avoid a pH drop large enough 
to drive aragonite understaturated in surface water (aragonite is the 
more soluble mineral form used by corals and pteropods). The 0.2 pH 
criteria is set by the surface waters of the Southern Ocean, which are 
already close to undersaturation.
    R. Schubert R., H.-J. Schellnhuber, N. Buchmann, A. Epiney, R. 
GrieBhammer, M. Kulessa, D. Messner, S. Rahmstorf, J. Schmid, 2006: The 
Future Oceans--Warming up, Rising High, Turning Sour, Special Report 
from German Advisory Council on Global Change (WBGU), ISBN 3-936191-14-
X, http://www.wbgu.de 110 pp.

    Question 3a. At the current rate of carbon dioxide emissions, how 
long will it take for the oceans to reach a dangerous level of pH?

    Question 3b. Have scientists determined at what level of carbon 
dioxide concentrations we need to maintain in order to avoid this 
dangerous level of pH?
    Answer. Few model simulations have been run with constant present-
day emissions so question b) is a little difficult to answer directly. 
Rather most model simulations have been conducted either with either 
IPCC scenarios of carbon dioxide emissions or atmospheric carbon 
dioxide stabilization trajectories. Orr et al., 2005 report that the 
0.2 pH criteria would be reached and wide-spread aragonite 
undersaturation would occur in the Southern Ocean with IPCC business as 
usual emission scenarios between 2060-2075. Based on scenarios to 
stabilize atmospheric carbon dioxide by 2100, Calderia and Wickett 
found that a carbon dioxide stabilization target of 540 ppm would lead 
to a global surface pH drop of 0.23, exceeding the 0.2 criteria. A 
carbon dioxide target of 450 ppm would lead to a global drop of 0.17 pH 
units.
    Caldeira, K. and Wickett, M.E. Anthropogenic carbon and ocean pH. 
Nature 425, 365 (2003).
    Orr, J.C., V.J. Fabry, O. Aumont, L. Bopp, S.C. Doney, R.A. Feely, 
A. Gnanadesikan, N. Gruber, A. Ishida, F. Joos, R.M. Key, K. Lindsay, 
E. Maier-Reimer, R. Matear, P. Monfray, A. Mouchet, R.G. Najjar, G.-K. 
Plattner, K.B. Rodgers, C.L. Sabine, J.L. Sarmiento, R. Schlitzer, R.D. 
Slater, I.J. Totterdell, M.-F. Weirig, Y. Yamanaka, and A. Yool, 2005: 
Anthropogenic ocean acidification over the twenty-first century and its 
impact on marine calcifying organisms, Nature, 437, 681-686, doi: 
10.1038/nature04095.

    Question 4. In light of the latest findings published last month in 
the journal Science in which the biological consumption and 
remineralization of carbon in the ``twilight zone''--a zone in the 
ocean where some sunlight reaches but not enough for photosynthesis to 
occur at ocean depths between about 660-3300 feet--actually reduces the 
efficiency of sequestration (Buesseler, et al., Science 316, 567, 
2007). What does this mean for the future of carbon sequestration in 
our ocean if carbon is recycled back into the surface ocean and 
atmosphere faster than originally thought?
    Answer. Ocean scientists have known for several decades that much 
of the particulate organic matter that sinks out of the surface layer 
is consumed in the mesopelagic (300-3,300 feet depth in the ocean). One 
metric used to evaluate this consumption is the respiration or 
remineralization length-scale, a measure of how vary down the water 
column an average particle sinks before it is consumed and the organic 
carbon turned back into dissolved inorganic carbon. The Buesseler et 
al., study in Science magazine examined two regions, a low productivity 
region off of Hawaii and a higher productivity region off Japan. They 
deployed a new instrument (a floating sediment trap) that should 
reduces biases in estimates of sinking particle flux. The major new 
contribution of the paper was to better elucidate that the length-scale 
for organic carbon differs from region to region. The length-scale near 
Hawaii was quite short (most of the sinking material was consumed in 
the upper water-column, while the length-scale off Japan was longer (a 
larger fraction of the material sank deeper in the water column).
    So far the experiment has been conducted at two sites and for 
relatively short periods of time (a few weeks). The findings do not 
necessarily imply that organic carbon is recycled shallower in the 
water column than was previously thought as the results from the two 
sites bracket the standard length-scale estimate derived from previous 
studies. These results do have implications for ocean biological carbon 
sequestration strategies in that in order to compute the effectiveness 
of a fertilization experiment, one likely needs to better understand 
both the surface water and subsurface ecosystems.

    Question 4a. Do scientists know how much carbon sequestered to the 
deep ocean is being overestimated?
    Answer. The Buesseler et al., results do not change global average 
estimates of the carbon consumption rate with depth, which have been 
computed on large-scales (entire ocean basins) by geochemical 
techniques; the findings do suggest that there may be more spatial and 
temporal variability in the effectiveness of consumption.

    Question 4b. How has this changed what scientists think about how 
long carbon dioxide will be naturally sequestered and how long it will 
take material to resurface from the twilight zone?
    Answer. More field data from a diverse set of locations (and over 
the full seasonal cycle) will need to be collected before this question 
can be addressed with any confidence. Currently the results bracket 
prior estimates and thus there is no immediate reason to think that our 
present understanding of the ocean carbon system is too greatly wrong. 
The Buesseler data does suggest that there is great spatial and 
temporal heterogeneity in remineralization length-scales. Such data may 
also help us better characterize the underlying mechanisms driving 
subsurface organic matter consumption, and important factor if we are 
to understand how the ocean carbon system may change with evolving 
climate.

    Question 5. It is essential to start a global research and 
monitoring program for ocean acidification. We should be utilizing the 
observing systems already in place including the undersea research 
program. What are your recommendations for utilizing the current 
infrastructure of ocean observing systems and satellites to monitor 
ocean acidification?
    Answer. The current ocean observing system has only limited 
capabilities to monitor ocean acidification directly but can be 
enhanced with targeted investments. At present there is a large in-
water observing system to measure ocean physical variables. For 
example, the Argo global array of profiling floats of greater than 
2,800 instruments now routinely measures temperature and salinity of 
the upper 1,000 meters (3,300 feet) of the ocean. There is an 
international network that uses volunteer observing ships (cargo 
freighters, research vessels) and some moorings to measure surface 
ocean carbon dioxide levels. But the spatial and temporal coverage is 
much more restricted than the physical observing network, any many 
cases pH is not measured directly, and the measurements are typically 
limited to the upper few meters of the water column. The U.S. and 
international CLIVAR CO<INF>2</INF> and Repeat Hydrography Program 
surveys subsurface pH and ocean carbonate variables but on only a 
limited number of transects and on a time-scale of one occupation of 
each transect approximately every 10 years. Even larger gaps exist for 
monitoring pH in coastal waters, where the requirements for high 
density measurements are great because there are larger variations in 
space and time. There are pilot efforts underway within NOAA Coral Reef 
Watch program to instrument several coral reefs for routine that would 
serve as a model for other regions. Given concerns with ocean 
acidification, the ocean network of chemical and biological 
measurements needs to be expanded in scale (e.g., by using autonomous 
drifters and profiling floats) and in scope by including pH 
measurements and other relevant variables related to biological 
responses to acidification (e.g., calcification rates; particulate 
calcium carbonate concentrations, etc.). To do this, we need to invest 
now in the development and testing of new sensors to routinely measure 
seawater chemistry and biology on autonomous platforms.
    Satellite remote sensing cannot measure ocean pH directly but does 
provide a host of valuable information for assessing ocean 
acidification and its biological impacts that complements the 
information available from in-water sensors. Satellite sensors can be 
used to locate and access the size of coral reefs. Blooms of planktonic 
coccolithophores (a phytoplankton group with calcium carbonate shells) 
can also be measured from space under some conditions. Satellites 
provide a regional context for in-water measurements because satellites 
often measure ocean properties over a wider window in space and time. 
Data analysis methods are also being developed for estimating surface 
water chemistry based on empirical relationships with physical and 
biological variables that can be measured from space (e.g., 
temperature, chlorophyll) or estimated from ocean numerical models. The 
U.S. needs to maintain and extend the capability to monitor ocean 
trends from space using satellite-based remote sensing. For ocean 
biology, sensors measuring ocean color have been used to map the 
occurance and distribution of coccolithophore blooms from space. We 
will soon have 10 years of data from the NASA and GEOEYE SeaWiFS 
sensor. The future of U.S. ocean color remote sensing and other routine 
satellite ocean measurements is somewhat in doubt with the transition 
of many measurements from NASA research mode to an operational mode 
under NPOESS by NOAA and DOD. In particular, the requirements for long-
term climate data records (e.g., consistency across time and across 
satellite platforms) can be more demanding than those for operational 
needs, and it is not clear that the appropriate investments are being 
made within NPOESS. We also need to extend the capabilities of ocean 
remote sensing with new sensors focused on detecting changes in the 
ecological community (which species are present) and plankton 
physiology and targeting coastal and coral reef environments, which 
require high spatial resolution.

    Question 5a. What information can be gained from monitoring natural 
variations over a long time period of time and in several different 
oceanic regions?
    Answer. Ocean pH and related environmental conditions vary 
naturally in time (event scales such as storms, seasons, year to year 
variability) and in space (because of changes in temperature, upwelling 
of subsurface carbon rich water, and biological photosynthesis and 
carbon drawdown). A better understanding of the magnitude of those 
changes and the resulting biological responses is critical to 
unraveling the mechanisms by which acidification impacts ocean 
ecosystems. Consistent long term records of pH trends and biological 
responses (e.g., calcification rates) would provide data to evaluate 
and test the climate models used to make future forecasts. More robust 
models would provide increased confidence to the decisionmakers and 
stakeholders using these forecasts. Better monitoring also would allow 
scientists to identify the environmental conditions under which 
calcifying organisms grow today and the extent to which present 
acidification and natural variations are already impacting calcifying 
organisms and whole ecosystems. Together with targeted laboratory 
experiments and field process studies, a monitoring network will help 
elucidate the ability of organisms to adapt to acidification and the 
changes that will occur to other parts of the ocean food web if 
calcifying organisms are harmed by acidification.

    Question 6. This year I requested funding through the 
Appropriations Subcommittee on Commerce, Justice, Science to fund the 
National Research Council report on ocean acidification mandated by 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act. Has NOAA yet identified the compelling research needs for this 
study?
    Answer. I am not aware that NOAA has finalized the scope of the 
proposed National Research Council report on ocean acidification, and 
if they have done so the research needs have not been made widely known 
to the public.

    Question 6a. If so, what are the research needs for this report?
    Answer. One concern is that if not properly framed the NOAA 
sponsored NRC report could be too narrowly focused solely on the needs 
and mission of a single agency (NOAA) and neglect the opportunities 
offered by an integrated, multi-agency strategy for ocean 
acidification. The U.S. scientific community has devoted considerable 
thought and effort into defining the most compelling and urgent 
research needs with regards to ocean acidification. These research 
needs are well articulated in a recent report from a workshop sponsored 
by the NSF, NOAA, and USGS (Kleypas et al., 2006). The recommendations 
of this report on the major scientific issues that should be pursued 
over the next 5-10 years include:

  <bullet> ``Determine the calcification response to elevated 
        CO<INF>2</INF> in benthic calcifiers such as corals (including 
        cold-water corals), coralline algae, foraminifera, molluscs, 
        and echinoderms; and in planktonic calcifiers such as 
        coccolithophores, foraminifera, and shelled pteropods;

  <bullet> Discriminate the various mechanisms of calcification within 
        calcifying groups, through physiological experiments, to better 
        understand the cross-taxa range of responses to changing 
        seawater chemistry;

  <bullet> Determine the interactive effects of multiple variables that 
        affect calcification and dissolution in organisms (saturation 
        state, light, temperature, nutrients) through continued 
        experimental studies on an expanded suite of calcifying groups;

  <bullet> Establish clear links between laboratory experiments and the 
        natural environment, by combining laboratory experiments with 
        field studies;

  <bullet> Characterize the diurnal and seasonal cycles of the 
        carbonate system on coral reefs, including commitment to long-
        term monitoring of the system response to continued increases 
        in CO<INF>2</INF>;

  <bullet> In concert with above, monitor in situ calcification and 
        dissolution in planktonic and benthic organisms, with better 
        characterization of the key environmental controls on 
        calcification;

  <bullet> Incorporate ecological questions into observations and 
        experiments; e.g., how does a change in calcification rate 
        affect the ecology and survivorship of an organism? How will 
        ecosystem functions differ between communities with and without 
        calcifying species?

  <bullet> Improve the accounting of coral reef and open ocean 
        carbonate budgets through combined measurements of seawater 
        chemistry, CaCO<INF>3</INF> production, dissolution and 
        accumulation, and, in near-shore environments, bioerosion and 
        offshelf export of CaCO<INF>3</INF>;

  <bullet> Quantify and parameterize the mechanisms that contribute to 
        the carbonate system, through biogeochemical and ecological 
        modeling, and apply such modeling to guide future sampling and 
        experimental efforts;

  <bullet> Develop protocols for the various methodologies used in 
        seawater chemistry and calcification measurements.''

    Kleypas, J.A., R.A. Feely, V.J. Fabry, C. Langdon, C.L. Sabine, and 
L.L. Robbins, 2006. Impacts of Ocean Acidification on Coral Reefs and 
Other Marine Calcifiers: A Guide for Future Research, report of a 
workshop held 18-20 April 2005, St. Petersburg, FL, sponsored by NSF, 
NOAA, and the U.S. Geological Survey, 88 pp.

    Question 7. About one-third of all man-made carbon dioxide 
emissions are absorbed into the ocean. However, at a certain point the 
oceans may no longer be able to absorb carbon dioxide at the same rate. 
If this happens, warming of the atmosphere will increase even more 
rapidly. Are we close to seeing the rate that the oceans absorb carbon 
dioxide slow down to a point that our global temperatures increase even 
faster?
    Answer. Several factors may decrease the future effectiveness of 
the ocean sink for anthropogenic carbon dioxide. The chemical buffer 
capacity of seawater decreases as the levels of inorganic carbon 
increase. Warming reduces the solubility of carbon dioxide. Surface 
warming and increased vertical stratification are also expected to slow 
ocean circulation, which will reduce oceanic carbon dioxide uptake. 
Carbon dioxide uptake would also decline if the ocean deep-water 
circulation in the North Atlantic were to slow dramatically. In 
numerical models, most of these factors decrease ocean carbon dioxide 
uptake rates gradually with time. Some effects are already being felt, 
and their influence will grow with time with global warming and rising 
atmospheric carbon dioxide.

    Question 7a. How does temperature affect the rate at which ocean 
acidification occurs?
    Answer. The dominant factor in ocean acidification is the increase 
in the amount of dissolved inorganic carbon in seawater. Some 
researchers have explored the impacts of climate change on ocean 
acidification, finding relatively small impacts relative to the signal 
from increasing dissolved inorganic carbon. Temperature plays a key 
role in determining the chemical impact of acidification. The 
saturation state of carbonate minerals in seawater depends on 
temperature. The saturation state of colder waters starts off lower 
than in warmer waters and will become under-saturated with respect to 
carbonate minerals before warmer waters.

    Question 7b. The Arctic Ocean is becoming warmer and fresher which 
may slow down thermohaline circulation. What are the implications of 
these changes on ocean acidification?
    Answer. Climate change is expected to warm and freshen the surface 
ocean in the Arctic and reduce sea-ice cover. The increased vertical 
stratification will reduce the transport of anthropogenic carbon 
dioxide into intermediate and deep-waters in the Arctic, reducing the 
influence of ocean acidification in mid- to deep-waters. In contrast, 
reduced sea-ice will enhance surface gas exchange, surface water levels 
of anthropogenic carbon dioxide and acidification.

    Question 7c. How does the increase in atmospheric carbon dioxide 
and subsequent warming affect atmospheric and oceanic circulation? Will 
the increase in atmospheric and ocean temperatures result in more 
frequent El Nino's and intense hurricane seasons?
    Answer. This a wide-ranging and complex question at the heart of a 
large research effort on climate change research within the U.S. and 
internationally. A broad-brush picture of the expected changes in ocean 
and atmosphere circulation are given in the 4th IPCC Assessment Report 
that was recently released (IPCC, 2007). A major factor is that global 
warming of the surface ocean will inject more water vapor into the 
atmosphere, strengthening the planetary water cycle and potentially 
providing more energy for storms. The Arctic and land surfaces will 
warm faster than the ocean, altering the temperature gradients that 
drive atmospheric circulation and winds. The Arctic will experience a 
reduction in sea-ice cover, particularly in summer, and a general 
warming and freshening of surface waters. Warming of the upper-ocean 
and inputs of additional freshwater at high latitudes will tend to 
increase vertical stratification of the upper water column and slow 
exchange between surface and subsurface water masses. Altered wind 
patterns will also change the location and strength of coastal and 
open-ocean upwelling.
    According to the Summary for Policy Makers for Working Group I, the 
following more specific trends are expected:

  <bullet> heat extremes, heat waves and heavy precipitation events 
        will become more likely;

  <bullet> tropical cyclones (hurricanes and typhoons) will likely be 
        more intense with larger peak wind speeds; there is still 
        considerable debate about whether the number of tropical storms 
        will change;

  <bullet> the stormtracks for extratropical storms are likely to move 
        poleward, altering precipitation patterns;

  <bullet> the amount of precipitation will likely increase at high 
        latitudes and decrease at subtropical latitudes; the latter may 
        exacerbate subtropical droughts;

  <bullet> the meridional overturning circulation and deep water 
        formation in the Atlantic will likely decrease but it is very 
        unlikely to undergo an abrupt transition over this century.

    There is less confidence in predictions of expected changes in 
ocean and atmosphere circulation on more regional scales because the 
model forecasts differ from climate model to climate model.

    Question 7d. Which ocean regions will be first to experience large 
changes in carbonate chemistry? How long before large changes occur?
    Answer. The entire surface ocean is already experiencing changes in 
carbonate chemistry, and these trends will increase approximately in 
step with rising atmospheric CO<INF>2</INF> concentrations. When 
anthropogenic CO<INF>2</INF> dissolves in seawater it decreases pH, 
increases the partial pressure of carbon dioxide (pCO<INF>2</INF>), and 
increases the concentration of dissolved inorganic carbon (DIC, the sum 
of all of the different inorganic forms of carbon dioxide, carbonic 
acid, and its acid-base dissociation products). Except in regions of 
seasonal and permanent ice-cover, the positive trend in surface water 
pCO<INF>2</INF> and DIC appears to approximately track the rise in 
atmospheric CO<INF>2</INF> levels following solubility equilibrium 
relationships. The magnitude of the pH change depends upon the 
buffering capacity of seawater; more rapid pH changes occur in colder 
waters and waters with higher DIC and pCO<INF>2</INF> levels for the 
same size incremental addition of carbon dioxide.
    The penetration of the anthropogenic carbon dioxide signal into the 
subsurface ocean is controlled by ocean circulation. The concentrations 
of anthropogenic carbon and perturbations to pH tend to decrease as one 
looks down the water-column. About half of all the anthropogenic carbon 
dioxide is found in the upper 400 m (1,200 feet) of the water column. 
Elevated levels of anthropogenic carbon are found below that depth in 
the lower thermocline (400-1000 meters depth) below the surface water 
convergence zones of the subtropical gyres and Southern Ocean. 
Anthropogenic carbon is also observed below the thermocline in and 
downstream of intermediate and deep-water formation regions in the 
northern North Atlantic and Southern Ocean.

    Question 8. How will lower calcification rates, due to an increase 
in ocean acidification, higher ocean temperatures, and changes in 
nutrients affect ocean carbon chemistry and carbon export rates?
    Answer. Acidification will tend to reduce the calcification in the 
upper ocean, the sinking flux (export) of particulate inorganic carbon, 
and the remineralization of particulate inorganic in the subsurface 
ocean. The effect of acidification on total biological productivity in 
the surface ocean may be about neutral, as it is likely that non-
calcifying organisms may be able to replace calcifying phytoplankton 
populations that are diminished due to acidification. Organic carbon 
export to the subsurface ocean via sinking particles is not directly 
proportional to biological productivity, but depends upon the 
composition of the food web. Organic matter has a density similar to 
seawater, and there is evidence indicating that heavier ballast 
materials, such as carbonate shells, increase organic matter sinking 
rates. The impact of reduced calcification on the export of organic 
carbon in the open ocean is less certain, but may also result in a 
reduction in export.
    Reduced inorganic export has the opposite effect as reduced organic 
carbon export on surface water chemistry and air-sea carbon fluxes. The 
formation of organic matter lowers seawater dissolved inorganic carbon 
(DIC) and lowers the partial pressure of carbon dioxide 
(pCO<INF>2</INF>), which governs the air-sea gas exchange of carbon 
dioxide. A reduction in organic matter export, therefore, would reduce 
the effectiveness of the biological pump and act to increase surface 
water and atmospheric CO<INF>2</INF> thus accelerating climate change. 
The formation of calcium carbonate (CaCO<INF>3</INF>) or calcification 
in surface waters lowers both seawater DIC and alkalinity (a measure of 
the acid-base balance of seawater). For each mole of CaCO<INF>3</INF> 
removed, DIC drops by 1 mole and alkalinity drops by 2 moles. Somewhat 
counter intuitively, calcification increases pCO<INF>2</INF> because 
the effect of the alkalinity change outweighs that of DIC. Therefore 
reduced carbonate export would act to decrease surface water and 
atmospheric CO<INF>2</INF> thus helping to ameliorate climate change. 
Preliminary model simulations, however, suggest that the calcification-
alkalinity feedback mechanism provides only a small brake on increasing 
atmospheric carbon dioxide due to fossil fuel combustion.

    Question 9. What are the expected changes to the biological pump--
the process which transports carbon throughout the ocean--due to the 
increase in carbon dioxide and what will be the consequences of these 
changes?
    Answer. Rising atmospheric carbon dioxide has two major effects on 
the ocean biological pump, altered ocean physics and ocean 
acidification. The impact of ocean acidification is addressed in the 
answer to question 8 above. Ocean physics will be altered because of 
carbon dioxide induced global warming and other changes in physical 
climate. Surface warming globally and larger freshwater inputs at mid- 
to high-latitudes will increase the vertical stratification of the 
water column.
    Many areas of the tropical and subtropical ocean are nutrient 
limited, and increased vertical stratification may decrease the supply 
nutrients to the upper ocean. In these areas, biological productivity 
and the sinking of organic particles, which drives the biological pump, 
may drop because of the reduced nutrient supply. One possible 
complication is nitrogen fixation; most organisms cannot use nitrogen 
gas, but a small number can convert nitrogen gas into an organic form 
that is broadly usable. Nitrogen fixation is enhanced in warm, 
stratified waters and may increase in the future under climate warming. 
Phytoplankton in some regions at mid- to high-latitude is currently 
light-limited because of deep mixing. Biological production and 
particle export may be enhanced in these areas because warming and 
freshwater inputs will reduce vertical mixing rates and thus light 
limitation. Model projections suggest that global ocean productivity 
may not change substantially.

    Question 10. Fossil-fuel use is also increasing the amounts of 
nitric and sulfuric acid deposition in the oceans. How will these 
elements alter surface seawater alkalinity and pH?
    Answer. Fossil fuel combustion releases reactive nitrogen and 
sulfur to the atmosphere. Some fraction is deposited to the surface 
ocean as nitric and sulfuric acid, which reduces surface seawater 
alkalinity. Agriculture releases reactive nitrogen that is deposited to 
the ocean as ammonia. Because of biogeochemical transformations, the 
ammonia input also leads to a reduction in ocean alkalinity. The 
changes in surface seawater chemistry will lead to lower seawater pH 
levels.

    Question 10a. Will the impacts of these elements differ in coastal 
waters versus open ocean and how may they affect marine ecosystems?
    Answer. The effects depend upon the deposition rates of reactive 
nitrogen and sulfur, which are highest in coastal regions and open-
ocean areas downwind of the major source regions in eastern North 
America, western Europe, and south and east Asia. The effects of 
acidification from reactive nitrogen and sulfur deposition will be 
similar to that caused by oceanic uptake of fossil-fuel carbon dioxide. 
Coastal regions may be more vulnerable to elevated acidification 
because of other human perturbations (local pollution, nutrient runoff, 
overfishing). Reactive nitrogen deposited from the atmosphere will also 
stimulate ocean photosynthesis because nitrate and ammonia are 
nutrients. Similar to excess nitrogen from river and groundwater 
runoff, the resulting nutrient fertilization (eutrophication) may lead 
to low oxygen zones and blooms of harmful algae.

    Question 11. During the hearing a question was raised regarding the 
global average increase in ocean temperature of 0.04+ C. It is well 
known that the largest increases in ocean temperature are in the 
surface waters and this plays a large role in the Earth's heat budget. 
Can you please explain how significant the warming has been in the 
surface waters and what the implications have been for increased sea 
surface temperature as it relates to hurricane intensity, El Nino, 
drought, and other extreme weather events? Can you highlight different 
regions that have experienced large increases in surface water 
temperature and how much the surface waters have warmed?
    Answer. Ocean warming is indeed concentrated in the upper part of 
the water column. The global average temperature increase of 0.037 deg. 
C reported by Levitus et al., 2005 applies to a depth range from the 
surface to 3,000m (10,000 feet) for time interval of (1994-98) 
relative to (1955-59). In their analysis, they also report an average 
temperature increase almost 5 times as large (0.171 deg. C) for the 
upper water column 0-300m (1,000 feet) over the time period 1955-2003. 
As shown in a table below, Atlantic temperatures in the 0-300m depth 
range increased faster than the global trend.
    Sea surface temperature also increased at a rate comparable to or 
faster than the 0-300m trend. Hansen et al., (2005) present a spatial 
map of the change in sea surface temperature for the period (2001-2005) 
relative to a base period of 1951-1980. They find significant areas of 
the Atlantic, Indian Ocean and tropical Pacific where the sea surface 
temperature increased by between 0.4 to 0.8 deg. C. Examining modern 
(2001-2005) sea surface temperature changes relative to preindustrial 
conditions (1870-1900) reveals warmer sea surface temperatures almost 
everywhere in the ocean, with larger regions showing temperature 
increases of more than 0.5 deg. C.
    Higher sea surface temperatures increase the transfer of heat and 
moisture from the ocean to the atmosphere. Higher sea surface 
temperatures have been proposed as a mechanism for strengthening the 
intensity of tropical cyclones (typhoons and hurricanes), and 
variations in sea surface temperature have been linked to periods of 
both drought and flooding on land. Future climate model projections 
suggest that increasing sea surface temperature and climate warming 
will drive increased precipitation at high latitude, decreased 
precipitation in the subtropics (and possible droughts) and a general 
increase in the frequency of extreme precipitation events. The link 
between sea surface temperature and El Nino is somewhat more subtle as 
El Nino conditions in the tropical Pacific themselves results in 
elevated sea surface temperatures in the tropical Pacific and along the 
West Coast of North America. Through atmospheric teleconnections, El 
Nino events also alter sea surface temperatures over much of the world 
ocean.
    Levitus, S., J. Antonov, and T. Boyer (2005), Warming of the world 
ocean, 1955-2003, Geophys. Res. Lett., 32, L02604, doi: 10.1029/
2004GL021592.
    Hansen, J., M. Sato, R. Ruedy, K. Lo, D.W. Lea, and M. Medina-
Elizade, 2006:
    Global temperature change, Proceedings of the National Academy of 
Science, 103, 14288-14293, doi: 10.1073/pnas.0606291103.
    Table T1. Change in ocean mean temperature (deg. C) as determined 
by the linear trend for the world ocean and individual basins. (Levitus 
et al., 2005; supplementary material).

----------------------------------------------------------------------------------------------------------------
                      Ocean basin                       Change in mean temperature  0-300 m (1955-2003) (deg. C)
----------------------------------------------------------------------------------------------------------------
World Ocean                                                                                                0.171
  N. Hem.                                                                                                  0.188
  S. Hem.                                                                                                  0.159
Atlantic                                                                                                   0.297
  N. Atl.                                                                                                  0.354
  S. Atl.                                                                                                  0.233
Pacific                                                                                                    0.112
  N. Pac.                                                                                                  0.093
  S. Pac.                                                                                                  0.127
Indian                                                                                                     0.150
  N. Ind.                                                                                                  0.125
  S. Ind.                                                                                                  0.154
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Richard A. Feely, Ph.D.
    Question 1. I am pleased to learn that NOAA has been working with 
other agencies, including NASA and NSF, to formalize a Federal research 
effort, including research on ocean acidification. Could you describe 
the current Federal interagency research program and how it might be 
strengthened?
    Answer. While there is no formal Federal interagency research 
program, NOAA and other Federal agencies (e.g., the U.S. Geological 
Survey (USGS), the National Science Foundation (NSF), and the National 
Aeronautics and Space Administration (NASA)) are currently in the 
process of developing a formal research and/or monitoring program to 
address ocean acidification. Over the past two decades, a number of 
large-scale international ocean research programs have documented 
global increases in the amount of carbon dioxide (CO<INF>2</INF>) in 
the world's oceans. These programs, co-sponsored by NSF, NOAA and the 
Department of Energy, include the World Ocean Circulation Experiment 
(WOCE), the Joint Global Ocean Flux Study (JGOFS) Global CO<INF>2</INF> 
Survey and the CLIVAR/CO<INF>2</INF> Repeat Hydrography Program. The 
increase in ocean CO<INF>2</INF> concentrations and corresponding 
decreases in pH levels (ocean acidification) occur in direct response 
to rising levels of atmospheric CO<INF>2</INF> and will affect some of 
the most fundamental processes of the sea in coming decades. In recent 
years, the rapidly emerging issue of ocean acidification has garnered 
considerable interest across the scientific community, and NOAA, NSF 
and NASA have been working to identify what existing capabilities can 
be better tailored to monitor and understand ocean acidification. NOAA 
and NSF have played an important joint role in identifying the current 
extent of ocean acidification through ocean observations. NOAA has also 
been involved in using environmental models to forecast ocean 
acidification levels over the coming century under a variety of 
CO<INF>2</INF> emission scenarios, and has begun investigating the 
possible ecosystem consequences through research studies.
    Detailed in the following discussion is an overview of various NOAA 
programs, technologies, and research efforts that have yielded findings 
deemed relevant to ocean acidification or have recently been initiated 
with the intent of addressing the many remaining uncertainties 
identified by the scientific community. These examples include some 
description of current Federal interagency efforts, as well as 
collaboration with non-Federal/academic institutions.
NOAA Collaborative Workshops
    In 2005, NOAA, USGS, and NSF jointly sponsored a workshop focused 
on ocean acidification, which resulted in a report entitled Impacts of 
Increasing Ocean Acidification on Coral Reefs and Other Marine 
Calcifiers: A Guide for Future Research. The workshop sought to 
summarize existing knowledge on ocean acidification, identify the most 
pressing scientific issues, and identify future research strategies 
over the next 10 years. The report concluded that ocean acidification 
will significantly impact biological systems in the upper ocean with 
adverse responses being observed in most organisms studied that rely on 
calcium carbonate to build their skeletal structures (calcifying 
organisms or calcifiers; e.g., corals). The report also identified an 
extensive list of remaining knowledge gaps and research needs with 
regards to ocean acidification. Among the list offered by the workshop 
report was a recommendation to better characterize the carbon chemistry 
on coral reefs, including long-term monitoring of the response of these 
sensitive ecosystems to ocean acidification.
Observations Relevant to Ocean Acidification
Global CO2 Surveys
    NOAA has contributed to several international and national research 
programs that have offered important findings relevant to ocean 
acidification. These programs include the World Ocean Circulation 
Experiment (WOCE), the Joint Global Ocean Flux Study (JGOFS), the joint 
NOAA/NSF CLIVAR/CO<INF>2</INF> Repeat Hydrography Program, the Tropical 
Atmosphere Ocean (TAO) array, and the Global Ocean Observing System 
(GOOS), as well as data collected through NOAA-supported hydrostations, 
mooring stations, and vessel observations. These research programs 
provide the most accurate and comprehensive view of the global ocean 
carbon cycle to date. NOAA funded a 5-year WOCE/JGOFS data analysis 
effort that culminated in NOAA's Pacific Marine Environmental Lab 
(PMEL) lead-authoring two important Science articles highlighting ocean 
acidification in July 2004. While one article detailed the ocean's role 
as an important sink for anthropogenic carbon dioxide, (Sabine et al., 
2004), the other described the impact that this additional carbon 
exerts on the ocean's chemistry and its potential long-term 
consequences for marine ecosystems (Feely et al., 2004).
    Sabine et al. (2004) inventoried the amount of anthropogenic 
CO<INF>2</INF> (i.e., fossil-fuel and cement-manufacturing emissions of 
carbon dioxide) that has been absorbed by the world's oceans. Results 
from the inventory demonstrated that about 120 billion metric tons of 
carbon as CO<INF>2</INF> (roughly half of the fossil-fuel 
CO<INF>2</INF> released since the 1800s) has been absorbed by the 
ocean. Much of this added carbon has remained concentrated in surface 
waters as the mixing rate of the oceans is on the order of several 
thousand years.
    In addition to the WOCE/JGOFS studies, NOAA, together with the 
Japan Agency for Marine-earth Science and Technology and France's 
L'Institut de recherche pour le developpment, has jointly funded the 
TAO array. The TAO array consists of approximately 70 moorings in the 
tropical Pacific Ocean and is an important part of the Global Ocean 
Observing System (GOOS). These oceanic hydrostations and mooring 
systems provide temporal data that helps NOAA discern important 
seasonal and decadal variability. To better ascertain the spatial 
variability in oceanic carbon uptake, NOAA has collaborated with 
academic partners since 1985 to outfit research and commercial vessels 
with automated CO<INF>2</INF> sensors. The intent of these observations 
has primarily been to derive estimates of CO<INF>2</INF> exchange 
between the atmosphere and the surface waters of the ocean.
Fixed Buoys
    As mentioned above, the TAO array consists of approximately 70 
moorings in the Pacific Ocean that transmit ocean and climate data in 
real-time for the purposes of tracking El Nino events. NOAA's Pacific 
Marine Environmental Laboratory (PMEL) has worked closely with the 
Monterey Bay Aquarium Research Institute to outfit several of these 
moorings with CO<INF>2</INF> sensors. While the coverage of these buoys 
is limited to the Pacific Ocean, and therefore do not fully capture the 
broad and complex system of global CO<INF>2</INF> absorption in the 
ocean, they provide consistent data that helps NOAA discern important 
variability season-to-season and decade-to-decade.
    In response to the 2005 ocean acidification workshop, NOAA deployed 
a series of fixed buoys and augmented existing monitoring stations to 
accommodate CO<INF>2</INF> sensors deployed at a handful of U.S. coral 
reefs. The NOAA Coral Reef Conservation Program, together with 
researchers at the NOAA Atlantic Oceanographic and Meteorological 
Laboratory (AOML) and the University of Miami, has experimented with 
the deployment of commercially available CO<INF>2</INF> sensors on NOAA 
Integrated Coral Observing Network (ICON) stations at two locations in 
the Caribbean. NOAA PMEL has also developed an advanced CO<INF>2</INF> 
mooring system, of which four have been deployed in coastal waters. 
While these observing systems are preliminary, they have offered 
important insight into the CO<INF>2</INF> variability of these waters 
which contrast sharply to that of offshore waters. The CO<INF>2</INF> 
measurements at one of the Hawaii moorings have been compared against 
those recorded offshore at a long-term hydrostation. Similarly, 
observations made in Puerto Rico have been compared against offshore 
estimates derived using remote sensing. In both cases, the variability 
of CO<INF>2</INF> levels in waters overlying coral reefs is shown to be 
considerably higher on daily, seasonal, and interannual scales than in 
offshore waters that have typically been the focus of ocean 
acidification models. Furthermore, these coastal waters consistently 
have higher CO<INF>2</INF> levels than that of offshore waters, 
suggesting these systems may exceed critical levels of CO<INF>2</INF> 
sooner than has been demonstrated in most ocean acidification models. 
What those precise thresholds might be is an area of continued 
investigation within the scientific community and NOAA will need to 
collect additional data necessary to achieve any firm conclusion on the 
matter.
Satellite Observations
    Other observing efforts being advanced at NOAA with important 
relevance to ocean acidification include the application of satellite 
remote sensing to supplement ship and buoy observations of surface 
ocean carbon chemistry. While ship observations provide reliable and 
accurate measurements of surface ocean CO<INF>2</INF>, and offer 
considerably greater spatial coverage than that provided by moored 
instruments, they lack the temporal resolution of fixed platforms 
(i.e., observations over time in one location) and provide relatively 
limited regional coverage. Such observations can be supplemented by 
satellite remote sensing. NOAA has worked to derive algorithms relating 
environmental parameters that can be remotely sensed to in situ 
observations of carbon measurements. NOAA continues to work to improve 
the reliability and accuracy of these models and improve the data 
delivery to the community. Such models are being experimentally coupled 
to NOAA's ICON station CO<INF>2</INF> monitoring network in the hopes 
of deriving a tool for coral reef management to monitor the response of 
coral reefs to ocean acidification.
    All of these observing networks and platforms have not been 
designed to specifically address ocean acidification per se, which 
demands a more comprehensive measurement of ocean carbon chemistry. 
Measurement of ocean acidity requires in situ technology, which NOAA is 
currently testing. Such advanced observations are required to fully 
model the magnitude, rate and severity of ocean acidification.
Research Efforts and Ocean Acidification
Northwest
    NOAA's Northwest Fisheries Science Center (NWFSC) has begun 
collaborating with the University of Washington on ocean acidification 
research relevant to Pacific fisheries. In September 2006, the NWFSC 
began some initial modeling studies of possible consequences of ocean 
acidification on food webs. Two ongoing research projects are focused 
in Puget Sound and the Northeast Pacific shelf. Both projects are 
investigating how likely changes in calcifier populations at all 
trophic levels will impact the food web. Many organisms are expected to 
be affected, including coccolithophores (phytoplankton made of calcium 
carbonate), pteropods (a form of shelled zooplankton), cold-water 
corals, and echinoderm larvae (e.g., sea urchins and sea stars). From 
past research on acid rain there is also evidence of acidification's 
effect on animal behavior and homing, an area where the NWFSC has also 
initiated some preliminary fisheries-related lab studies. Further 
investigations could include questions of how changing ocean chemistry 
could impact how pollutants are taken up by the ocean, their chemical 
form, and their impact on ocean life.
Alaska
    NOAA's Alaska Fisheries Science Center (AKFSC) has started research 
on the effects of decreased pH on red king crab larval growth and 
survival. This project was a pilot study designed to test the ability 
to culture crab larvae under experimentally manipulated pH conditions. 
Preliminary results showed 15 percent reduction in growth and 67 
percent reduction in survival when pH was reduced 0.5 units. Lab work 
to determine pH effects on the calcium content of exoskeletons is 
ongoing.
Southwest
    NOAA's Southwest Fisheries Science Center (SWFSC), as part of the 
U.S. Antarctic Marine Living Resource (AMLR) Program, also collected 
water and zooplankton samples to investigate effects of ocean 
acidification in the Southern Ocean during its 2007 krill biomass 
survey. These samples comprise the beginning of NOAA's research to 
understand the impact of changing pH in the South Shetland Islands. 
Given that in the foreseeable future CO<INF>2</INF> levels are likely 
to rise, the degree of supersaturation for both aragonite and calcite 
(two calcium carbonate (CaCO<INF>3</INF>) polymorphs) will decline. 
This could impact both invertebrate and vertebrate communities. 
Aragonite and calcite are the building blocks for skeletal material and 
shells of many organisms and lower concentrations of the building 
blocks of these minerals in seawater will increase the energy needed by 
organisms to form their skeletal and shell structures. This increased 
energy need can stress the organisms' physiology. Our data collection 
and analysis efforts will provide information necessary for the 
development of mitigation options. This work is being completed in 
collaboration with scientists from NOAA PMEL and California State 
University San Marcos, who will provide the analytical capacity lacked 
by the AMLR Program.
National
    NOAA Sea Grant serves as a unifying mechanism within NOAA to engage 
top universities to assist NOAA in meeting its mission goals and 
responsibilities. Sea Grant conducts research, extension, education, 
and communication activities, with a goal to achieve a sustainable 
environment and to encourage the responsible use of America's coastal, 
ocean, and Great Lakes resources. Sea Grant has supported research on 
the affects of ocean acidification on coral reefs in Hawaii.
Ocean Acidification Modeling
    NOAA's Geophysical Fluid Dynamics Laboratory (GFDL) works 
cooperatively throughout the agency to advance its expert assessment of 
changes in national and global climate through research, improved 
models, and products. GFDL participated in the 1995 Ocean-Carbon Cycle 
Model Intercomparison Project (OCMIP), which developed an international 
collaboration to improve the predictive capacity of ocean-carbon cycle 
models through evaluation and intercomparison. After a 3-year pilot 
study with 4 models (OCMIP-1), a second phase of study (OCMIP-2; 1998-
2002) involved 13 international modeling groups and data specialists 
taking on a more detailed effort. The models developed by these groups 
were used to forecast how ocean chemistry could change under the 
`business-as-usual' scenario (as defined by the Intergovernmental Panel 
on Climate Change) for future emissions of anthropogenic carbon 
dioxide. Under such a scenario, the models predict that the surface 
waters of the Southern Ocean will become chemically unfavorable to some 
forms of calcium carbonate by the year 2050 (i.e., the pH of the 
surface waters will be too low to allow solid calcium carbonate to 
form). By 2100, such conditions could extend throughout the entire 
Southern Ocean and into the subarctic Pacific Ocean (Orr et al., 2005). 
When live pteropods were subjected to chemical conditions predicted by 
these models, their shells (calcium carbonate) began to dissolve. The 
findings of the study concluded that conditions detrimental to high-
latitude ecosystems could develop within decades.
    NOAA can strengthen the existing efforts by improving its 
understanding of the climate-ecosystem linkages to better predict 
ecosystem (and living marine resource) impacts and adaptations to 
climate change. Specifically, NOAA can enhance its monitoring of living 
marine resource population demographics, distributions, migrations, and 
health.
    Additionally, NOAA can translate climate information from global to 
regional levels to facilitate management of ecosystem issues at the 
regional level.

    Question 2. Are there international efforts currently underway or 
in development to address the issue of ocean acidification and is the 
United States involved in such efforts?
    Answer. In addition to the efforts detailed in response to Question 
1 (above), over the past year NOAA scientists have been interacting 
with their colleagues from Europe and Asia on the development of 
international cooperative research efforts on ocean acidification. At 
the international level, research on ocean acidification is being 
implemented through the Integrated Marine Biogeochemistry and Ecosystem 
Research project and Surface Ocean Lower-Atmosphere Study. Senior NOAA 
and academic scientists have been invited by their European 
counterparts to contribute to the planning and implementation of the 
European Project on Ocean Acidification. Similar negotiations are 
presently underway with colleagues from Japan and Korea.

    Question 3. Coral reefs are not just critical habitat for fish. In 
my state of Hawaii, they are also an economic engine supporting both 
fishing and tourism. Is ocean acidification or the increase in sea 
temperature the more pressing issue for protecting and preserving 
Hawaii's coral reefs and other marine resources and why?
    Answer. While our present understanding of coral bleaching and 
ocean acidification is at an early stage of development, the research 
results thus far indicate that increases in sea surface temperature and 
changes in ocean chemistry both present considerable risk to the future 
sustainability of coral reef habitat and the eco-services they provide 
to Hawaii. Both surface temperature and ocean chemistry are related to 
changes in atmospheric carbon dioxide concentrations (directly in the 
case of ocean acidification) and so the two issues are inextricably 
linked. The prevailing expectation of the scientific community is that, 
should sea surface temperatures continue to rise, coral bleaching will 
continue to occur with greater frequency and intensity. The resilience 
of reefs against threats posed by rising temperatures is likely to be 
compromised by their declining ability to build reefs as a result of 
ocean acidification. While there is much that remains unknown with 
regards to how these two processes interact, it is likely the impact of 
the two threats together will be greater than the sum of the two 
separate impacts.

    Question 4. How can we incorporate actions to address these issues 
into an overall management strategy for protecting Hawaii's corals and 
other marine resources?
    Answer. NOAA is committed to an ecosystem approach to resource 
management that addresses the many simultaneous pressures affecting 
ecosystems. The various effects of climate change on wildlife and 
oceans are interrelated. While the strategies outlined in the 2006 
publication A Reef Manager's Guide to Coral Bleaching (produced by 
NOAA, the Environmental Protection Agency, the Australian Great Barrier 
Reef Marine Park Authority, and the International Union for the 
Conservation of Nature) were designed to address coral bleaching in 
Hawaii and other federally-protected coral reef ecosystems, many of the 
strategies in the guide will support reef resilience in the face of 
ocean acidification. Additional research is needed to fully 
characterize the threat of ocean acidification to coral reef 
communities and to identify and devise specific adaptive management 
strategies.
    Once identified, adaptive strategies that plan for climate change 
impacts can be applied to the ocean and coastal environment through a 
variety of mechanisms, including incentives and disincentives, policies 
and regulations, and public outreach and education. A number of NOAA's 
research programs have also begun to consider how climate change, and 
specifically ocean acidification scenarios, may impact many regulated 
species--particularly bivalve mollusks, crustaceans, and species 
dependent on shallow-water coral reefs. Over 50 percent of the value of 
U.S. fisheries derives from clams, scallops, and oysters, and various 
species of shrimp, crab, and lobster. These shellfish are thought to be 
particularly vulnerable to the effects of reduced levels of calcium 
carbonate building blocks in the oceans due to increasing acidity. 
NOAA's National Marine Fisheries Service has initiated a few pilot 
studies to attempt to understand these impacts.

    Question 5. Dr. Feely, under a ``business as usual'' scenario of 
greenhouse gas emissions, what do you project will be the impacts on 
coral reefs and other marine resources?
    Answer. The recently released Summary for Policy Makers in the 
Intergovernmental Panel on Climate Change (IPCC) Fourth Assessment 
Report on Impacts, Vulnerability and Adaptation to Climate Change found 
that under a business as usual scenario:

  <bullet> The resilience of many ecosystems is likely to be exceeded 
        this century by an unprecedented combination of climate change, 
        associated disturbances (e.g., flooding, drought, ocean 
        acidification), and other global change drivers (e.g., land use 
        change, pollution, over-exploitation of resources).

  <bullet> For increases in global average temperature exceeding 1.5-
        2.5+ C and in concomitant atmospheric carbon dioxide 
        concentrations, there are projected to be major changes in 
        ecosystem structure and function, species' ecological 
        interactions, and species' geographic ranges, with 
        predominantly negative consequences for biodiversity, and 
        ecosystem goods and services, e.g., food supply.

    As described in the response to Question 1, NOAA's Geophysical 
Fluid Dynamics Laboratory contributed to the Ocean-Carbon Cycle Model 
Intercomparison Project. The models that resulted from this project 
were used to forecast how ocean chemistry could change under the 
`business-as-usual' scenario (as defined by the Intergovernmental Panel 
on Climate Change) for future emissions of anthropogenic carbon 
dioxide. Under such a scenario, the models predict that the surface 
waters of the Southern Ocean will become chemically unfavorable to some 
forms of calcium carbonate by the year 2050. By 2100, such conditions 
could extend throughout the entire Southern Ocean and into the 
subarctic Pacific Ocean.
    Recent work indicates that corals in the 21st century will have to 
adapt to temperature increases of at least 0.4 degrees Fahrenheit per 
decade to survive the increasing frequency and intensity of coral 
bleaching that we expect in the next few decades (Donner et al., 2005). 
Unfortunately, ongoing studies have not yet shown that corals have the 
ability to make physiological or evolutionary changes at that rate. 
Limited latitudinal expansion of coral distributions is possible and 
may be occurring in one case (Precht and Aronson, 2006). However, 
corals in higher latitudes are likely to encounter lower pH waters 
(ocean acidification) and their skeletal growth rate may be depressed 
(Guinotte et al., 2003; Guinotte et al., 2006).

    Question 6. What if we stabilized our greenhouse gas concentrations 
at between 445 and 710 parts per million?
    Answer. According to the 4th Assessment Report by the 
Intergovernmental Panel on Climate Change (IPCC) Working Group II, the 
mitigation measure of reducing anthropogenic greenhouse gas emission 
can reduce a number of projected climate change impacts. Reducing 
greenhouse gas emissions below 445 ppm would specifically act to:

  <bullet> Reduce the level of ocean acidification affecting coral 
        reefs and other calcifying plankton and shellfish.

  <bullet> Reduce the severity of coral bleaching events.

    Note that even reducing greenhouse gas emissions to 445 ppm is 
projected only to reduce the severity of coral bleaching events, as 
opposed to preventing those events. In addition, because of the inertia 
in the climate system, it would take several decades before any 
benefits from mitigation efforts materialize. According to the IPCC, 
even if complete mitigation were put into place immediately (meaning 
even if anthropogenic carbon dioxide emissions were immediately reduced 
to zero), because of existing carbon dioxide in the system, we are 
committed to a 0.6+ C temperature change over the next 50 years.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Richard A. Feely, Ph.D.
    Question 1. In your testimony, you discussed the potential impacts 
that ocean acidification might have on coldwater species in the Bering 
Sea. Along much of the West Coast, we are wrestling with the recovery 
of endangered salmon. Salmon are, of course, both commercially and 
culturally important, and they're also a critical part of the food web 
for the endangered Puget Sound Southern Resident Orca. From your 
research, will ocean acidification place these species in further 
jeopardy? If so, specifically how might this occur?
    Answer. Our understanding of the connections between ocean 
acidification and the marine food chain is in a very early stage of 
development. Scientists have observed a reduction in the ability of 
marine algae and free-floating plants and animals to produce protective 
carbonate shells when exposed to decreasing pH (Feely et al., 2004; Orr 
et al., 2005). These organisms are important food sources for other 
marine species. One type of free-swimming mollusk called a pteropod is 
eaten by organisms ranging in size from tiny krill to whales. In 
particular, pteropods are a major food source for North Pacific 
juvenile salmon, and also serve as food for mackerel, pollock, herring, 
and cod. Other marine calcifiers, such as coccolithophores (microscopic 
algae), foraminifera (microscopic protozoans), and mollusks (snails, 
clams, and mussels) also exhibit a general decline in their ability to 
produce their shells with decreasing pH (Kleypas et al., 2006). The 
concern among scientists is that as the food sources for the salmon and 
whales are reduced in abundance, those populations will also decline.

    Question 2. The most rigorous mitigation goal in the recent summary 
report by the Intergovernmental Panel on Climate Change is to stabilize 
atmospheric greenhouse gas levels between 445 and 710 parts per million 
by 2030. But given that the current concentrations of atmospheric 
carbon are estimated at 380 parts per million, shouldn't this target be 
set at a much lower level if we are to effectively address climate 
change? What is the expected temperature increase of this range? What 
would be the impacts on our ocean resources if we were to reach these 
emissions levels?
    Answer. According to the 4th Assessment Report by the 
Intergovernmental Panel on Climate Change (IPCC) Working Group II, the 
mitigation measure of reducing anthropogenic greenhouse gas emission 
can reduce a number of projected climate change impacts. Reducing 
greenhouse gas emissions below 445 ppm would specifically act to:

  <bullet> Limit temperature increase to 2.0-2.4+ C

  <bullet> Reduce the future severity of drought in the U.S.

  <bullet> Reduce the level of ocean acidification affecting coral 
        reefs and other calcifying plankton and shellfish.

  <bullet> Reduce the severity of coral bleaching events (e.g., a 1-3+ 
        C increase in global temperature would result in more bleaching 
        events with small recovery times, whereas an increase of 2.5-
        3.0+ C could result in widespread mortality).

    Because of the inertia in the climate system, it would take several 
decades before any benefits from mitigation efforts materialize. 
According to IPCC, even if complete mitigation were put into place 
immediately (meaning if anthropogenic carbon dioxide emissions were 
immediately reduced to zero), because of existing carbon dioxide in the 
system, we are committed to a 0.6+ C temperature change over the next 
50 years. In addition, it is important to note that the IPCC summary 
does not explicitly predict the magnitude and timing of consequences 
because these depend on the amount and rate of CO<INF>2</INF> emissions 
and subsequent warming, and, in some cases, on society's ability to 
adapt.

    Question 3. What are the potential impacts of some of the currently 
proposed climate change mitigation strategies on the marine 
environment--such as iron stimulated plankton blooms or injection of 
CO<INF>2</INF> into sea sediments?
    Answer. The broad potential impacts of climate change mitigation 
strategies are discussed in answer to question 2 (above). In 2005 the 
Intergovernmental Panel on Climate Change (IPCC) published a special 
report on Carbon Dioxide Capture and Storage (http://www.ipcc.ch/
activity/srccs/index.htm), but the IPCC report does not address 
biological approaches for carbon capture and storage in the ocean, such 
as iron-stimulated plankton blooms. There have been several small 
research projects that have demonstrated that iron fertilization can 
cause a phytoplankton bloom in certain regions of the ocean. However, 
current scientific evidence indicates that large-scale iron 
fertilization will not significantly increase carbon transfer into the 
deep ocean or lower atmospheric CO<INF>2</INF>. Furthermore, there may 
be negative impacts of iron fertilization including dissolved oxygen 
depletion, altered trace gas emissions that affect climate and air 
quality, changes in biodiversity, and decreased productivity in other 
oceanic regions.
    In 2005 the Intergovernmental Panel on Climate Change (IPCC) 
special report on Carbon Dioxide Capture and Storage, one chapter is 
devoted to ocean storage of CO<INF>2</INF>. This report noted that deep 
ocean injection is technically possible and would isolate the 
CO<INF>2</INF> from the atmosphere for several hundreds of years. The 
fraction of CO<INF>2</INF> retained in the ocean over time generally 
tends to be longer with deeper injection, but the cost of placing the 
CO<INF>2</INF> deeper is also higher. Injection of a few billion metric 
tons of CO<INF>2</INF> would produce a measurable change in ocean 
chemistry in the region surrounding the injection, whereas injection of 
hundreds of billions of metric tons of CO<INF>2</INF> would eventually 
produce measurable changes over the entire ocean volume. Deep-ocean 
CO<INF>2</INF> injection would introduce anthropogenic CO<INF>2</INF> 
to regions of the deep ocean that have not yet been exposed to elevated 
CO<INF>2</INF>. In particular, the areas around the injection sites 
would experience CO<INF>2</INF> levels far in excess of anything that 
would result from the natural uptake of anthropogenic CO<INF>2</INF>.

    Question 4. Given your understanding of ocean acidification, does 
using the ocean to store CO<INF>2</INF> make good policy sense, or 
would we just be creating additional problems? Are there safe and 
effective ways to use the ocean to mitigate the effects of excess 
carbon dioxide in the atmosphere?
    Answer. The IPCC report mentioned in answer to the question above 
(Carbon Dioxide Capture and Storage: http://www.ipcc.ch/activity/srccs/
index.htm) gives several examples of viable carbon storage options, 
such as the injection of CO<INF>2</INF> into geological reservoirs. 
These options appear to have potentially longer storage times and fewer 
potential environmental impacts than purposeful ocean carbon storage. 
The oceans will continue to take up anthropogenic CO<INF>2</INF> for at 
least the next few thousand years, thus acting as a natural mitigation 
pathway. This natural uptake will have environmental consequences that 
we are still trying to understand. At this point, it does not seem to 
make sense scientifically to exacerbate this by accelerating the 
process and potentially introduce additional unknown oceanographic and 
ecological consequences to this valuable resource. Many scientists are 
also concerned that such fertilization experiments may have the 
unintended consequence of causing harmful algal blooms, sometimes known 
as ``red tides.''
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Richard A. Feely, Ph.D.
    Question 1. According to NOAA, about 4,000 species of fish, 
including approximately half of all federally-managed fisheries, depend 
on coral reefs and related habitats for a portion of their life cycles, 
and the National Marine Fisheries Service estimates that the value of 
U.S. fisheries from coral reefs exceeds $100 million. Will corals and 
plankton be able to survive or adapt to more acidic waters in our 
oceans?
    Answer. Increasing ocean acidification has been shown to 
significantly reduce the ability of reef-building corals to produce 
their skeletons, affecting growth of individual corals and making the 
reef more vulnerable to erosion (Kleypas et al., 2006). By mid-century, 
coral reefs may erode faster than they can be rebuilt potentially 
making them less resilient to other environmental stresses (e.g., 
disease, bleaching). This threat to coral reefs could compromise the 
long-term viability of these ecosystems, perhaps impacting the 
thousands of species and over one billion people that depend on coral 
reefs. Decreased calcification rates, as a result of ocean 
acidification (decreased pH), may also compromise the fitness or 
success of these organisms and could shift the competitive advantage 
toward organisms that are not dependent on calcium carbonate 
(CaCO<INF>3</INF>). Carbonate structures are likely to be weaker and 
more susceptible to dissolution and erosion as a result of ocean 
acidification. In long-term experiments, corals that have been grown 
under lower pH conditions for periods longer than 1 year have not shown 
any ability to adapt their calcification rates to the low pH levels.
    With respect to planktonic calcifiers (free-floating organisms that 
rely on calcium carbonate), including the coccolithophores, 
foraminifera, and pteropods, each group has been shown to respond 
negatively to increases in CO<INF>2</INF> levels. However, most studies 
of the impacts of ocean acidification have been performed on bloom-
forming coccolithophores, and there are very limited observations of 
other planktonic groups. If reduced calcification rates contribute to a 
decrease in a calcifying organism's fitness or survivorship, then such 
calcareous species may undergo shifts in their latitudinal 
distributions and/or vertical depth ranges as the CO<INF>2</INF> 
chemistry of seawater changes. Long-term impacts of elevated 
CO<INF>2</INF> on reproduction, growth, and survivorship of planktonic 
calcifying organisms have not been investigated. Existing studies on 
the impacts of ocean acidification on calcareous plankton have been 
short-term experiments, ranging from hours to weeks. Chronic exposure 
to increased CO<INF>2</INF> may have complex effects on the growth and 
reproductive success of CaCO<INF>3</INF>-secreting plankton.

    Question 1a. If they cannot, what are the implications for other 
marine species and the ocean's food chain?
    Answer. The loss of corals and other calcifying species could have 
dramatic consequences to marine ecosystems and the human systems that 
depend on them. Many reef organisms are dependent on coral reefs for 
their livelihood (Kleypas et al., 2006). Organisms that die out locally 
during coral bleaching events are likely to be lost. Others will suffer 
population drops as erosion of reefs reduces or eliminates the habitats 
in which they live. Changes in ocean pH may also affect reproductive 
success of commercially important species by reducing demersal egg 
adhesion or the fertilization success of eggs broadcast into the ocean.
    Some calcifying planktonic species affected by ocean acidification 
are key food sources for commercially-targeted fish, such as juvenile 
salmon, mackerel, pollock, herring and cod. Therefore, ocean 
acidification may reduce the abundance of food for these key species at 
the base of the food chain. The concern among scientists is that as the 
food sources for the salmon and whales are reduced in abundance, those 
populations will also decline.
    The economic implications of these types of losses will likely be 
similar to those during coral bleaching events. A study discussed in A 
Reef Manager's Guide to Coral Bleaching (Cesar et al., 2002) indicates 
that the 1998 bleaching in the western Indian Ocean cost U.S. $71.5 
million to the Seychelles, U.S. $47.2 million to Kenya, and U.S. $39.9 
million to Zanzibar (in Tanzania).

    Question 1b. Species have migrated in response to ocean temperature 
changes. Will marine organisms migrate to avoid acidification?
    Answer. Shallow-water corals are generally limited by water 
temperatures and visibility (as clear water is necessary to allow 
sunlight to penetrate for photosynthesis). It is possible that corals 
will expand poleward as long as proper substrates, temperatures, and 
clear water are present. Unfortunately, it takes hundreds to thousands 
of years for reefs to develop. Additionally, many corals grow at much 
slower speeds (spreading through sexual reproduction and larval 
transport) than others coral species. The result is that non-reef 
building invading organisms may take over reefs, while slower growing 
corals that can be the most important reef-builders are not able to 
keep pace with the growth of the non-reef building species. However, 
even if corals move poleward, it is the higher latitudes that are most 
affected by ocean acidification. While advancing to high latitudes 
might stave off thermal stress for a select set of low productivity 
corals, these systems would likely be subjected to even slower rates of 
reef building due to ocean acidification. Modern reef systems do not 
extend to high latitudes in part due to the relatively low pH of these 
high latitude waters (Guinotte et al., 2003).

    Question 2. There have been ocean acidification events in the past 
that have resulted in the disappearance of marine organisms, including 
corals. What does the fossil record reveal about the adaptation of 
marine organisms to changes in ocean acidification? How long did it 
take for corals and other marine organisms to recover from the 
acidification events in the past?
    Answer. Paleontological studies of coral reef communities before 
and after these periods show that many species of corals went extinct 
during periods of high atmospheric and oceanic carbon dioxide. For 
example, studies indicate that 98 percent of coral species were lost 
during the extinction at the end of the Triassic and corals did not 
reappear in the fossil record for 8-10 million years (Stanley, 2006).
    The few surviving species took millions of years to evolve to fill 
the niches left open by the loss of so many corals during these events. 
Even then, most reefs were dominated by bivalves (clam-like organisms) 
that later went extinct during the next high carbon dioxide period. 
That next extinction lasted 17 million years.

    Question 3. You indicate in your statement that ``the atmospheric 
concentration of carbon dioxide is now higher than experienced on Earth 
for at least 800,000 years and is expected to continue to rise . . . 
the oceans are absorbing increasing amounts of carbon dioxide . . . and 
the chemical changes in seawater resulting from the absorption of 
carbon dioxide are lowering seawater pH.'' Have scientists determined a 
dangerous level of pH that we need to avoid?
    Answer. In order to prevent disruption of the calcification of 
marine organisms and the resultant risk of fundamentally altering 
marine food webs, the German Council on Global Change (2006) 
recommended that the pH of near surface waters should not drop more 
than 0.2 units below the pre-industrial average value in any large 
ocean region. While that may seem like a small change, it is important 
to note that pH units are on a logarithmic scale. This means each whole 
pH value below 7 is ten times more acidic than the next higher value. 
For example, pH 4 is ten times more acidic than pH 5 and 100 times more 
acidic than pH 6. A pH drop of 0.2 units would correspond to an 
increase in the hydrogen ion (H<SUP>+</SUP>) concentration of around 60 
percent compared to pre-industrial values. The decrease in pH so far of 
0.11 units since industrialization corresponds to a rise of the 
H<SUP>+</SUP> concentration of around 30 percent. The present average 
pH value of the ocean surface layer is 8.07.

    Question 3a. At the current rate of carbon dioxide emissions, how 
long will it take for the oceans to reach a dangerous level of pH?
    Answer. At the present rate of carbon dioxide emissions, we will 
see a pH drop of 0.2 units from the pre-industrial values by about 2050 
(500 ppm CO<INF>2</INF> in the atmosphere). According to simulations by 
Caldeira and Wickett (2005), a stabilization of the atmospheric 
CO<INF>2</INF> concentration of 540 ppm by the year 2100 would lead to 
a global average surface ocean pH decrease of 0.23 compared to the pre-
industrial level. Thus, an atmospheric CO<INF>2</INF> concentration of 
540 ppm would already exceed the acidification limit of 0.2 units.

    Question 3b. Have scientists determined at what level of carbon 
dioxide concentrations we need to maintain in order to avoid this 
dangerous level of pH?
    Answer. As stated in Question 3 above, the German Council on Global 
Change (2006) recommended that the pH of near surface waters should not 
drop more than 0.2 units (<500 ppm CO<INF>2</INF> in the atmosphere) 
below the pre-industrial average value in any large ocean region.
    The largest threat to marine organisms due to ocean acidification 
is related to the solubility of calcium carbonate, which affects the 
presence of the carbonate minerals calcite and aragonite. Calcite and 
aragonite are needed for the construction of shells and skeletal 
structures. Calcifying marine organisms are important components of 
marine ecosystems, so their endangerment would have a large impact on 
economically and socially important marine resources. The German 
Council on Global Change (2006) states ``If the concentration of 
carbonate ion falls below the critical value of 66 mmol per kilogram, 
then the seawater is no longer saturated with respect to aragonite, and 
marine organisms can no longer build their aragonite shells'' (Schubert 
et al., 2006). The danger of undersaturation for aragonite is 
especially present in the high northern and southern latitudes, and in 
strong upwelling regions.

    Question 4. In light of the latest findings published last month in 
the journal Science in which the biological consumption and 
remineralization of carbon in the ``twilight zone''--a zone in the 
ocean where some sunlight reaches but not enough for photosynthesis to 
occur at ocean depths between about 660-3,300 feet--actually reduces 
the efficiency of sequestration (Buesseler, et al., Science 316, 567, 
2007). What does this mean for the future of carbon sequestration in 
our ocean if carbon is recycled back into the surface ocean and 
atmosphere faster than originally thought?
    Answer. The significance of the Buesseler et al. (2007) article is 
that much of the carbon that is sequestered in marine organic matter in 
the surface euphotic zone is remineralized in the twilight zone and 
returned to the atmosphere at some later date due to upwelling. The 
farther down in the ocean this organic carbon remineralization occurs, 
the longer it takes for the CO<INF>2</INF> to be returned back to the 
atmosphere. Consequently, the approach of using iron-fertilization as a 
mechanism for sequestering organic carbon in the oceans may be less 
inefficient than previously thought because of this remineralization 
mechanism.

    Question 4a. Do scientists know how much carbon sequestered to the 
deep ocean is being overestimated?
    Answer. At the present, this is an area of active scientific 
research because the present carbon reminearlization estimates have 
very large uncertainties. In the study discussed above (Buesseler et 
al.) point out that the uncertainty in the estimates of carbon 
remineralization is as high as 3 Pg C year<SUP>-1</SUP>, which is more 
than our best estimate of the anthropogenic carbon uptake at the 
surface!

    Question 4b. How has this changed what scientists think about how 
long carbon dioxide will be naturally sequestered and how long it will 
take material to resurface from the twilight zone?
    Answer. The Buesseler et al. (Science 316, 567, 2007) article 
points to the need for more research on the nature and rates of organic 
matter remineralization processes in the twilight zone. We need to know 
if ocean acidification will enhance the process of remineralization in 
shallow waters by causing calcium carbonate 
(C<INF>a</INF>CO<INF>3</INF>) shells, and their associated organic 
carbon (ballast carbon), to dissolve higher up in the water column. 
This is potentially one of the most important positive ocean feedback 
mechanisms for enhancing the return of CO<INF>2</INF> back to the 
atmosphere.

    Question 5. It is essential to start a global research and 
monitoring program for ocean acidification. We should be utilizing the 
observing systems already in place including the undersea research 
program. What are your recommendations for utilizing the current 
infrastructure of ocean observing systems and satellites to monitor 
ocean acidification?
    Answer. As technology develops, our current ocean observation 
infrastructure may be enhanced by including additional specific sensors 
to monitor ocean acidification. For example, NOAA scientists and 
partners recently launched the first operational buoy with a new sensor 
to monitor ocean acidification in the Gulf of Alaska. This is the first 
system specifically designed to monitor ocean acidification, and is a 
new tool for researchers to examine how ocean circulation and 
ecosystems interact to determine how much carbon dioxide the North 
Pacific Ocean absorbs each year. The addition of similar carbon system 
sensors onto current observation platforms, such as the OceanSites 
moored arrays (funded by NOAA and the National Science Foundation and 
Coral Reef Metabolic Monitoring Network) could provide an excellent 
foundation for a global monitoring program to monitor ocean 
acidification in the Atlantic and Pacific and to validate models of 
future changes.

    Question 5a. What information can be gained from monitoring natural 
variations over a long time period of time and in several different 
oceanic regions?
    Answer. These data sets provide information on long-term natural 
and anthropogenic variability of the carbon system in the oceans. They 
are critical for understanding the future impacts on biological systems 
via ocean acidification.

    Question 6. This year I requested funding through the 
Appropriations Subcommittee on Commerce, Justice, Science to fund the 
National Research Council report on ocean acidification mandated by 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act. Has NOAA yet identified the compelling research needs for this 
study?
    Answer. Yes, NOAA has identified key issues associated with ocean 
acidification and fisheries, and how the National Academy of Science's 
Ocean Studies Board can help prioritize future research and monitoring 
to address this significant issue. NOAA and other agencies must 
collaborate to design appropriate field and laboratory studies that 
will allow more precise forecasts of the impacts of ocean acidification 
on fisheries and the ecosystems that support them.

    Question 6a. If so, what are the research needs for this report?
    Answer. NOAA believes that the National Academy can provide an 
important bridge between the academic community and Federal agencies in 
designing and implementing appropriate long-term monitoring studies and 
experiments to determine how fisheries species and ecosystems may 
respond to acidifying oceans. The National Academy study, to be 
conducted through its Ocean Studies Board (OSB), will be used to help 
design long-term studies to monitor pH changes in vulnerable marine 
ecosystems of the United States, and as a method to collaborate 
internationally. The OSB will determine the methods, frequency and 
placement of monitoring sensors and oceanographic sensing to track 
ocean acidification over time, and in relation to changes in 
atmospheric CO<INF>2</INF>.
    Currently about 51 percent of the value of United States fisheries 
landings is made up of bivalve mollusks and crustaceans. As these 
species contain high levels of calcium carbonate as shell material, 
they are thought to be particularly vulnerable to ocean acidification. 
Ocean plankton, the base of shallow-water marine food chains, include 
species that also incorporate calcium carbonate into their shells and 
are thus likely to be influenced by acidification. Other species, 
contributing about 5 percent of the value of U.S. fisheries, occur in 
shallow water tropical coral ecosystems that are highly sensitive to pH 
variations and temperature changes. Finally, deep-sea coral ecosystems 
are also likely to be impacted by ocean acidification and these species 
are now regulated under the newly re-authorized Magnuson-Stevens 
Fishery Conservation and Management Act. The National Academy study 
will determine which of these biological communities are most at risk, 
and will design appropriate field and laboratory studies of the 
physiological responses of these organisms to ocean acidification.
    In addition to the National Academy study, which will focus on 
monitoring and research strategies and priorities for the U.S., NOAA 
will also coordinate international ocean acidification science with the 
International Council for the Exploration of the Sea and the Pacific 
Marine Science Organization. These two groups, in particular, 
coordinate marine science among countries in the North Atlantic and 
North Pacific, and can assure that U.S. research priorities integrate 
with research conducted by other nations.

    Question 7. About one-third of all man-made carbon dioxide 
emissions are absorbed into the ocean. However, at a certain point the 
oceans may no longer be able to absorb carbon dioxide at the same rate. 
If this happens, warming of the atmosphere will increase even more 
rapidly. Are we close to seeing the rate that the oceans absorb carbon 
dioxide slow down to a point that our global temperatures increase even 
faster?
    Answer. The uptake of anthropogenic CO<INF>2</INF> is controlled by 
the carbon chemistry at the surface and the rate at which surface 
waters, laden with anthropogenic CO<INF>2</INF>, are moved into the 
ocean interior and replaced with deeper waters that have not been 
exposed to higher atmospheric CO<INF>2</INF> concentrations. The rate 
at which the surface waters can take up CO<INF>2</INF> depends on the 
difference in CO<INF>2</INF> concentration in the air and sea surface, 
and the amount of CO<INF>2</INF> that is converted to other ionic 
species (such as bicarbonate (HCO<INF>3</INF>), carbonate 
(CO<INF>3</INF><SUP>2</SUP><SUP>-</SUP>), and carbonic acid 
(H<INF>2</INF>CO<INF>3</INF><SUP>-</SUP>) in seawater. As 
CO<INF>2</INF> concentrations in the ocean increase, the percentage of 
CO<INF>2</INF> that is converted to these other ionic species 
decreases, and the water becomes less efficient at taking up 
CO<INF>2</INF>. This is already happening--the surface water of the 
oceans has already become less efficient at taking up CO<INF>2</INF>. 
However, even with the ocean's decreased efficiency with regard to 
taking up CO<INF>2</INF>, the exponential increase in atmospheric 
CO<INF>2</INF> concentration up to this point has made it such that 
today's oceans take up more CO<INF>2</INF> each year than they have in 
the past. That being said, there are many things that can change this 
situation because the rate at which the ocean absorbs CO<INF>2</INF> is 
a balance between a number of processes. For example, if the rate at 
which CO<INF>2</INF> is moved from the surface ocean into the interior 
ocean slows because of changes in thermohaline circulation, then the 
rate of CO<INF>2</INF> absorption will also decrease. If the rate at 
which CO<INF>2</INF> is rising into the atmosphere slows, then the 
ocean uptake rate will also decrease. Predicting when and how these 
processes, and others not listed here, will change is difficult. 
According to Chapter 5 of the 4th Assessment Report by the 
International Panel on Climate Change Working Group I, the fraction of 
the net CO<INF>2</INF> emissions taken up by the ocean (the uptake 
fraction) was 37 percent <plus-minus>7 percent during the period from 
1980 to 2005, compared to 42 percent <plus-minus>7 percent during the 
1750 to 1994 period. The errors in this estimate are still too large to 
determine if these rates are different.

    Question 7a. How does temperature affect the rate at which ocean 
acidification occurs?
    Answer. CO<INF>2</INF> is less soluble in warm water, so as the 
oceans warm they will become less efficient at taking up CO<INF>2</INF> 
from the atmosphere. In addition, as you warm a body of water but keep 
the total amount of dissolved carbon the same or greater, then the 
proportion of carbonic acid (H<INF>2</INF>CO<INF>3</INF>, the acidic 
form of carbon dioxide) in the water will increase, and the pH of the 
warmer water will therefore be lower. Thus, rising ocean temperatures 
will tend to accelerate ocean acidification.
    However, temperature's impact on the rate at which ocean 
acidification occurs is small relative to the impact of rising 
atmospheric CO<INF>2</INF> levels. As CO<INF>2</INF> concentration 
continues to increase in the atmosphere, the ocean will continue to 
take up larger quantities of CO<INF>2</INF>, thereby exacerbating ocean 
acidification.

    Question 7b. The Arctic Ocean is becoming warmer and fresher which 
may slow down thermohaline circulation. What are the implications of 
these changes on ocean acidification?
    Answer. The Arctic Ocean is one of the oceanic regions that will 
experience major changes in carbonate saturation due to ocean 
acidification over the next 40-50 years. This is primarily due to the 
extremely low temperatures of the surface waters and lowered 
alkalinities due to the ice melting.

    Question 7c. How does the increase in atmospheric carbon dioxide 
and subsequent warming affect atmospheric and oceanic circulation? Will 
the increase in atmospheric and ocean temperatures result in more 
frequent El Nino's and intense hurricane seasons?
    Answer. The oceans and the atmosphere constitute intertwined 
components of Earth's climate system. Evaporation from the ocean 
transfers huge amounts of water vapor to the atmosphere, where it 
travels aloft until it cools, condenses, and eventually precipitates in 
the form of rain or snow. Changes in ocean circulation or water 
properties can disrupt this hydrological cycle on a global scale, 
causing flooding and long-term droughts in various regions.
    Higher temperatures caused by increases in atmospheric carbon 
dioxide could add fresh water to the northern North Atlantic by 
increasing precipitation and by melting nearby sea ice, mountain 
glaciers, and the Greenland ice sheet. This influx of fresher and 
warmer water could reduce the sea surface salinity and density, leading 
to a slow down of the global hydrological cycle (thermohaline 
circulation).
    According to all models used in the 4th Assessment Report by the 
Intergovernmental Panel on Climate Change Working Group I, the strength 
of the atmospheric overturning circulation decreases as the climate 
warms (Held and Soden, 2006; Vecchi and Soden, 2006), in a manner 
consistent with theoretical arguments (Betts and Ridgeway, 1989; Betts, 
1998; Knutson and Manabe, 1995; Held and Sodden, 2006). The models 
project that this weakening should occur preferentially to the east-
west overturning of air near the Equator, known as the Walker 
circulation. Such a weakening of the Walker circulation, in turn, would 
lead to a reduction in near-surface wind-driven currents in the near-
equatorial oceans (Vecchi and Soden, 2007). Long-term records of 
atmospheric sea-level pressure indicate that weakening of the Walker 
circulation may already be underway, and this weakening is partially 
attributable to increases in greenhouse gases (Vecchi et al., 2006; 
Zhang and Song, 2006). However, long-term changes of oceanic conditions 
are mixed, with some studies showing changes inconsistent with a 
slowing circulation (Cane et al., 1997; Hansen et al., 2006) and other 
studies showing changes more consistent with the slowing circulation 
(Cobb et al., 2001, 2003).
    The El Nino-Southern Oscillation (ENSO) system is a naturally 
occurring climate phenomenon that leads to major fluctuations in global 
climate patterns at approximately 3-7 year intervals. There is 
scientific debate over the influence that rising globally-averaged 
temperatures has had and will have on the frequency and intensity of 
ENSO fluctuations. What is certain is that natural fluctuations in 
temperature lead to warmer and cooler years than normal. If the average 
temperature is rising, as it has in the 20th century and is expected to 
in the 21st century (Guinotte et al., 2003), the warm temperatures 
during natural oscillations periods will be even hotter than those of 
the past. How the mechanisms responsible for controlling the timing and 
intensity of El Nino's will likely change in a warming climate is still 
not clear (van Oldenborgh et al., 2005). Therefore, it is difficult to 
say whether warming will result in more frequent El Nino's. We do know, 
however, that El Nino's have a dramatic impact on the ability of the 
oceans to take up CO<INF>2</INF>, so if the frequency of ENSO events 
does change then it will definitely impact ocean acidification.
    It is likely that some increase in tropical cyclone peak wind-speed 
and rainfall will occur if the climate continues to warm (IPCC, 2007). 
However, there is no firm conclusion on whether there is currently a 
global warming signal in the tropical cyclone climate record to date. 
Models also project that storm tracks should move poleward in a warming 
world (Yin, 2005), and that the northern edge of the sinking branch of 
the equator-subtropics overturning of air--known as the Hadley 
circulation--should move polewards, with an associated poleward 
movement of dry regions (Lu et al., 2006).

    Question 7d. Which ocean regions will be first to experience large 
changes in carbonate chemistry? How long before large changes occur?
    Answer. According to the modeling studies of Orr et al., (2005, 
2006), the Arctic and Southern Oceans will become undersaturated with 
respect to aragonite in the second half of this century. During this 
period, the Southern Ocean's aragonite saturation horizon shoals from 
its present average depth of 730m all the way to the surface. Similar 
large migrations of the aragonite saturation horizon are projected for 
the North Atlantic. In the North Pacific, portions of the subarctic 
Pacific will undergo undersaturation (with respect to aragonite) by the 
end of the century. In the Orr et al. (2005) modeling study, the 
concentration of carbonate ions that corals use to build their 
skeletons (the reef) will become inadequate to support reefs around the 
middle of the century.

    Question 8. How will lower calcification rates, due to an increase 
in ocean acidification, higher ocean temperatures, and changes in 
nutrients affect ocean carbon chemistry and carbon export rates?
    Answer. As indicated in the answer to Question 4b above, the 
Buesseler et al. (2007) article points to the need for more research on 
the nature and rates of organic matter remineralization and carbon 
export processes in the upper water column. We do not know if ocean 
acidification will enhance the process of remineralization in shallow 
waters by causing calcium carbonate shells, and their associated 
organic carbon (ballast carbon), to dissolve higher up in the water 
column. This is potentially an important positive ocean feedback 
mechanism for enhancing the return of CO<INF>2</INF> back to the 
atmosphere.

    Question 9. What are the expected changes to the biological pump--
the process which transports carbon throughout the ocean--due to the 
increase in carbon dioxide and what will be the consequences of these 
changes?
    Answer. Calcium carbonate particles play a significant role in the 
transport of organic matter to the deep ocean by acting as a ballast 
mineral particle, absorbing organic matter at shallow depths and 
carrying it downward as the particles settle to deeper depths and 
dissolve.
    Calcium carbonate dissolution at increasingly shallower depths in 
the oceans could possibly decrease the depth of remineralization of 
organic matter, causing a reduction in the ocean uptake of 
CO<INF>2</INF>. This process needs to be quantitatively assessed for 
changing pH conditions in the oceans.

    Question 10. Fossil-fuel use is also increasing the amounts of 
nitric and sulfuric acid deposition in the oceans. How will these 
elements alter surface seawater alkalinity and pH?
    Answer. Anthropogenic nitrogen and sulfur deposition to the ocean 
surface alter surface seawater chemistry, leading to acidification and 
reduced total alkalinity. The acidification effects, though not as 
large globally as those of anthropogenic CO<INF>2</INF> uptake, could 
be significant in coastal ocean regions.

    Question 10a. Will the impacts of these elements differ in coastal 
waters versus open ocean and how may they affect marine ecosystems?
    Answer. According to a recent paper by Doney et al. (in press, 
Proceedings of the National Academy of Science, 2007), the deposition 
of anthropogenic nitrogen and sulfur has a relatively small effect on 
changes in open-ocean surface water chemistry, relative to the effect 
of CO<INF>2</INF> increases due to the oceanic uptake of anthropogenic 
CO<INF>2</INF>. However, the impacts of nitrogen and sulfur are more 
substantial in coastal waters, where the ecosystem responses to ocean 
acidification could have severe implications for coastal inhabitants.

    Question 11. During the hearing a question was raised regarding the 
global average increase in ocean temperature of 0.04+ C. It is well 
known that the largest increases in ocean temperature are in the 
surface waters and this plays a large role in the Earth's heat budget. 
Can you please explain how significant the warming has been in the 
surface waters and what the implications have been for increased sea 
surface temperature as it relates to hurricane intensity, El Nino, 
drought, and other extreme weather events?
    Answer. Based on historic and paleoclimatic records, the global 
mean land and ocean surface temperature has increased by 
0.8<plus-minus>0.2+ C (1.4<plus-minus>0.3+ F) since the last half of 
the nineteenth century, and global mean surface temperatures increased 
at a rate of about 0.2+ C/decade over the last few decades. Present 
temperatures are the warmest on record going back through at least the 
last 1,000 years, and we will likely soon be experiencing temperatures 
warmer than at any time in the last million years (Hansen et al., 
2006). Subsurface ocean temperatures down to 3,000 m (10,000 feet) 
depth are also on the rise. More than 80 percent of the added heat 
resides in the ocean. The impacts of the increased heat content are 
described below.

  <bullet> Hurricane Intensity: It is likely that some increase in 
        tropical cyclone peak wind-speed and rainfall will occur if the 
        climate continues to warm; however, there is no firm conclusion 
        on whether there is currently a global warming signal in the 
        tropical cyclone climate record to date.

  <bullet> El Nino: The El Nino-Southern Oscillation (ENSO) system is a 
        naturally occurring climate phenomenon that leads to major 
        fluctuations in global climate patterns at approximately 3-7 
        year intervals. There is scientific debate over the influence 
        that rising globally-averaged temperatures has had and will 
        have on the frequency and intensity of ENSO fluctuations. What 
        is certain is that natural fluctuations in temperature lead to 
        warmer and cooler years than normal. If the average temperature 
        is rising, as it has in the 20th century and is expected to in 
        the 21st century, the warm temperatures during natural 
        oscillations periods will be even hotter than those of the 
        past.

  <bullet> Drought: Droughts have increased, consistent with 
        acceleration in the water cycle and greater evaporation and 
        transport of water vapor at the scale of continents. Observed 
        changes in sea surface temperatures, circulation patterns and 
        decreased snowpack and snow cover are also linked to drought.

    Question 11a. Can you highlight different regions that have 
experienced large increases in surface water temperature and how much 
the surface waters have warmed?
    Answer. According to the 4th Assessment Report by the 
Intergovernmental Panel on Climate Change (IPCC) Working Group I, the 
oceans are warming. Recent warming is strongly evident at all latitudes 
in sea surface temperatures (SST) over each of the oceans: there are 
inter-hemispheric differences in warming in the Atlantic; the Pacific 
is punctuated by El Nino events (discussed in detail in answer to 
question above) and Pacific decadal variability that is more symmetric 
around the equator; while the Indian ocean exhibits steadier warming 
throughout. These characteristics lead to important differences in 
regional rates of surface ocean warming, and understanding of the 
variability and trends in different oceans is still developing. A full 
discussion of observations and oceanic climate change and sea level is 
included in Chapters 3 and 5 of the IPCC Working Group I report.
    Estimating regional SST increases is more difficult than estimating 
global ocean temperature increases, due to uncertainties in how missing 
data points are dealt with and in correcting for systematic errors in 
measurements. These uncertainties are all amplified at the smaller 
scale (e.g., regional vs. global) and the further we go back in time.
    Given the uncertainties indicated above, following is a list of 
linear trends in SST in the tropics, computed over the period 1880-
2006, in units of +C per 100 years--to get the total rise of the linear 
trend, multiply by 1.27:

  <bullet> Averaged across the tropics, sea surface temperatures have 
        increased at a rate of 0.35-0.45+ C per 100 years since the 
        1880s.

  <bullet> The largest tropical warming in the 20th century has 
        occurred in the northern Indian Ocean (0.46-0.73+ C per 100 
        years) and the southern tropical Atlantic (0.56-0.77+ C per 100 
        years) since 1880.

  <bullet> For the northern tropical Atlantic, the range is between 
        0.24-0.52+ C per 100 years since 1880.

  <bullet> In the tropics, the greatest uncertainty in temperature 
        trend is in the eastern equatorial Pacific, where sparse data 
        and strong natural year-to-year fluctuations associated with El 
        Nino/La Nina make estimating the long-term trend more 
        problematic than in other regions, the observationally-based 
        estimates range from 0.12-0.5+ C per 100 year since 1880.

    These trends are based on the Kaplan et al., (1998), Rayner et al., 
(2003), and Smith and Reynolds (2004) SST datasets, and are computed 
over the period 1880-2006. The exact regions used to calculate these 
trends:

  <bullet> Tropics: Global, 30+ S-30+ N.

  <bullet> Northern Indian Ocean: 50+ E-100+ E, 0+ N-20+ N.

  <bullet> South Atlantic: 40+ W-10+ E, 20+ S-0+ N.

  <bullet> North Atlantic: 80+ W-30+ W, 5+ N-20+ N.

  <bullet> Eastern Equatorial Pacific: 150+ W-90+ W, 5+ S-5+ N.

Literature Cited
    Betts, A.K. (1998) Climate-convection feedbacks: some further 
issues. Climatic Change. 39: 35-38.
    Betts, A.K., and W. Ridgway. (1989) Climatic Equilibrium of the 
Atmospheric Convective Boundary Layer over a Tropical Ocean. Journal of 
Atmospheric Science. 46(7), 2621-2641.
    Caldeira, K. and Wickett, M.E. (2005) Ocean model predictions of 
chemistry changes from carbon dioxide emissions to the atmosphere and 
ocean. Journal of Geophysical Research--Oceans. 110: C09S4, doi: 
10.1029/2004JC002671.
    Cane, M.A., A.C. Clement, A. Kaplan, Y. Kushnir, D. Pozdnyakov, R. 
Seager, S.E. Zebiak, and R. Murtugudde. (1997) 20thCentury Sea Surface 
Temperature Trends. Science. 275: 957-960.
    Cesar, H.; L. Pet-Soede, S. Westmacott, S. Mangi, and A. Aish. 
(2002) Economic Analysis of Coral Bleaching in the Indian Ocean--Phase 
II. In: Linden, O.; Souter, D.; Wilhelmsson, D.; and Obura, D. (eds), 
Coral degradation in the Indian Ocean: Status Report 2002. CORDIO, 
Department of Biology and Environmental Science, University of Kalmar, 
Kalmar, Sweden, 251-262.
    Cobb, K.M., C.D. Charles, and D.E. Hunter. (2001) A central 
tropical Pacific coral demonstrates Pacific, Indian, and Atlantic 
decadal climate connections. Geophysical Research Letters. 28(11): 
2209-2212.
    Cobb, K.M., C.D. Charles, H. Cheng, and R.L. Edwards. (2003) El 
Nino/Southern Oscillation and tropical Pacific climate during the last 
millennium. Nature. 424: 271-276.
    Costanza, R.; R. d'Arge, R. de Groot, S. Farber, M. Grasso, B. 
Hannon, K. Limburg, S. Naeem, R.V. O'Neill, J. Paruelo, R.G. Raskin, P. 
Sutton, and M. van den Belt. (1997) The value of the world's ecosystem 
services and natural capital. Nature. 387: 253-260.
    Doney, S.C., N. Mahowald, I. Lima, R.A. Feely, F.T. Mackenzie, J.-
F. Lamarque, and P.J. Rasch. (2007) The impact of anthropogenic 
atmospheric nitrogen and sulfur deposition on ocean acidification and 
the inorganic carbon system. Proceedings of the National Academy of 
Science [in press].
    Donner, S.D., W.J. Skirving, C.M. Little, M. Oppenheimer, O. Hoegh-
Guldberg. (2005) Global assessment of coral bleaching and required 
rates of adaptation under climate change. Global Change Biology. 11: 1-
15.
    Feely, R.A., C.L. Sabine, K. Lee, W. Berelson, J. Kleypas, V.J. 
Fabry, and F.J. Millero. (2004) Impact of anthropogenic CO<INF>2</INF> 
on the CaCO<INF>3</INF> system in the oceans. Science. 305(5682): 362-
366.
    Guinotte, J.M., R.W. Buddemeier, and J.A. Kleypas. (2003) Future 
coral reef habitat marginality: temporal and spatial effects of climate 
change in the Pacific basin. Coral Reefs. 22: 551-558.
    Guinotte, J.M., J. Orr, S. Cairns, A. Freiwald, L. Morgan, and R. 
George. (2006) Will human-induced changes in seawater chemistry alter 
the distribution of deep-sea bioherm-forming scleractinians? Frontiers 
in Ecology and the Environment. 4(3): 141-146.
    Hansen, J., Mki. Sato, R. Ruedy, K. Lo, D.W. Lea, and M. Medina-
Elizade. (2006) Global temperature change. Proceedings of the National 
Academy of Science. 103, 14288-14293, doi: 10.1073/pnas.0606291103.
    Held, I.M. and B.J. Soden. (2006) Robust responses of the 
hydrological cycle to global warming. Journal of Climate. 19: 5686-
5699.
    Kaplan, A., M. Cane, Y. Kushnir, A. Clement, M. Blumenthal, and B. 
Rajagopalan. (1998) Analyses of global sea surface temperature 1856-
1991. Journal of Geophysical Research. 103: 18,567-18,589.
    Kleypas, J.A., R.A. Feely, V.J. Fabry, C. Langdon, C.L. Sabine, and 
L.L. Robbins. (2006) Impacts of ocean acidification on coral reefs and 
other marine calcifiers: A guide to future research. Report of a 
workshop held 18-20 April 2005, St. Petersburg, FL, sponsored by NSF, 
NOAA, and the U.S. Geological Survey, 88 pp.
    Knutson, T.R., and S. Manabe, 1995: Time-mean response over the 
tropical Pacific to increased CO<INF>2</INF> in a coupled ocean-
atmosphere model. Journal of Climate. 8(9): 2181-2199.
    Lu, J., G.A. Vecchi and T. Reichler. (2007) Expansion of the Hadley 
cell under global warming. Geophysical Research Letters. 34: L06805. 
doi: 10.1029/2006GL028443.
    Orr, J.C., V.J. Fabry, O. Aumont, L. Bopp, S.C. Doney, R.A. Feely, 
A. Gnanadesikan, N. Gruber, A. Ishida, F. Joos, R.M. Key, K. Lindsay, 
E. Maier-Reimer, R. Matear, P. Monfray, A. Mouchet, R.G. Najjar, G.-K. 
Plattner, K.B. Rodgers, C.L. Sabine, J.L. Sarmiento, R. Schlitzer, R.D. 
Slater, I. Totterdell, M.-F. Weirig, Y. Yamanaka, and A. Yool (2005): 
Anthropogenic ocean acidification over the twenty-first century and its 
impact on calcifying organisms. Nature. 437(7059): 681-686.
    Orr, J.C., L.G. Anderson, N.R. Bates, L. Bopp, V.J. Fabry, E. 
Jones, D. Swingedouw. (2006) Arctic Ocean Acidification. Eos, 
Transactions of the American Geophysical Union. 87(36): Ocean Science 
Meeting Supplement Abstract OS14B-01.
    Precht W.F. and R.B. Aronson. (2006) Death and resurrection of 
Caribbean reefs: a palaeoecological perspective. In: Cote I., Reynolds 
J. (eds) Coral reef conservation. Cambridge University Press, 
Cambridge, pp 40-77.
    Sabine, C.L., R.A. Feely, N. Gruber, R.M. Key, K. Lee, J.L. 
Bullister, R. Wanninkhof, C.S Wong, D.W.R. Wallace, B. Tilbrook, F.J. 
Millero, T.-H. Peng, A. Kozyr, T. Ono, and A.F. Rios. (2004) The 
oceanic sink for anthropogenic CO<INF>2</INF>. Science. 305(5682): 367-
371.
    Schubert R., H.-J. Schellnhuber, N. Buchmann, A. Epiney, R. 
GrieBhammer, M. Kulessa, D. Messner, S. Rahmstorf, J. Schmid, 2006: The 
Future Oceans--Warming up, Rising High, Turning Sour, Special Report 
from German Advisory Council on Global Change (WBGU), ISBN 3-936191-14-
X, http://www.wbgu.de 110 pp.
    Stanley, G.D. (2006) Photosymbiosis and the Evolution of Modern 
Coral Reefs. Science. 312: 857-858.
    Rayner, N.A., D.E. Parker, E.B. Horton, C.K. Folland, L.V. 
Alexander, D.P. Rowell, E.C. Kent and A. Kaplan. (2003) Global analyses 
of sea surface temperature, sea ice, and night marine air temperature 
since the late nineteenth century. Journal of Geophysical Research. 
108(D14): 4407, doi: 10.1029/2002JD002670.
    Smith, T.M., and R.W. Reynolds. (2004) Improved Extended 
Reconstruction of SST (1854-1997). Journal of Climate. 17: 2466-2477.
    van Oldenborgh, G.J., S.Y. Philip, and M. Collins. (2005) El Nino 
in a changing climate: a multi-model study. Ocean Science. 1: 81-95.
    Vecchi, G.A., B.J. Soden, A.T. Wittenberg, I.M. Held, A. Leetmaa, 
M.J. Harrison. (2006) Weakening of Tropical Pacific Atmospheric 
Circulation due to Anthropogenic Forcing. Nature. 441(7089): 73-76. 
doi: 10.1038/nature04744.
    Vecchi, G.A., and B.J. Soden. (2007) Global warming and the 
weakening of tropical circulation. Journal of Climate (in press).
    Yin, J.H. (2005) A consistent poleward shift of the storm tracks in 
simulations of 21st century climate. Geophysical Research Letters. 32: 
L18701, doi: 10.1029/2005GL023684.
    Zhang, M. and H. Song. (2006) Evidence of deceleration of 
atmospheric vertical overturning circulation over the tropical Pacific. 
Geophysical Research Letters. 33: L12701, doi: 10.1029/2006GL025942.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Dr. Lara J. Hansen
    Question 1. Coral reefs are not just critical habitat for fish. In 
my state of Hawaii, they are also an economic engine supporting both 
fishing and tourism. Is ocean acidification or the increase in sea 
temperature the more pressing issue for protecting and preserving 
Hawaii's coral reefs and other marine resources and why?
    Answer. You can not prioritize one of these issues over the other. 
They share the same root cause and will both dramatically affect our 
Nation's coral reefs. Increasing atmospheric CO<INF>2</INF> is 
increasing global temperatures, including the ocean's temperatures. 
This same CO<INF>2</INF> is being absorbed by our oceans and lowering 
their pH. They are inextricably linked; prevent one and you prevent 
both, and if you fail to prevent either it will result in an increase 
in global as well as ocean temperatures. Unfortunately, we are already 
seeing the manifestation of both. It is possible that ocean 
acidification is the more ominous as we do not know all of the effects 
it will have, owing to our long believe that the ocean's vast buffering 
capacity prevents such things in our timeframe. It exacerbates the 
ongoing adverse effects we have been seeing due to increasing water 
temperature for the past several decades. We must do everything we can 
to limit both.

    Question 2. How can we incorporate actions to address these issues 
into an overall management strategy for protecting Hawaii's corals and 
other marine resources?
    Answer. There are four general steps that WWF feels are crucial to 
improving management in the face of climate change. First, you must 
assess where your resources are and ensure that those which are 
naturally more resilient are protected. Where possible you manage along 
climatological gradients so that these ecosystems can respond 
accordingly. Second, you must limit all of the non-climate stresses to 
levels where climate change's added stress does not exacerbate them, or 
vice versa. This includes further reducing acceptable levels of habitat 
loss and fragmentation, pollutants, invasive species, disease/pests, 
and over- or destructive harvest. Third, we need to start implementing 
these approaches as soon as possible, in a do-no-harm manner, start 
monitoring them, adjust as necessary and share lessons widely. Fourth, 
we must reduce the rate and extent of climate change. This means to 
rapidly reduce greenhouse gas emissions.

    Question 3. Dr. Hansen, could you tell me what adaptation and 
mitigation steps you think the United States needs to take to address 
the threats that climate change and ocean acidification pose to our 
ocean resources?
    Answer. First and foremost we need to get serious about reducing 
greenhouse gas emissions. Nothing we have done to date gets close to 
what we must do to save our national and global economy, natural 
resources, biodiversity and well-being. We need to do this as quickly 
as possible. This means taking action to improve conservation of energy 
(fuel economy, reduced use of long-distance transmission of 
electricity, real standards on appliances), switch to renewable 
energies that produce no greenhouse gases and finally, decommission 
those sources of power generation that do.
    Second, we need to recognize that we are already committed to a 
certain level of climate change, likely about 2 degrees Celsius (I 
believe that even this is too much). We must also recognize that this 
will have serious impacts on our oceans, our citizens, our forests, our 
freshwater systems, our highway systems, our wastewater treatment 
facilities, and our agricultural system. We need to rethink every piece 
of legislation, and assess whether or not it is prepared for climate 
change. Are we making bad investments because they are vulnerable to 
the effects of climate change? We need to think proactively now because 
the climate is changing rapidly. There is a book about the Arctic 
climate experience called ``The World is Faster Now''. It is and we 
must be prepared.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Dr. Lara J. Hansen
    Question 1. The most rigorous mitigation goal in the recent summary 
report by the Intergovernmental Panel on Climate Change is to stabilize 
atmospheric greenhouse gas levels between 445 and 710 parts per million 
by 2030. But given that the current concentrations of atmospheric 
carbon are estimated at 379 parts per million, shouldn't this target be 
set at a much lower level if we are to effectively address climate 
change? What is the expected temperature increase of this range?
    Answer. 2.0 to 4.0+ C

    Question 1a. What would be the impacts on our ocean resources if we 
were to reach these emissions levels?
    Answer. Allowing emissions levels to reach the upper end of this 
range is still unfathomable. For the past 650,000 years we have stayed 
between about 180 and 300 ppm. To now be at 384 ppm and say we are 
headed to 710 should be seen by this planet's inhabitants as 
unacceptable. That amount of warming would mean unprecedented coral 
bleaching, loss of many, if not most coral species, altered marine food 
webs as species shift their ranges or simply disappear (imagine if you 
will what the loss of krill, the base of the marine food web, would 
mean for life on Earth?), changes in the dominant phytoplankton species 
(these are what produce most of our oxygen), loss of most of the 
world's terrestrial ice causing massive sea level rise, altered ocean 
currents and even more heating as the planet becomes less reflective. 
All of these changes will cause unprecedented responses in human 
communities, such as movement of climate refuges, famine, and disease. 
In all honesty, this level of warming is not something that ecologists 
like to ponder; it may be one of the most cataclysmic scenarios that I 
can ponder.

    Question 1b. Do you think that policymakers should specifically 
take ocean impacts into account when setting emissions reductions 
targets?
    Answer. Absolutely. The oceans provide myriad services that we take 
for granted but they sustain life on this planet. We must also 
recognize that the more CO<INF>2</INF> we put in the atmosphere, the 
greater the ocean acidification commitment, which is something that we 
do not fully understand the consequences of.

    Question 1c. Do current emissions reduction targets sufficiently 
consider ocean impacts?
    Answer. Most certainly not.

    Question 1d. How do you think policymakers should incorporate ocean 
impact concerns when setting emissions reduction targets?
    Answer. Yes, please see above.

    Question 2. Dr. Hansen, I understand that you were part of a team 
that produced NOAA's publication titled ``A Reef Managers Guide To 
Coral Bleaching''. This handbook acknowledges that climate change is 
outside of the immediate control of most managers, and recommends that 
the best management strategy is often to reduce stressors that are 
within local control--such as reducing pollution or overfishing. What 
can managers facing ocean acidification learn from this approach? What 
are some concrete steps in the short-term and long-term that can be 
taken to adapt to these impacts?
    Answer. Perhaps the most daunting challenge is to develop 
adaptation strategies in response to ocean acidification. It ranks up 
there with how to protect sea ice dependent creatures in a world 
without ice. The only short-term strategy that my team has developed is 
working to limit all of the other stresses so that systems can try to 
keep up with this change without it being exacerbated by other 
challenges. Unfortunately one of the key stresses that can aggravate 
this is warming waters. The same actions that cause acidification cause 
warming.

    Question 2a. Aside from reducing emissions, what other steps should 
policymakers be taking to address the impact of climate change and 
ocean acidification on the oceans?
    Answer. We should start doing everything we can to make ocean 
systems more robust, by reducing all of the other insults we have sent 
their way. But really, the only solution, the only lifeline for the 
oceans, is for us to stop dumping CO<INF>2</INF> in them, which is 
exactly what we do when we dump it into the atmosphere.

    Question 3. What are the potential impacts of some of the currently 
proposed climate change mitigation strategies on the marine 
environment--such as iron stimulated plankton blooms or injection of 
CO<INF>2</INF> into sea sediments?
    Answer. Storing CO<INF>2</INF> in the world's oceans, either 
through direct injection or stimulating phytoplankton assimilation is 
risky business. You are trading one environmental disaster for another. 
There may be some merit to storing carbon in old oil and gas deposits 
since they are presumably not environmentally sensitive locations, but 
this is not true of the ocean. In the case of injection, you are 
damaging the deep ocean communities which are very sensitive to such 
changes in pH and gas composition as they are extremely stable systems 
(very little variability in any physical parameters). You are also 
acidifying the oceans from the bottom up, rather than the top down. In 
the case of ocean ``fertilization'' you are increasing ocean 
productivity, which can have negative consequences as well as the 
desired. You will change the species composition of the phytoplankton 
community, selecting for species that are iron limited. These 
phytoplankton, in their current composition, provide many ecosystem 
services. Will the new set do so as well? We don't know.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            James D. Watkins
    Question 1. Admiral Watkins, what are the most important steps that 
the United States should take to address the threats we are learning 
about today, in terms of research and monitoring, outreach and 
education, and adaptation and mitigation measures? Can you identify 
some specific actions that Congress should take to strengthen Federal 
efforts in the area of ocean impacts of climate change?
    Answer. This reply is to questions 1 and 3 from Chairman Inouye. 
Earlier this summer JOCI consulted with leading experts in ocean and 
climate change science and policy regarding the development of 
recommendation for incorporating oceans as part of climate change 
legislation under consideration by Congress. The Initiative suggests 
that Congress address the link between oceans and climate change by 
addressing needs in two key areas: governance reform and science. 
Clearly, additional funding will be necessary to make sustained 
progress in both areas. A more detailed discussion of our 
recommendations is included in the attached paper, which was sent to 
leaders in the House and Senate, as well as the Administration. I 
request that the entire text of the paper be included as part of my 
reply to the Committee's follow-up questions.
    Below is brief summary of the key recommendations from the paper.
Governance Reform
    Climate change involves complex and dynamic interactions of the 
atmosphere, ocean, land, their related ecosystems, and human 
activities. The complexity and breadth of issues associated with 
efforts to understand, mitigate, and adapt to climate change, the scale 
of its impacts from the local to the global level, and the need to 
understand the relationship between natural variability and climate 
change, make it essential that the Nation have a coherent and 
comprehensive strategy to address this new challenge. This will require 
the establishment of a Climate Change Response Office to guide the 
development and implementation of a National Climate Change Response 
Strategy.
    Ocean science and management must be recognized as key elements of 
such a national response strategy. Actions that would help ensure this 
occur include codifying the White House Committee on Ocean Policy and 
charging it with supporting a broader National Climate Change Response 
Strategy. Another beneficial step would be to codify and strengthen the 
National Oceanic and Atmospheric Administration (NOAA), which is the 
key Federal agency providing climate-related services and ocean 
management information. Finally, Congress should require a biennial 
integrated assessment of the Nation's progress toward mitigating and 
adapting to climate change impacts. An integrated assessment evaluating 
the collective effort of Federal programs and activities will provide a 
baseline from which to measure progress and will help ensure the Nation 
is maximizing the use of available data and information to improve the 
caliber of forecasts and to evaluate the effectiveness of management 
actions.

        1. Charge the National Academy with recommending a process and 
        strategy to respond to climate change, including consideration 
        of the organization and functions of a National Climate Change 
        Response Office responsible for guiding Federal programmatic 
        and budgetary climate change activities.

        2. Codify and strengthen the White House Committee on Ocean 
        Policy, and give it a key role in supporting the activities of 
        the Climate Change Response Office.

        3. Codify and strengthen the National Oceanic and Atmospheric 
        Administration (NOAA), realigning the agency's organizational 
        structure to enhance and focus its capacity to provide climate-
        related services and improve ocean and coastal management.

        4. Require a biennial integrated assessment of the Nation's 
        progress toward meeting its objectives to mitigate and adapt to 
        impacts associated with climate change and variability.

        5. Require the submission of an integrated budget to 
        consolidate and highlight priorities established by the 
        National Climate Change Response Office that would accompany 
        the President's annual budget request.

Science Requirements
    Credible and timely scientific information will be essential as the 
Nation begins the process of responding to the challenges associated 
with climate change. A much more comprehensive and robust science 
enterprise that incorporates a better understanding of the ocean's role 
in climate change is required to forecast more accurately the magnitude 
and intensity of this change at multiple scales, as well as to evaluate 
options for mitigation and adaptation. Unfortunately, the existing 
ocean and coastal science enterprise supporting climate change 
research, observations, data management, and socioeconomic analysis is 
limited.
    The status of infrastructure supporting ocean science, such as 
ship, satellites, buoys, cabled observatories, planes, and other 
monitoring hardware, is bleak. Additionally, support for shore-side lab 
work, where data for the observing systems is analyzed, quality-
controlled, synthesized, and integrated, has eroded. Further underlying 
these weaknesses is a lack of capability to transmit large amounts of 
ocean data in real time and a disjointed data management system that 
prevents scientists from fully utilizing the data that are being 
collected now.
    Congress can begin to remedy this situation by calling on the 
administration to prioritize and request full funding to implement its 
Ocean Research Priorities Plan and Implementation Strategy (ORPPIS). 
ORPPIS provides a solid blueprint to guide research on the ocean's role 
in climate. It is the first comprehensive research strategy developed 
by the Administration with input from the ocean community and should be 
used by Congress to guide its ocean science funding priorities.
    Congress should also authorize and fund the implementation of an 
Integrated Ocean Observing System (IOOS), with the system being driven 
by a cooperative interagency process that incorporates expertise from 
outside the Federal system. Sustained research and operational 
monitoring and analyses programs supported by enhanced data collection, 
management, and synthesis capabilities are the foundation of an 
observation system that can refine climate change models and reduce the 
level of uncertainty associated with their projections.
    Finally, Congress should support research and science programs 
focused on analyzing the potential impact various greenhouse gas 
mitigation strategies may have on ocean and coastal processes and 
ecosystem health. Recommendations for carbon sequestration in the 
oceans will require particularly careful review, given our growing 
concern about the sensitivity of marine ecosystems to changes in the 
biogeochemistry of ocean waters as a result of increased absorption of 
carbon dioxide, in particular ocean acidification.

        1. Request prioritization of and provide funding to implement 
        the Administration's Ocean Research Priorities Plan and 
        Implementation Strategy, with a focus on developing a science 
        enterprise that is responsive to societal and environmental 
        concerns.

        2. Enact legislation authorizing the implementation of an 
        Integrated Ocean Observing System, incorporating both coastal 
        and global components.

        3. Fund major ocean observation research and monitoring 
        infrastructure systems and supporting science and data 
        management programs, such as an Integrated Ocean Observing 
        System, the Ocean Observatories Initiative, research vessels, 
        and remote sensing programs.

        4. Enhance funding support for transitioning ocean and 
        atmospheric data collection and synthesis programs from 
        research to operational status, with ongoing engagement of the 
        ocean science community in the operation, evaluation, and 
        evolution of the programs.

        5. Support research to evaluate the impact of greenhouse gas 
        mitigation policies on coastal and ocean processes and 
        ecosystem health (e.g., oceanic carbon sequestration, biofuel 
        production).

    Question 2. Do you believe that the current Federal budget to 
address the ocean impacts of climate change is sufficient?
    Answer. Clearly, the answer is no, as I responded when Senator 
Stevens asked a similar questions during the hearing. The short- and 
long-term implications of climate change are significant in 
relationship to the impact on the environmental health of marine 
ecosystems and the economic vitality of coastal communities. In the 
recent Joint Initiative report to Congress, ``From Sea to Shining 
Sea,'' we identify $750 million in high priority funding needs to 
support the recommendations of the two Commissions. Much of the funding 
identified in this report would directly contribute to improving our 
understanding of the oceans role in climate processes, as well as 
strengthen coastal community's capacity to adapt to the changes 
accompanying these shifts. For example, we support enhancing ocean 
governance and coastal management, such as improving interagency 
collaboration, expanding regional coordination, and strengthening 
programs that focus on system-wide watershed activities, such as the 
Coastal Zone Management Program and USDA and U.S. Army Corps of 
Engineer programs.
    In the science realm we call for oceans to be incorporated into the 
President's American Competitiveness Initiative, for the expansion of 
ocean research and exploration initiatives, and building a strong 
Integrated Ocean Observing System to monitor, observe, map, and analyze 
changes in our oceans, coasts, and Great Lakes. A final area that 
demands attention, but always seems to be ignored, is support of 
education and outreach, for without an informed public there will be a 
lack of political will and scientific expertise to move us toward more 
sustainable management strategies. Again, I would refer Members of the 
Committee and Committee staff to our ``From Sea to Shining Sea'' report 
for more detailed funding recommendations.
                                 ______
                                 
                               Attachment
Addressing Oceans and Climate Change in Federal Legislation
                                                          July 2007
Introduction
    The purpose of this paper is to provide Congress with information 
and recommendations to support the enactment of legislation that 
incorporates ocean science, management, and education into a national 
initiative to mitigate and adapt to climate change. This initiative 
must complement ongoing efforts to understand, monitor, and forecast 
changes associated with natural variability, such as El Nino and the 
Pacific Decadal Oscillation, since anthropogenic climate change will 
also impact the frequency, pattern, and severity of these natural 
processes. The goal is to improve our collective understanding of the 
role of the oceans in climate change in order to inform policies and 
strategies intended to reduce the vulnerability of and increase the 
resiliency of our economic and ecological systems to impacts associated 
with climate change. It is the Joint Ocean Commission Initiative's view 
that this goal can best be met through a broad national climate change 
response strategy that includes an emphasis on the oceans role in 
climate-related processes.
    After consultation with leading experts in ocean and climate change 
science and policy, the Joint Ocean Commission Initiative suggests that 
Congress address the link between oceans and climate change by 
addressing needs in two key areas: governance reform and science. 
Clearly, additional funding will be necessary to make sustained 
progress in both areas. The actions recommended by the Joint Ocean 
Commission Initiative are summarized below and discussed in more detail 
in the pages that follow.
Governance Reform

        1. Charge the National Academy with recommending a process and 
        strategy to respond to climate change, including consideration 
        of the organization and functions of a National Climate Change 
        Response Office responsible for guiding Federal programmatic 
        and budgetary climate change activities.

        2. Codify and strengthen the White House Committee on Ocean 
        Policy, and give it a key role in supporting the activities of 
        the Climate Change Response Office.

        3. Codify and strengthen the National Oceanic and Atmospheric 
        Administration (NOAA), realigning the agency's organizational 
        structure to enhance and focus its capacity to provide climate-
        related services and improve ocean and coastal management.

        4. Require a biennial integrated assessment of the Nation's 
        progress toward meeting its objectives to mitigate and adapt to 
        impacts associated with climate change and variability.

        5. Require the submission of an integrated budget to 
        consolidate and highlight priorities established by the 
        National Climate Change Response Office that would accompany 
        the President's annual budget request.

Science Requirements

        1. Request prioritization of and provide funding to implement 
        the Administration's Ocean Research Priorities Plan and 
        Implementation Strategy, with a focus on developing a science 
        enterprise that is responsive to societal and environmental 
        concerns.

        2. Enact legislation authorizing the implementation of an 
        Integrated Ocean Observing System, incorporating both coastal 
        and global components.

        3. Fund major ocean observation research and monitoring 
        infrastructure systems and supporting science and data 
        management programs, such as an Integrated Ocean Observing 
        System, the Ocean Observatories Initiative, research vessels, 
        and remote sensing programs.

        4. Enhance funding support for transitioning ocean and 
        atmospheric data collection and synthesis programs from 
        research to operational status, with ongoing engagement of the 
        ocean science community in the operation, evaluation, and 
        evolution of the programs.

        5. Support research to evaluate the impact of greenhouse gas 
        mitigation policies on coastal and ocean processes and 
        ecosystem health (e.g., oceanic carbon sequestration, biofuel 
        production).

The Role of Oceans in Climate Change

    Increasing awareness and concerns about climate change have 
elevated the urgency to take action to mitigate its causes and make 
preparations to adapt to its anticipated economic and environmental 
impacts. At continental, regional, and ocean basin scales, numerous 
long-term changes in climate have been observed. These include changes 
in arctic temperatures and ice, as well as widespread changes in, ocean 
salinity, wind patterns, the quantity of precipitation, and various 
aspects of extreme weather.\1\ As Congress moves forward in developing 
climate change policies, the accompanying legislation should recognize 
the fundamental role oceans play in governing climate change and Earth-
related processes. Some important facts regarding the relationship 
between oceans and climate change include the following:
---------------------------------------------------------------------------
    \1\ Intergovernmental Panel on Climate Change. 2007. Report of 
Working Group I The Physical Science Basis.

  <bullet> Oceans cover 71 percent of the Earth's surface and average 
---------------------------------------------------------------------------
        over 12,200 feet in depth.

  <bullet> Water holds approximately 1,000 times the amount of heat as 
        air, and the interaction between ocean circulation and the 
        global distribution of heat is the primary driver of climatic 
        patterns.

  <bullet> The oceans are warming, particularly since 1950s, with 
        global mean sea surface temperature having increased roughly 
        one degree Fahrenheit in the 20th century.\2\
---------------------------------------------------------------------------
    \2\ Doney, Scott. 2006. The Dangers of Ocean Acidification. 
Scientific American (March).

  <bullet> Sea levels rose 7 inches during the 20th century and nearly 
---------------------------------------------------------------------------
        1.5 inches between 1993 and 2003 alone.\2\

  <bullet> Oceans are a major carbon sink and have absorbed fully half 
        of all fossil carbon released to the atmosphere since the 
        beginning of the Industrial Revolution.\2\

  <bullet> The absorption of carbon has resulted in increasing ocean 
        acidification, impacting the health of marine ecosystems and 
        species, including, but not limited to, those with carbonate-
        based skeletons (e.g., corals), as well as influencing the 
        important role ocean plays in the global cycling of carbon.

  <bullet> Little to no Arctic sea ice is expected in the summers by 
        2100.\2\

Governance Reform to Address Oceans and Climate Change
    Climate change involves complex and dynamic interactions of the 
atmosphere, ocean, land, their related ecosystems, and human 
activities. The complexity and breadth of issues associated with 
efforts to understand, mitigate, and adapt to climate change, the scale 
of its impacts from the local to the global level, and the need to 
understand the relationship between natural variability and climate 
change make it essential that the Nation have a coherent and 
comprehensive strategy to address this new challenge.
    Unfortunately, there is general agreement in the scientific 
community that the current Federal climate change governance regime is 
too limited in scope and must be expanded if it is to be truly 
comprehensive. A Climate Change Response Office is required to guide 
the development and implementation of a National Climate Change 
Response Strategy. Such an office must have the authority to direct the 
activities of multiple Federal agencies and have a strong role in the 
budget formulation process. This will require designing and 
implementing a strategy that balances the need to conduct basic and 
applied research, monitoring and analysis, and modeling and 
forecasting, with the goal of translating data into information 
products that can be used to develop sound policies to mitigate and 
adapt to environmental and socioeconomic impacts stemming from climate 
change.
    Ocean science and management must be recognized as key elements of 
a national response strategy. Thus, the existing interagency 
coordination process operating under the White House Committee on Ocean 
Policy \3\ should be codified and charged with supporting the effort to 
institutionalize a broader National Climate Change Response Strategy. 
An additional action needed to strengthen the Federal Government's 
capacity to respond to climate change is to codify and strengthen the 
National Oceanic and Atmospheric Administration (NOAA). As a key 
provider of climate-related services and ocean management information, 
and as one of the principle agencies investigating the ocean's role in 
climate variability, NOAA plays a lead role in matters related to 
climate change. However, an outdated organizational structure and the 
lack of resources have limited NOAA's ability to fulfill its multiple 
mandates. The opportunity is ripe for Congress to reevaluate NOAA's 
organizational structure and realign programs along its core functions: 
environmental assessment, prediction, and operations; scientific 
research and education; and marine resource and area management. 
Strengthening NOAA and realigning its functions would greatly enhance 
its capacity to provide climate-related services and facilitate the 
implementation of proactive management measures to mitigate anticipated 
impacts on coastal economies and ecosystems.
---------------------------------------------------------------------------
    \3\ Executive Order 13366, 2004.
---------------------------------------------------------------------------
    Finally, Congress should require a biennial integrated assessment 
of the Nation's progress toward mitigating and adapting to climate 
change impacts. An integrated assessment evaluating the collective 
effort of Federal programs and activities will provide a baseline from 
which to measure progress and will help ensure the Nation is maximizing 
the use of available data and information to improve the caliber of 
forecasts and to evaluate the effectiveness of management actions. An 
additional step that would facilitate better integration of Federal 
programs would be a requirement for the submission of an integrated 
budget that clearly identifies priorities established by the proposed 
National Climate Change Response Office and how those priorities relate 
to and complement efforts directed at understanding the ocean's role in 
climate change. Congressional oversight of the Federal budget is its 
most powerful tool, but Congress' capacity to help guide a response to 
an issue as complex as climate change is compromised when information 
is dispersed throughout the President's budget.
Ocean and Coastal Science Requirements
    Credible and timely scientific information will be essential as the 
Nation begins the process of responding to the challenges associated 
with climate change. Better science, when linked with improved risk 
management and adaptive management strategies, will help guide a 
process that must deal with the relatively high levels of uncertainty 
related to mitigation alternatives and the range of impacts associated 
with climate change and variability. A much more comprehensive and 
robust science enterprise that incorporates a better understanding of 
the ocean's role in climate change is required to forecast more 
accurately the magnitude and intensity of this change at multiple 
scales, as well as to evaluate options for mitigation and adaptation. 
This process must also include strengthening capacity in the social 
sciences, whose contributions will influence risk and adaptive 
management strategies significantly given the immense economic impact 
climate change will have on coastal communities.
    Unfortunately, the existing ocean and coastal science enterprise 
supporting climate change research, observations, data management, and 
socioeconomic analysis is limited. Despite the unprecedented 
opportunities to capitalize on technological advances, future capacity 
is compromised due to a lack of fiscal support for key infrastructure 
and science programs. For example, the U.S. commitment to constructing 
an observing system focused on studying physical ocean processes is 
only half complete, while satellite systems responsible for generating 
invaluable data across large areas of oceans are aging. The 
construction of replacement systems are behind schedule, over budget, 
and as currently configured, may have less capacity than the systems 
they are replacing. The status of infrastructure supporting on and 
underwater ocean science, such as ship, buoys, cabled observatories, 
planes, and other underwater monitoring hardware, is bleak. 
Additionally, support for shore-side lab work, where data for the 
observing systems is analyzed, quality-controlled, synthesized, and 
integrated, has eroded. Further underlying these weaknesses is a lack 
of capability to transmit large amounts of ocean data in real-time and 
a disjointed data management system that prevents scientists from fully 
utilizing the data that are being collected now. Stagnant funding 
supports only bare-bones research, monitoring, modeling, and analysis 
enterprises that have difficulty providing the quantity and quality of 
data needed to generate information with the relatively high levels of 
confidence demanded by decisionmakers facing difficult policy choices.
    Congress can begin to remedy this situation by taking the following 
series of steps. First, it should call on the administration to 
prioritize and request full funding to implement its Ocean Research 
Priorities Plan and Implementation Strategy (ORPPIS). ORPPIS provides a 
solid blueprint to guide research on the ocean's role in climate, 
including the development of a comprehensive observing system and other 
ocean-related research priorities that will improve our ability to 
enhance the resiliency of marine ecosystems and coastal economies to 
climate-induced changes. Particularly noteworthy in ORPPIS is its 
emphasis on using improved understanding to provide better and timelier 
policy and resource management decisions, relying on much stronger 
support for social and economic research. It is the first comprehensive 
research strategy developed by the Administration with input from the 
ocean community and should be used by Congress to guide its ocean 
science funding priorities.
    Congress should also authorize and fund the implementation of an 
Integrated Ocean Observing System (IOOS). Support for the 
implementation of the coastal and global IOOS should be driven by a 
cooperative interagency process that incorporates expertise from 
outside the Federal system. Congressional support should also extend to 
major observing initiatives supported by the National Science 
Foundation, as well as to remote sensing satellite programs supported 
by NASA's Earth Science program. As noted earlier, the loss or 
diminishment of remote sensing capabilities, in addition to the lack of 
support for transitioning ocean and atmospheric data collection and 
synthesis program from research to operational status, has 
significantly compromised our Nation's capacity to monitor the vast 
expanse of the ocean. Sustained research and operational monitoring and 
analyses programs supported by enhanced data collection, management, 
and synthesis capabilities are the foundation of an observation system 
that can refine climate change models and reduce the level of 
uncertainty associated with their projections.
    Finally, Congress should support research and science programs 
focused on analyzing the potential impact various greenhouse gas 
mitigation strategies may have on ocean and coastal processes and 
ecosystem health. Recommendations for carbon sequestration in the 
oceans will require particularly careful review, given our growing 
concern about the sensitivity of marine ecosystems to changes in the 
biogeochemistry of ocean waters as a result of increased absorption of 
carbon dioxide, in particular ocean acidification. Similarly, increased 
biofuel production will generate additional runoff of nutrients, 
herbicides, and pesticides, further exacerbating pollution and nutrient 
enrichment problems in coastal waters.
    Given their immense size, fundamental role as a driver of climate 
processes, and critical social and economic importance, it is 
imperative that Congress focus greater attention and resources on 
improving our understanding and management of our oceans, coasts, and 
Great Lakes. The actions recommended above are important steps that 
will lay the foundation for making great advances in ocean science and 
allow meaningful progress toward improved stewardship of one of 
nation's greatest natural resources.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            James D. Watkins
    Question 1. Admiral Watkins, do you think that policymakers should 
specifically take ocean impacts into account when setting emissions 
reductions targets? Do current emissions reduction targets sufficiently 
consider ocean impacts? How do you think policymakers should 
incorporate ocean impact concerns when setting emissions reduction 
targets?
    Answer. I cannot say how much consideration climate scientist and 
policymakers are giving to impacts on ocean-related chemistry and 
ecology as they evaluate various emission reduction scenarios. However, 
I strongly suspect that it is inadequate, particularly in light of the 
testimony presented at the hearing suggesting that atmospheric carbon 
dioxide levels in excess of 450 ppm may have the potential of 
sufficiently increasing the acidity of surface ocean water to levels 
that would begin to jeopardize phytoplankton productivity and the 
capacity of other carbonate-extracting species from forming shells and 
skeletons.
    It is this concern and others that are driving the Joint 
Initiative's effort to elevate awareness of the role of oceans in 
climate processes. In order for policymakers to make informed and 
balanced decisions regarding the incorporation of ocean-related 
concerns in the emission reduction targeting process, they should 
pursue two strategies. First, they should support additional ocean 
science to get a better understanding of natural variability in the 
system, and how the accumulation of human-generated emissions are 
exacerbating this variability and driving other changes. Second, given 
the fact that acquiring this information will take some time, 
policymakers should strongly consider taking a precautionary approach 
in the target setting process. By this I mean taking a prudent, 
balanced approach that acknowledges the vulnerability of the ocean 
ecosystem to dramatic increases in carbon-based emissions, while also 
recognizing the multiple economic benefits and services provided by our 
oceans, coasts, and Great Lakes. As more information become available, 
the framework developed should be flexible and capable of adapting to 
new information. I remain very concerned about the short-sightedness of 
prior policies that contributed to the degradation of our oceans and 
coasts and strongly encourage a new strategy that incorporates full 
consideration of the health of our oceans and coastal communities into 
the decisionmaking process.
    Finally, given the increased focus on identifying technologies 
capable of capturing carbon dioxide and other greenhouse gases; it is 
imperative that support for these efforts include funding to study the 
potential impact of storing these gases in or under our oceans. We now 
have a much better appreciation for the sensitive ecological balance in 
our oceans and must take great care not to further exacerbate existing 
problems by assuming our oceans are capable of further degradation.

    Question 2. Admiral Watkins, how can we improve our ocean and Earth 
observation programs to ensure understanding of the impacts of global 
climate change and ocean acidification on the marine environment?
    Answer. Perhaps the single most important step we can make is to 
implement and fully fund an Integrated Ocean Observing System (IOOS). 
The Joint Initiative reiterates this point in its recent climate change 
and oceans paper, which I reference in my response to Chairman Inouye's 
questions, as well as in our report to Congress, ``From Sea to Shining 
Sea.'' The IOOS system, as conceived by the ocean science community, 
covers the spectrum of observations. This system includes a progression 
of activities and programs, starting with studying and understanding 
ongoing physical, chemical, and biological processes occurring in the 
oceans and along our coasts, to gain a better knowledge of how various 
components within the system operate and interact. The second element 
of the strategy includes developing and implementing systematic and 
sustainable observation systems, consisting of remote (satellite), in 
situ (buoys, stationary sensors), and mobile platforms (vessels, SUVs), 
that provide a steady accounting of changes in system processes. The 
third element is to use this information to refine climate and ocean 
models, increasing their capacity to provide credible and accurate 
forecasts of changes in the functioning of natural systems.
    There are significant infrastructure costs associated with 
establishing such a system, as well as support for the synthesis and 
integration of the wealth of information generated by the system. 
However, the costs associated with this effort are minimal given the 
significant fiscal benefits resulting from the improved accuracy, 
credibility, and reliability a comprehensive earth observation system 
will provide. The information provided by a fully operational IOOS will 
be invaluable as Congress and other policymakers wrestle with difficult 
policy decisions that have significant socioeconomic impacts, not the 
least of which will be determining an appropriate target for emission 
reductions.

                                  <all>

</pre></body></html>
